<html>
<title> - THE WORKFORCE INVESTMENT ACT: IDEAS TO IMPROVE THE WORKFORCE DEVELOPMENT SYSTEM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     THE WORKFORCE INVESTMENT ACT: 
                          IDEAS TO IMPROVE THE 
                      WORKFORCE DEVELOPMENT SYSTEM 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 26, 2007

                               __________

                           Serial No. 110-58

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                     U.S. GOVERNMENT PRINTING OFFICE

36-739 PDF                 WASHINGTON DC:  200?
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




























                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS


                    RUBEN HINOJOSA, Texas, Chairman

George Miller, California            Ric Keller, Florida,
John F. Tierney, Massachusetts         Ranking Minority Member
David Wu, Oregon                     Thomas E. Petri, Wisconsin
Timothy H. Bishop, New York          Cathy McMorris Rodgers, Washington
Jason Altmire, Pennsylvania          Virginia Foxx, North Carolina
John A. Yarmuth, Kentucky            John R. ``Randy'' Kuhl, Jr., New 
Joe Courtney, Connecticut                York
Robert E. Andrews, New Jersey        Timothy Walberg, Michigan
Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware
Susan A. Davis, California           Mark E. Souder, Indiana
Danny K. Davis, Illinois             Vernon J. Ehlers, Michigan
Mazie Hirono, Hawaii                 Judy Biggert, Illinois




























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 26, 2007....................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    72
    Hinojosa, Hon. Ruben, Chairman, Subcommittee on Higher 
      Education, Lifelong Learning, and Competitiveness..........     1
        Prepared statement of....................................     2
        Additional submissions:
            Prepared statement of the United States Conference of 
              Mayors.............................................    55
            Prepared statement of Ray Uhalde, director, Workforce 
              Development Strategies Group, National Center on 
              Education and the Economy..........................    63
            Prepared statement of the National Association of 
              Counties (NACo)....................................    73
            Prepared statement of the National Organization for 
              Competency Assurance (NOCA)........................    76
            Prepared statement of Susan Rees, director of 
              national programs and policy, Wider Opportunities 
              for Women..........................................    84
            Prepared statement of the National Network for 
              Women's Employment.................................    87
    Keller, Hon. Ric, Ranking Minority Member, Subcommittee on 
      Higher Education, Lifelong Learning, and Competitiveness...     3
        Prepared statement of....................................     4
        Additional submission: prepared statement of Gary J. 
          Earl, president, CEO, Workforce Central Florida........    44

Statement of Witnesses:
    Butler, Beth, disability and accommodation consultant, 
      Wachovia Corp..............................................     7
        Prepared statement of....................................     8
        Responses to questions for the record....................    92
    Carbone, Joseph M., president & CEO, the WorkPlace, Inc......    28
        Prepared statement of....................................    30
    Petit, Mason, employment and training counselor, Washington 
      State Employment Security, on behalf of the American 
      Federation of State, County and Municipal Employees 
      (AFSCME)...................................................    19
        Prepared statement of....................................    20
        Additional submission: prepared statement of the American 
          Federation of Labor-Congress of Industrial 
          Organizations (AFL-CIO)................................    49
    Randolph, Kathleen, president, Partners for Workforce 
      Solutions, Inc.............................................    32
        Prepared statement of....................................    34
    Twomey, John, president, National Workforce Association......    12
        Prepared statement of....................................    13
    Ware, Charles, chair, National Association of State Workforce 
      Board Chairs, on behalf of the National Governors 
      Association................................................    23
        Prepared statement of....................................    25
        Responses to questions for the record....................    93


                     THE WORKFORCE INVESTMENT ACT:
                          IDEAS TO IMPROVE THE
                      WORKFORCE DEVELOPMENT SYSTEM

                              ----------                              


                        Thursday, July 26, 2007

                     U.S. House of Representatives

                   Subcommittee on Higher Education,

                 Lifelong Learning, and Competitiveness

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Ruben Hinojosa 
[chairman of the subcommittee] presiding.
    Present: Representatives Hinojosa, Tierney, Wu, Bishop of 
New York, Yarmuth, Scott, Davis of Illinois, Keller, Petri, 
Souder, Ehlers, and McKeon.
    Staff present: Tylease Alli, Hearing Clerk; Michael Gaffin, 
Staff Assistant, Labor; Lamont Ivey, Staff Assistant, 
Education; Brian Kennedy, General Counsel; Ricardo Martinez, 
Policy Advisor, Subcommittee on Higher Education, Lifelong 
Learning and Competitiveness; Rachel Racusen, Deputy 
Communications Director; Michele Varnhagen, Labor Policy 
Director; James Bergeron, Minority Deputy Director of Education 
and Human Services Policy; Kathryn Bruns, Minority Legislative 
Assistant; Kirsten Duncan, Minority Professional Staff Member; 
Victor Klatt, Minority Staff Director; Susan Ross, Minority 
Director of Education and Human Services Policy; Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel; and 
Sally Stroup, Minority Deputy Staff Director.
    Chairman Hinojosa [presiding]. A quorum is present. The 
hearing of the subcommittee will come to order.
    Pursuant to Committee Rule 12(a), any member may submit an 
opening statement in writing which will be made part of the 
permanent record.
    I now recognize myself, followed by the ranking member, for 
an opening statement.
    Welcome. Welcome to the second hearing on the 
reauthorization of Workforce Investment Act of the Subcommittee 
on Higher Education, Lifelong Learning and Competitiveness.
    Our ability to compete in a global marketplace is directly 
tied to the capacity of our workforce. It is essential that we 
take this opportunity of the reauthorization of the Workforce 
Investment Act to prepare for the challenges ahead.
    With the retirements of the baby boom generation, we are 
facing an exodus of highly skilled, highly educated individuals 
from the workforce.
    The workforce development system for the 21st century must 
find ways to maximize ongoing participation from older workers 
who want to continue working.
    Our system must also value and develop the talents of all 
of its workers, especially those with disabilities.
    The return on investment in reducing or eliminating the 
need for public assistance and enabling a person with 
disabilities to fully participate in the workplace and in their 
communities is enormous.
    Today, our vocational and rehabilitation services programs 
are strained beyond their capacity. There are long and growing 
waiting lists for services. We need to make sure that the V.R. 
system is equipped to handle the increased demand.
    Our workforce system must also be integrated with our 
education system. We also know that our future workforce will 
increasingly come from minority communities. Forty-two percent 
of our public school children are racial or ethnicity 
minorities.
    We are not equipping these young people for the demands of 
a knowledge-based economy. Nearly half of our black and 
Hispanic students fail to graduate from high school. Without 
this basic credential, their future contributions to the 
workforce will be limited.
    Finally, our system must be successful in building skills 
for the many adults who have low levels of literacy and lack a 
high school credential.
    Many of these individuals work very hard but struggle to 
support themselves and their families. We must invest in 
building their skills if we are going to have a competitive 
economy.
    The Workforce Investment Act created a new and 
comprehensive workforce investment system designed to change 
our employment--and training services are delivered.
    At our first hearing we took a broad look at the 
implementation of the 1998 law and what areas need to be 
strengthened.
    Today at this hearing, we will take a closer look at the 
implementation of the programs authorized under Workforce 
Investment Act from individual, local, regional, and state 
perspectives.
    I am eager to hear the witnesses' testimony and 
recommendations on how we can improve the workforce development 
system in a way that positions both employers and employees for 
the future.
    As we look to make improvements to the Workforce Investment 
Act, we must never lose sight of our obligation to ensure that 
the programs serve those with the greatest needs.
    I would like to thank the witnesses for joining us today.
    Now I would like to yield to the senior Republican on the 
subcommittee, my friend and colleague, Congressman Ric Keller 
of Florida, for his opening statement.
    [The prepared statement of Mr. Hinojosa follows:]

 Prepared Statement of Hon. Ruben Hinojosa, Chairman, Subcommittee on 
        Higher Education, Lifelone Learning, and Competitiveness

    Good Morning. Welcome to the second hearing on the reauthorization 
of the Workforce Investment Act of Subcommittee on Higher Education 
Lifelong Learning and Competitiveness.
    Our ability to compete in a global marketplace is directly tied to 
the capacity of our workforce. It is essential that we take this 
opportunity of the reauthorization of the Workforce Investment Act to 
prepare for the challenges ahead.
    With the retirements of the baby boom generation, we are facing an 
exodus of highly skilled, highly educated individuals from the 
workforce. A workforce development system for the 21st century must 
find ways to maximize on-going participation from older workers who 
want to continue working.
    Our system must also value and develop the talents of all workers--
especially those with disabilities. The return on investment in 
reducing or eliminating the need for public assistance and enabling a 
person with disabilities to fully participate in the work place and in 
their communities is enormous. Today, our vocational and rehabilitation 
services programs are strained beyond their capacity. There are long 
and growing waiting lists for services. We need to make sure that the 
VR system is equipped to handle the increased demand.
    Our workforce system must also be integrated with our education 
system. We also know that our future workforce will increasingly come 
from minority communities. 42 percent of our public school children are 
racial or ethnicity minorities. We are not equipping these young people 
for the demands of a knowledge-based economy. Nearly half of our black 
and Hispanic students fail to graduate from high school. Without this 
basic credential, their future contributions to the workforce will be 
limited.
    Finally our system must be successful in building skills for the 
many adults who have low levels of literacy and lack a high school 
credential. Many of these individuals work very hard but struggle to 
support themselves and their families. We must invest in building their 
skills if we are going to have a competitive economy.
    The Workforce Investment Act created a new and comprehensive 
workforce investment system designed to change how employment and 
training services are delivered. At our first hearing, we took a broad 
look at the implementation of the 1998 law and what areas need to be 
strengthened .
    Today we will take closer look at the implementation of the 
programs authorized under Workforce Investment Act from individual, 
local, regional, and state perspectives. I am eager to hear the 
witnesses' testimony and recommendations on how we can improve the 
workforce development system in a way that positions both employers and 
employees for the future. As we look to make improvements to the 
Workforce Investment Act, we must never lose sight of our obligation to 
ensure that the programs serve those with the greatest needs.
    I would like to thank the witnesses for joining us today. Now I 
would like to yield to the senior republican on the subcommittee, 
Congressman Ric Keller of Florida, for his opening statement.
                                 ______
                                 
    Mr. Keller. Well, thank you very much, Mr. Chairman.
    And good morning to all our witnesses and all of you here 
today.
    I want to thank the chairman for holding today's hearing on 
the Workforce Investment Act, also called WIA, in an effort to 
prepare us to reauthorize this important law.
    This is the second hearing that we have had on this 
important subject. I look forward to working with our chairman 
and all my colleagues on both sides of the aisle in this effort 
in a bipartisan manner. And based on the conversations that we 
have had so far, I think that is going to be possible.
    The Workforce Investment Act is the nation's primary 
assistance for unemployed and underemployed workers. Prior to 
Congress' 1998 WIA reforms, the nation's job training system 
was somewhat fragmented, duplicative and overlapping at times.
    WIA now integrates employment and training services at the 
local level in a more unified workforce development system.
    I have seen that firsthand down in Orlando through the One-
Stop centers in my district which are run through the Workforce 
Central Florida organization headed by a guy named Gary Earl, 
who serves as their president and CEO.
    I am pleased that later today our chairman will be asking 
unanimous consent to put Mr. Earl's testimony into the official 
Congressional Record along with a couple other people's 
testimony, so my colleagues will have that to look at.
    But I can tell you how innovative it is. In my particular 
area, for example, I have joined with Mr. Earl and Workforce 
Central Florida to take an R.V. to rural parts of my district 
that normally wouldn't have the chance to meet with someone 
like a congressman, senator or the head of Workforce Central 
Florida.
    And we pull up and let them know we are there, and right 
there we provide them a list of jobs in their area that they 
can apply for. We give them job training options. We tell them 
that we will help prepare their resumes and give them tips on 
job interviewing skills.
    And it has been very well received, and I look forward to 
fostering that kind of local innovative work by our local 
workforce agencies throughout the country.
    These agencies frequently, not just in Orlando, have been 
able to provide folks with job training, job counseling, and 
labor market information to help them get back on their feet.
    I want to close just by thanking today's panel of witnesses 
for being here. I look forward to hearing what you think about 
the existing law, both the benefits and the challenges, and 
also what your recommendations are for the future to see how we 
can take a good law and make it even better.
    So thank you much for being here, and I will yield back the 
balance of my time.
    [The prepared statement of Mr. Keller follows:]

Prepared Statement of Hon. Ric Keller, Ranking Member, Subcommittee on 
        Higher Education, Lifelong Learning, and Competitiveness

    Good morning. Thank you Mr. Chairman, for holding today's hearing 
on the Workforce Investment Act (WIA) in an effort to help us prepare 
to reauthorize the law. I look forward to working with you and my 
colleagues on both sides of the aisle in this effort. Judging from the 
conversations that we have had, I feel confident that we will make 
good, bipartisan progress on this bill.
    The Workforce Investment Act (WIA) is the nation's primary 
assistance for unemployed and underemployed workers. Prior to 
Congress's 1998 WIA reforms, the nation's job training system was 
fragmented, duplicative and overlapping, and did not serve either job 
seekers or employers well. WIA now integrates employment and training 
services at the local level in a more unified workforce development 
system.
    Through the Workforce development system, job seekers have access 
to job training, job counseling, and labor market information to help 
them get back on their feet. Since the 1998 reforms, WIA has 
dramatically improved the nations formerly disjointed workforce 
development programs. I look forward to continued success of WIA and to 
further improvements for American job seekers.
    I would like to thank today's panel of witnesses for being here to 
discuss the law's successes and challenges, as well as their potential 
recommendations for improvement. It is clear there is still room for 
improvement, and I look forward to working with all of you during this 
process. I would also like to formally submit for the official record, 
the testimony of the Gary Earl, the President and CEO of Workforce 
Central Florida. Workforce Central Florida is the Orlando area's 
leading permanent placement agency and offers employment solutions to 
the community through its one stop centers and other innovative 
resources. While he could not be here, I think you will all find Gary's 
testimony to be both insightful and pertinent to our discussion today.
    I yield back.
                                 ______
                                 
    Chairman Hinojosa. Thank you for your statement.
    I want to add my experience in that when I came in 1996, we 
had the opportunity to rewrite this workforce act, and we 
changed from a private industry council to the Workforce 
Solutions, what we call Workforce Solutions in my region.
    The Workforce Investment Act was a new way of thinking and 
organizing. And coming from an area that had had three decades 
of double-digit unemployment rates, where we trained 
individuals for jobs that we hoped they would be able to find, 
we changed that completely to this new system.
    And I am pleased to tell you that it has worked. It has 
worked, and we have had a single digit unemployment rate now 
the last 3 years. So I am pleased to be able to have this 
opportunity to be chair of this committee and to see how we can 
reauthorize this act and make it even stronger.
    And areas like ours, Ric's and mine, that have rural areas 
that we represent are anxious to see how we can improve it.
    Now I am pleased to be able to start with the 
introductions, and the first person I would like to introduce 
is Ms. Beth Butler, who serves as a vice president of 
employment compliance with Wachovia corporate headquarters in 
Charlotte, North Carolina.
    Prior to her current position, she was a senior litigation 
consultant where she managed charges of employment 
discrimination for all lines of business. Beth has also served 
as vice chairman of the Alabama State Rehabilitation Council.
    She brings a unique perspective to the dialogue on 
employment, since she is wife and mother and attorney who 
happens to have a disability. Legally blind since birth, Beth 
uses ZoomText software and other assistive technology to 
achieve her success at Wachovia bank system.
    She has a bachelor's degree in foreign language from West 
Virginia University as well as a J.D. from Cumberland School of 
Law at Samford University in Birmingham, Alabama.
    And I am looking forward to your testimony.
    Also with us today is Mr. John Twomey, who has been the 
executive director of the New York Association of Training and 
Employment Professionals since January of 1987.
    From 1976 to 1986, John directly administered youth and 
adult employment and training programs in the Bronx, New York 
City. He has received awards recognizing him for his excellent 
programs involving both youth as well as adult employment 
training programs.
    Today he will also represent the National Workforce 
Association. John holds a bachelor's degree in communications 
from Fordham University in New York City.
    Mr. Charles Ware is the CEO of the Wyoming Contractors 
Association and has served in that position for 11 years.
    He also serves as the CEO of WCA's McMurray Training Center 
and is director of its Construction Careers Foundation, a 
501(c)(3) foundation charged to develop and support education 
and training careers for Wyoming's construction and energy 
industries.
    Charles was appointed by the Governor's Workforce 
Development Council in 1999 and since 2001 has been their 
chairman. He also serves as chair of the National State 
Workforce Board Association. Today he will represent the 
National Governors Association.
    He holds a bachelor of arts from Santa Clara University and 
a master of arts degree from San Jose State University.
    Mr. Mason Petit's career of public service begins with a 
military service in the Vietnam era. He has worked for various 
states and local government agencies since then and continues 
today with the Washington State Employment Security Department, 
where he is an employment counselor in the WIA unit, 
specializing in the Federal Trade Act program.
    His duties include finding retraining and educational 
opportunities for dislocated workers whose jobs have been lost 
overseas as a result of international trade agreements under 
GAAP and under NAFTA.
    He has been an active member of the Washington State 
Employees Union Local number 1221. And today he will also 
represent the American Federation of State, County and 
Municipal Employees, the AFL-CIO.
    Mr. Joseph M. Carbone is the president and CEO of the 
Workplace Incorporated, Southwestern Connecticut's Workforce 
Development Board.
    His organization serves more than 22,000 people and over 
200 businesses a year in a 20-town region, bridging Fairfield 
and New Haven Counties.
    Joe is a champion for regional workforce and economic 
development initiatives such as WIRED, a very important program 
in the Department of Labor.
    Mr. Carbone has worked in the private sector with Textron 
and the Allied Signal Corporation. Joe has a bachelor of 
science in economics from Quinnipiac University and lives in 
New Haven.
    Welcome.
    Now it gives me great pleasure to yield to Congressman 
Souder from Indiana, who will present our next witness.
    Mr. Souder. I thank the chairman.
    In Fort Wayne, Indiana, we are proud to still--in northeast 
Indiana, my congressional district has the highest percent 
manufacturing left in the United States--highest congressional 
district.
    We have done that through innovation, innovation, 
innovation. We went from SEDA to JTPA when Senator Dan Quayle 
authored the Job Training Partnership Act with WIA, because 
when we lost 12,000 manufacturing jobs from Harvester, 10,000 
from G.E. in a city that has African-Americans, Hispanics, now 
thousands of refugees from Burma, Bosnia, Darfur, it requires 
innovation.
    And the flexibility and innovation that has occurred in 
Indiana over the last 20 years has a lot helped this happen. 
And Governor Daniels, working with Kathleen Randolph and others 
throughout our state, has led to this.
    Kathleen is president and CEO of Partners for Workplace 
Solutions, the agency contracted by the Northeast Indiana 
Regional Workplace Board to oversee and develop workplace 
systems.
    She has spent her career in community workforce and 
economic development. Prior to her present position, she was an 
independent consultant developing and executing projects for 
public and private foundations across the country.
    She co-authored publications on youth and trusteeship, 
public service and civic leadership.
    Kathleen has developed and implemented several DOL 
demonstration projects; most notably, Lifelong Learning 
Accounts, Career Advancement Accounts and the president's Faith 
and Community-Based Initiative, which received recognition by 
the U.S. Department of Labor as a promising practice.
    She holds a B.S. degree in human resources development and 
an M.S. in public administration. She is a certified youth 
development professional and is a certified master trainer in 
facility and lives in Fort Wayne, Indiana. It is a great honor 
to introduce her today.
    Chairman Hinojosa. Thank you.
    I am pleased to welcome one of our members and the ranking 
member of the Education and Labor Committee, the gentleman from 
California, Congressman Buck McKeon.
    Thank you for joining us this morning.
    Now we will start with our first presenter, Ms. Butler.
    You may start.

    STATEMENT OF BETH BUTLER, DISABILITY AND ACCOMMODATIONS 
                   CONSULTANT, WACHOVIA CORP.

    Ms. Butler. Thank you. It is a pleasure to be here. Thank 
you, Chairman Hinojosa, Ranking Member Keller and members of 
the committee, for inviting me to be here with you on this, the 
17th anniversary of the signing of the Americans With 
Disabilities Act, to share with you how the programs under the 
rehabilitation act continue to have a positive impact on my 
life.
    My life's journey began at age 4 when I was diagnosed with 
hypoplasia of the optic nerve, which is simply an 
underdeveloped optic nerve. My parents were encouraged early on 
to take me home and treat me no differently than my two older 
sisters, who were fully sighted.
    And I applaud my parents, because that is exactly what they 
did. I remained in public schools through elementary school, 
middle school, high school, went to college, and went on to law 
school as well.
    And now, as a contributing member of corporate America, I 
believe that it is that foundation that was laid by my parents 
early on through their encouragement and their unfailing love 
and support that laid the foundation to which I owe much of my 
success today.
    Vocational Rehabilitation Services and the Florida Division 
of Blind Services specifically was the first agency that I was 
introduced to as early as third grade.
    They attended the school. Probably once or twice a week a 
vocational specialist met with me and began to show me how to 
touch type on a large print typewriter. And that allowed me to 
type my papers in large print, making them easier for me to 
see.
    Large-print textbooks were also provided through high 
school. And as the workload began to increase my junior year in 
high school, I was given my first CCTV, which is an assistive 
technology device that Vocational Rehabilitation Services 
provides, magnifying my books and other periodicals and things 
like that.
    So that followed me all the way my 4 years through college, 
and when I graduated from college I decided to sit for the law 
school entrance exam, and did that.
    That was provided to me in large print. Again, 
accessibility was critical for me to be successful. These 
programs provided those types of opportunities for me.
    I went on to pursue the American dream and achieve the J.D. 
from Cumberland School of Law in Birmingham, Alabama, at 
Samford University.
    And then V.R. was there yet again to make that transition 
from the educational realm into the competitive workforce. And 
they provided me with a computer with large print software, as 
you mentioned, the ZoomText, other assistive technology devices 
that would enable me to be productive in a legal library--
perhaps not at home--able to have access to the assistive 
technology devices there.
    The support that I received from my qualified vocational 
rehabilitation counselors was immeasurable through this 
process.
    Now, as a wife, as a mother, as a contributing member of 
corporate America at Wachovia Corporation, working as vice 
president in employment compliance, and being able to 
contribute and put back into society and the community tax 
dollars and contribute in that way, it is a perfect example of 
the return on investment that this program demonstrates.
    And I just am extremely supportive of the programs. Through 
my own experiences, I now, as a professional, am able to 
leverage those partnerships through the national vocational 
rehabilitation network so that our Wachovia employees have an 
opportunity to leverage those services in our footprint that 
goes across the U.S., including California, Florida, obviously 
North Carolina, Texas.
    So these programs are absolutely critical to the work that 
we do. As we look at the men and women returning to our 
workforce, service men and women that will be coming back into 
our workforce, again, these programs are going to provide the 
unique support, the individualized support and services, that 
can make individuals with disabilities aspire and have the 
dreams and achieve those opportunities, as I was given the 
opportunity as well.
    Thank you so much for your time, again, the invitation, and 
we appreciate your continued support in these programs. Thank 
you.
    [The statement of Ms. Butler follows:]

    Prepared Statement of Beth Butler, Disability and Accommodation 
                       Consultant, Wachovia Corp.

    Chairman Hinojosa, Ranking Member Keller and Members of the 
Subcommittee, thank you for inviting me to be with you today on the 
17th Anniversary of the signing of the Americans With Disabilities Act 
(ADA) to discuss how the programs under the Rehabilitation Act continue 
to have a positive impact on my life.
    My name is Beth Butler and it is my pleasure to be with you today 
to discuss a program that has assisted me immeasurably in my journey 
through public education, beginning in elementary school, continuing in 
middle school, high school, college, law school and now as a 
contributing member of corporate America as Vice President of 
Employment Compliance at Wachovia Corporation, where I work as the 
Disability and Accommodations Consultant.
About Wachovia
    Wachovia is the fourth largest bank holding company in the United 
States with 3,400 Financial Centers in 21 States, including Texas, 
Florida and California. I am proud to be with Wachovia, which was 
ranked in 2007 among the Nation's ``Top 10 Companies for People with 
Disabilities'' by DiversityInc. Magazine.
    Wachovia is committed to being an inclusive company where people 
are treated fairly, recognized for their individuality, promoted based 
on performance and encouraged to reach their full potential.
    Wachovia also remains committed to supporting all individuals with 
disabilities, including our military servicemen and women as they 
transition back into the workforce, as well as individuals with 
disabilities from diverse backgrounds who come to the Vocational 
Rehabilitation (VR) program for the excellent supports and services 
that they receive from qualified rehabilitation counselors and other 
qualified staff.
    As you may know, a National Memorandum of Understanding between VR 
and the Veterans Administration has facilitated meaningful 
collaboration between these two entities, benefiting both our returning 
veterans and their employers. Wachovia's Recruiting Division has 
created a recruiting strategy to specifically attract military talent 
and, in 2005, Wachovia received the Secretary of Defense Freedom 
Award--the military's highest honor for a civilian employer--for its 
support of our National Guard and Reserves. Military Spouse Magazine 
also recently ranked Wachovia 5th on its list of the Nation's ``Top 
Military Spouse Friendly Employers.''
Vocational rehabilitation is a life-long journey
    My life's journey began in Florida at age four when I was diagnosed 
with congenital Hypoplasia (underdevelopment) of the Optic Nerve. My 
doctor challenged my parents early on to treat me no differently than 
my two older sisters who were fully sighted. My parents did exactly 
that. As a child I remained in public school participating in various 
activities including softball, both slow pitch and fast pitch, in high 
school I marched in the band, was captain of the dance team and played 
basketball. Through it all, I never once heard my parents utter the 
words ``You can't do that because you are legally blind.'' Through 
their unfailing love, support, and encouragement a foundation was laid 
that would set the stage for my future successes.
    As a young person with a disability, I was introduced to Florida's 
Division of Blind Services in third grade. I met once a week with my 
qualified rehabilitation specialist who taught me to touch type on a 
large print typewriter. This allowed me to type my papers in the 
classroom making them easier for me to read. In high school my 
textbooks were provided in large print and as my workload increased my 
junior year, VR introduced me to my first CCTV that would later follow 
me through my four years of college. I also remember taking a large 
print ACT and other standardized exams in the public school system.
    Upon completing my Bachelor's degree in foreign language at West 
Virginia University, I decided to sit for the law school entrance exam 
and again received the exam in large print. VR support continued as I 
sought to fulfill the American Dream and achieved a JD from Cumberland 
School of Law at Samford University in Birmingham, Alabama, which VR 
helped to finance. Following completion of law school, VR remained 
committed to my success, ensuring that I had a computer with large 
print software and other assistive technology that allowed me to enter 
a competitive workforce with confidence.
    Now fourteen years later, I am a wife, a mother and a contributing 
member of corporate America. While my needs have changed, VR's 
commitment to my success has not.
    When my job began to require more travel, I contacted VR, and 
through their qualified staff, obtained a monocular that provides me 
with added confidence on business trips as I maneuver through 
unfamiliar airports and hotels in cities across the U.S. At Wachovia, 
we believe that we are at our best when employees are fully engaged 
with their families, their friends, and their communities. My monocular 
assisted me in more fully engaging with my son who began to realize 
that while I may have been attending his special musical programs at 
school, I was not able to see him waving at me from the stage. My 
monocular now allows me to see my son's beaming face, smiling and 
waving at his mommy sitting in the audience. Now when he says, ``Mommy, 
did you see me?'' I can honestly say, ``Yes, buddy, I saw you.''
    Clearly, a relationship with VR is a lifelong journey. My 
relationship with VR remains strong. As an HR professional, I now 
collaborate with the National VR-Business Network to ensure other 
business leaders and people with disabilities have access to the same 
valued resource that can turn dreams and aspirations into reality.
    As far as a return on investment, I am the ultimate return on 
investment and now remain committed to helping others live the American 
Dream in achieving a quality education, supporting a family, having a 
career, owning a home and living independently and inclusively in the 
community. I understand that the return on investment in Alabama, one 
of the VR programs I was served by, is $20.69 for every dollar invested 
in my rehabilitation. From a banking and finance perspective, that is 
an excellent return and a great investment of taxpayer dollars.
Recommendations to reauthorize vocational rehabilitation programs
    On behalf of the National Rehabilitation Association (NRA), the 
Council for State Administrators of Vocational Rehabilitation (CSAVR) 
and myself as a consumer of the VR 2 program, I would like to bring 
before the Committee a number of important issues to consider in the 
reauthorization of the Workforce Investment Act, including Title IV of 
the Rehabilitation Act of 1973, as amended.
    Since I was served by theVR program, the number of individuals with 
disabilities seeking the excellent services and supports offered by the 
VR program has greatly increased. Currently, I am told that only 1 in 
20 eligible individuals with disabilities is being served by the 
program and, in some states, there are long waiting lists for services, 
including as many as 9,000 individuals.
    Over the past 4 years the number of seriously wounded warriors 
alone returning home from Iraq and Afghanistan and seeking services 
from both the VR program and the VA programs has overwhelmed the 
Veterans Administration and impacted the number of eligible individuals 
served by the VR program.
    Like you, I have been reading the stories about how the VA is 
having difficulty serving the numerous returning veterans who are 
suffering from Post Traumatic Stress Disorder, a Disorder, which 
unattended, can and has destroyed the quality of life for so many of 
our veterans. Vocational Rehabilitation Counselors have the expertise 
to assist individuals with traumatic brain injuries, spinal cord 
injuries, and post traumatic stress disorder, in obtaining, retaining 
or regaining employment, and State VR agencies in some states have been 
asked by the VA to assist them in serving these individuals.
    Another important consideration is the issue of aging and the 
workforce. Many baby boomers will choose to, or in some cases must, 
remain in the workforce. The greatest incident in an aging workforce 
occurs with vision impairment, blindness, hearing loss and deafness. 
Many of these disabilities qualify the older worker for services 
provided under the VR program. Therefore, it is going to be critical 
that Congress and employers alike recognize that additional funds are 
needed not only to support the existing population, but to accommodate 
the thousands of individuals with disabilities who will seek VR 
services over the next several decades.
    But the VR program over time has been stretched to its capacity. 
Accordingly, we respectfully request that this Committee consider 
additional funding for Title I of the VR program. More specifically, we 
ask that you consider legislative language be included in the VR 
reauthorization for an authorization of appropriations sufficient to 
serve all eligible individuals with significant disabilities, who want 
to work and become taxpaying citizens, including our returning 
veterans.
    Relatedly, it is imperative to retain qualified personnel in the 
State VR agencies, some who are retiring and some who are leaving the 
VR program for better-paying jobs. Many of the qualified rehabilitation 
counselors in the State VR agencies hold Master's Degrees in 
rehabilitation counseling and related rehabilitation fields and have 
had years of experience in serving individuals with disabilities secure 
or regain a career, including those with the most significant 
disabilities.
    One of the many hallmarks of the VR program, in addition to its 
individualized services and supports, is its qualified rehabilitation 
counselors and qualified rehabilitation personnel. We must maintain 
this level of expertise in the VR program. In order to do that, we 
respectfully request your consideration of a substantial increase in 
funding for Title III of the Rehabilitation Act to maintain the level 
of expertise that eligible individuals with disabilities have come to 
expect--a level of expertise that our returning veterans with 
disabilities deserve in recognition of the sacrifices they have made 
for our country.
    Transition services for students with disabilities are also 
extremely important as they prepare to leave the educational system and 
enter post-secondary education, training, or employment. We fully 
support the Committee's recommendation that positive transition 
outcomes for students with disabilities should be enhanced. That said, 
without additional funding for this purpose, we are simply pitting 
deserving adults with disabilities, including veterans, against 
deserving students with disabilities, both of whom, if deemed eligible, 
the VR program serves.
    As funds to support the program become limited, it is imperative 
that the Congress ensures that the funds dedicated to serving eligible 
adults and students with disabilities not be diverted to other 
populations. Accordingly, we respectfully request that the language 
addressing the responsibilities of the VR program and more specifically 
regarding the administration and operation of the VR program, be 
strengthened to assure that the supervision of staff, eligibility 
determinations, approval of the Individualized Plan for Employment 
(IPE), documentation of case closure, development of the budget and 
management of the program be the sole responsibility of the State VR 
director.
    Another very important issue for the Committee to consider in your 
deliberations on the Rehabilitation Act is the importance of 
maintaining the discrete funding for programs which complement Title I 
of the Rehabilitation Act, including Projects With Industry (PWIs), 
Supported Employment, Migrants and Seasonal Farm Workers and 
Recreation. These important programs, which are accountable and 
successful and can be found in Titles III and VI, respectively, of the 
Rehabilitation Act should always maintain their discrete funding 
streams. Consolidating these programs into Title I of the 
Rehabilitation Act, which is tantamount to eliminating funding for 
these complementary programs, would only increase the waiting lists for 
VR services and further increase the unemployment rate of individuals 
with disabilities.
    It is also important to explain why maintaining the integrity of 
the Office of the Commissioner of the Rehabilitation Services 
Administration (RSA) in the U.S. Department of Education as a 
Presidential appointment confirmed by the U.S. Senate is important to 
individuals with disabilities.
    The RSA is the principal office responsible for the programs 
administered under the Rehabilitation Act of 1973, as amended. It has 
traditionally been the office that employs the greatest number of 
individuals with disabilities and serves as a role model for other 
federal and state agencies in hiring individuals with disabilities. It 
is also an inspiration to a person with a disability to see another 
individual with a disability employed at the highest levels of 
government.
    The closing of their Regional Offices almost two years ago has 
already significantly diminished the RSA. With the closing came the 
loss of significant numbers of staff with expertise in the VR program 
for monitoring and for the provision of technical assistance services 
to State VR agencies, consumers and others. Monitoring and the 
provision of technical assistance are two enormously important 
considerations in maintaining program accountability.
    Congress's continued commitment to maintaining the integrity of the 
Office of the Commissioner of RSA--many times an individual with a 
significant disability--sends a clear message to individuals with 
disabilities that it honors and supports their hard-won civil right to 
be educated, pursue careers and live independently in the community.
    Regarding the reauthorization of the Workforce Investment Act 
(WIA), in which VR is a mandatory partner, we respectfully ask you to 
consider authorizing a separate, fully-funded line item to pay for 
infrastructure costs at one-stop centers, as opposed to having the 
mandatory partners pay these costs.
    The VR program has always paid its full share of expenses no matter 
where the VR office is located. The VR program is currently paying 
millions of dollars each year in costs associated with being co-located 
at the one-stop centers. In addition, there are greater numbers of 
persons with disabilities served in the VR program that never visit or 
access a one-stop. Given that VR is already covering their costs in the 
one-stop centers, we would recommend again an authorization for 
appropriations for a line item for infrastructure funding rather than 
tapping partners' scarce resources to serve individuals, other than 
those with disabilities.
    When a person with a visible disability comes to the one-stop 
center for services and the center is co-located with VR, that 
individual is sent to the VR office for services and the one-stop 
center, in turn, counts that individual as being served by the one-
stop. Assuming the individual with a disability is deemed eligible for 
services by the VR agency, VR provides and pays for the individualized 
services and supports which include, but are not necessarily limited 
to, career counseling, guidance and development, vocational evaluation, 
job training by qualified rehabilitation counselors and career 
placement.
    Given this situation, we respectfully request that in the 
reauthorization of the WIA that the Committee qualify what it means to 
be ``served'' at the one-stops.
    As an individual with a significant disability, I fully appreciate 
the multiple barriers that individuals with disabilities face in 
entering or re-entering the world of work, including physical and 
programmatic accessibility to services, which in many instances is 
lacking at the one-stop centers. State VR offices, some of which I 
mentioned above, are co-located with the one-stops centers, and are 
fully accessible, both physically and programmatically, and have the 
qualified rehabilitation counselors and other qualified personnel in 
place and the experience in serving individuals with disabilities, 
including those with the most significant disabilities.
    Turning to the issue of who serves on the State and local workforce 
boards, we strongly encourage the Committee to consider having both the 
State VR director of the General Agency and the State VR director of 
the Blind Agency, in those states that have a separate State Agency for 
the Blind, to serve on the local Workforce Investment Boards (WIBs). We 
also support the State VR Directors being on the State Workforce 
Investment Boards (SWIBs).
    Because the VR program is a mandatory partner of the one-stop 
centers and is paying millions of dollars to be co-located with the 
centers, they must be at the table when the important decisions are 
made regarding funding and the direction of services, to assure that 
the interest of individuals with disabilities are adequately 
represented and considered in the decision making process. To do less, 
would be disrespectful to the millions of individuals who have been 
served by the VR program over the years and to all individuals with 
disabilities.
    Thank you again, Mr. Chairman and Members of the Committee, for 
allowing me to share my personal perspectives on the benefits of 
programs under the Rehabilitation Act, and for allowing me to present 
the views of VR organizations on reauthorization of the Workforce 
Investment Act, including Title IV of the Rehabilitation Act. More 
important, thank you for supporting me and all individuals with 
disabilities who benefit from the VR program. Without the support of 
Congress, the support of my parents, and the excellent services I 
received from the VR program, I would not be here today.
                                 ______
                                 
    Chairman Hinojosa. Thank you, Ms. Butler. You are an 
inspiration to many. I am part of a team that is working on 
accessibility and affordability of higher education, and there 
are so many stories of people who have challenges ahead of 
them, but none as big as yours.
    And what a wonderful role model you are, and we applaud 
you. Thank you very much.
    Now I ask Mr. Twomey.

    STATEMENT OF JOHN TWOMEY, EXECUTIVE DIRECTOR, NEW YORK 
ASSOCIATION OF TRAINING AND EMPLOYMENT PROFESSIONALS, ON BEHALF 
             OF THE NATIONAL WORKFORCE ASSOCIATION

    Mr. Twomey. Thank you, Mr. Chairman, Mr. Keller, 
distinguished members of the subcommittee.
    Mr. McKeon, it is a pleasure to see you, sir.
    I would like to begin my remarks by just thanking the 
Congress for the work that was done in the Workforce Investment 
Act of 1998. I think it was a visionary piece of legislation.
    It changed 40 years of our federal workforce policy to a 
demand-driven system with two customers, job seekers and 
businesses. It allowed us really for the first time to do 
incumbent worker training in a time when job skill requirements 
are changing so rapidly.
    I am here to report to you today that on the local level, 
we have continued to make progress. It has only been, in my 
state of New York, 7 years since we started this system. It is 
a pretty big system change--to urge you to augment and improve 
the act.
    I do respectfully urge you to reauthorize WIA with a sense 
of urgency for two reasons. The first reason is a big global 
economic confluence of events, and time doesn't allow me to go 
into that, but it is covered in pages three to six in my 
testimony.
    As the chairman in his opening statement noted, in the next 
year we begin the exodus of baby boomers. We have demographic 
shifts I think larger than most people realize.
    The change in educational payoff is an opportunity but a 
threat to our young people of color that are dropping out at 
the frequency the chairman mentioned.
    I think our global competitors think they are in a fight. I 
don't know we fully believe that yet. We have challenges to our 
immigration policy, and not just the threat, which are real, of 
offshoring but technological change.
    The second reason is really in the act itself and is caused 
by the fact that we are going on 5 years trying to get the 
Workforce Investment Act reauthorized. As Mr. Keller mentioned, 
this should be a very bipartisan piece of legislation.
    A skilled, globally competitive workforce certainly is. And 
although I recognize you are the authorizing subcommittee and 
it is--this is going to sound a little bit like I am getting 
into appropriations, the issue of definition of expenditure 
versus obligation is more than a footnote.
    Because we are not authorized, I just respectfully but 
vigorously disagree with my colleagues in the U.S. Department 
of Labor that the system is awash in unspent money.
    I know you had Sigurd Nilsen of GAO here on June 28th in 
the first hearing, and we agree completely with their findings 
that the way the department is counting unspent money does not 
reflect obligations. Mr. Nilsen also acknowledged that USDOL's 
own office of inspector general said the same thing.
    In my state of New York, from July 1st, 2001, to the 
present, we received in WIA Title 1(b) funding $1,536,278,587. 
And in that time period, we returned zero, not one penny, to 
the federal treasury, because we spent that money as a 
strategic investment in the time frames you, the Congress, 
authorized in the Workforce Investment Act of 1998, 2 years at 
the local level, 3 years at the state level.
    Because we are not authorized, and money is so tight 
because of the deficit and ongoing war in Iraq and Afghanistan, 
the ongoing need to rebuild after Hurricane Katrina, the 
funding that we need to meet the challenges our global 
competitors fully embrace--we become a piggy bank for other 
worthy programs.
    And just July 19th, in the House appropriation bill, which 
the National Workforce Association supports--we think it is a 
good bill. But the recision in there, just in my state alone, 
would reduce $28 million--the funding we have for absolutely 
desperately needed services, even in a time of low 
unemployment, our job churn is so great.
    My other more detailed recommendations are in my written 
testimony. I would like to thank you again for your leadership 
and your vision in enacting the Workforce Investment Act of 
1998.
    I would like to urge you to reauthorize it with a sense of 
urgency and thank you for the ability to appear before this 
subcommittee today. Thanks.
    [The statement of Mr. Twomey follows:]

   Prepared Statement of John Twomey, President, National Workforce 
                              Association

Introduction
    Chairman Ruben E. Hinojosa, Mr. Keller and the other distinguished 
members of this Subcommittee, my name is John Twomey, and I am the 
president of the National Workforce Association (NWA). In my other 
life, I am the CEO of New York's workforce association, NYATEP.
    In my testimony today, I will discuss very briefly, from NWA's 
perspective, why we believe it is critical to the country's 
competitiveness that the Workforce Investment Act be reauthorized this 
year. I will then discuss NWA's reauthorization positions related to 
four key areas. We hope that this information will be helpful to the 
Subcommittee as you develop your Reauthorization bill.
    Before I begin my formal testimony, I would like to take this 
opportunity to applaud this Committee and the Congress for your effort 
in authoring the Workforce Investment Act (WIA). It was a significant 
step to move from 40 years of supply-side federal workforce policy 
focused only on the jobseeker, to adding a demand-driven employer 
customer to a locally designed and delivered workforce investment 
system.
    As you hopefully prepare for reauthorization, I strongly urge that 
you build upon the locally-driven, private sector-led vision that you 
established in the Workforce Investment Act, taking care to make only 
those changes to current law that strengthen the capacity of local 
areas to build comprehensive and relevant workforce investment systems.
    In this increasingly global and changing economy, preparing a 
highly skilled workforce is the only way the United States can 
successfully compete in the future. The National Workforce Association 
believes that the establishment of a comprehensive workforce investment 
system, overseen by strong local workforce boards with services 
provided through a one-stop delivery infrastructure, was and continues 
to be a visionary way to address the economic challenges we face as we 
move further into the 21st Century.
    NWA believes that we are at a pivotal time in the history of the 
United States. On the one hand the challenges tearing at our labor 
market have never been more severe, nor more dangerous to our standard 
of living; yet, while our global competitors consciously and vigorously 
invest in the skills of their workforces, the U. S. federal investment 
in worker training continues to dangerously erode.
    The Problem--Factors greatly affecting the U. S. labor market over 
the coming years require urgent responses:
    1. The impending baby boomer retirements
    2. Huge shifts in the country's demographic composition
    3. The greatly increased payoff on post-secondary education
    4. What our global competitors are doing, that we are not doing
    5. The effects of immigration, and immigration policy, on our 
workforce
    6. The direct relationship of technological advances to the loss of 
low skilled jobs
    The impending baby boomer retirements: The oldest baby boomer 
turned 61 years old this year. According to the Bureau of Labor 
Statistics (BLS) in 2000, 13% of all U.S. workers were from the 
generation before baby boomers, while a full 48% of the country's 
workers were baby boomers. In other words, 61% of our workers were 
boomers or the previous generation. BLS further predicts that in 2010, 
these numbers will drastically drop to 3% pre-boomers and 37% boomers. 
If BLS is correct, then over a 10 year period--but particularly 
beginning in 2008, the United States will be looking to replace 21% of 
its workforce from a decade earlier; a cadre that is generally well 
skilled and has a good work ethic.
    Some say this won't happen. ``Boomers love to work,'' or ``The 
boomers haven't saved enough to retire''. Yet, entire physically 
demanding industries are deeply dependent on baby boomers--nurses, or 
electrical utility repairman, for example. Even those baby boomers that 
continue to work may not be able to continue in the physically 
demanding jobs they hold today. If this were a stand alone challenge, 
it would be difficult to overcome but we could do it.
    The magnitude of the demographic shift now underway: According to 
the Census Bureau, in 2003, 73% of all U.S. workers were white non-
Hispanic. By 2050 the numbers change dramatically. In fact, by 2010, 
just as the baby boomers start retiring, the shift is already well 
underway.

                                   USA
------------------------------------------------------------------------
                                         2003        2010        2050
------------------------------------------------------------------------
White (non-Hispanic)................        73%         65%         53%
Hispanic/Latino.....................        11%         16%         24%
Black...............................        12%         13%         14%
Asian...............................         5%          7%         11%
------------------------------------------------------------------------

    As the large cohort of baby boomers leaves the workforce, we will 
have to adjust to large cultural and demographic shifts also, in 
addition to finding a way to better educate populations who currently 
have a significant high school non-completion rate. While the African 
American population numbers are relatively steady, and even though the 
Asian numbers double, the real growth in the U. S. labor market is the 
Hispanic/Latino cohort. In 2003, approximately 10% of the total 
workforce, seven short years later Hispanics soar to one out of 6; and 
by 2050, they will be one out of four workers.
    In many states, this shift is similar but it is already greatly 
accelerated. According to a recently released report by The National 
Center for Public Policy and Higher Education entitled Measuring Up 
2006, this dramatic demographic shift in my state, New York is 
happening faster than nationally. This report says that for New York, 
here are the actual demographic breakouts in 1980 and 2000, and the 
projected numbers for 2020.

                             NEW YORK STATE
------------------------------------------------------------------------
                                         1980        2000        2020
------------------------------------------------------------------------
White (non-Hispanic)................        76%         64%         56%
All Minorities......................        24%         36%         44%
African Americans...................        12%         15%         15%
Hispanics/Latinos...................         9%         15%         20%
Asian Americans.....................       0.2%          5%         10%
------------------------------------------------------------------------

    The increased payoff on educational attainment: This third factor 
reflects a massive change that has taken place over the past 15 years. 
By itself, it presents great challenges to how we provide every 
American the skills they need to compete and thrive in this global 
economy. Coupled with the boomer retirements and the demographic 
shifts, this is where the enormity of what we must do to keep the 
country competitive starts to become clear.
    According to the Bureau of Labor Statistics, Employment Policy 
Foundation tabulation, at the conclusion of the recent ``boom'' years, 
from 1992 to 2002, we ended up nationally with 400,000 fewer jobs that 
high school dropouts could do. Shockingly, at the end of this 10-year 
period, while there were 2.6 million new jobs created nationally for 
those individuals with some post-secondary education, there were only 
100,000 more jobs available to workers who had only a high school 
degree or less.
    At the end of this ten year period, there were 2.2 million new jobs 
for those who completed a two-year community college education, or 
twenty two times more than high school education only! Another 2.4 
million new jobs were available to two-year technical college 
graduates. And 6.4 million new jobs for four-year college completers 
and those who attained graduate degrees.
    In a nutshell, since 1992 we've seen the decline of jobs that 
someone with only a high school degree or less could do. Jobs that 
probably had a pension of some sort, and most likely provided the 
worker's family with health insurance.
    What our global competitors are doing that we are not doing: In 
1999, the United States graduated 1.3 million four-year college 
graduates. In 2005, we graduated slightly fewer than 1.3 million. China 
in 1999, graduated 950,000 four-year college graduates. But by 2005, 
China's college graduation rose to 2.5 million. This didn't happen 
without significant new investment. While I recognize that you are an 
Authorizing subcommittee, not the Appropriations subcommittee, I think 
as you work to improve the workforce system, that investments our 
competitors have been making underscore the urgency to reauthorize WIA 
this year.
    In 1970, the U.S. had the highest 4-year college completion rate in 
the world; by the year 2000 we ranked # 7. In 1970, Ireland's college 
graduation rate was 20%; today it is 48%, while ours is 39%. In 
Ireland, this is part of their national effort to increase all 
employees' competency levels called One Step Up. In Ireland higher 
education is viewed as an investment not an expense, and the government 
pays the tuition. In the U.S. one of our main financial aid programs 
for poor students is Pell Grants, which have not been fully funded 
since their inception in 1980. Before the FY 07 joint funding 
resolution, the maximum Pell Grant had only been increased by $50 over 
seven years. As education matters more and more, our competitors have 
been increasing their investments, while we instead address other 
difficult but competing priorities.
    Immigration: According to the Center for Labor Market Studies at 
Northeastern University, 43% of all labor market growth in the United 
States over the past 5 years is due to immigration. In 1980, 7.9% of 
our labor force was foreign born; by 2000 that number had jumped to 
15.8%.
    Our threat here is that many of our working immigrants lack the 
literacy and educational levels to handle the large shift to new 
Knowledge Worker jobs. This challenge, coupled with the others noted 
above, leads us to believe that in fact the sum of this collective 
threat to our competitiveness is greater than the individual parts.
    Technological change: While much of the media attention focuses on 
off shoring as cause of the turbulence in the U.S. labor market, in 
fact off shoring has only caused 10% of job loss. 90% of job loss is 
due to replacement of workers by technology. While technology boosts 
productivity, replacing a receptionist with an automated phone response 
system is one reason why high school-only jobs are disappearing. 
Printing an airline boarding pass on your home computer translates to 
fewer gate attendants at the USAir counter, jobs that had a pension and 
family health insurance. EZ Pass on the New York State Thruway means 
fewer human toll takers who probably maintained a middle class 
lifestyle with only a high school credential. Registration kiosks at 
the Hilton Hotel on Connecticut Ave in Washington D.C. check many 
people into their rooms faster through touch screen choices of King 
size or two double beds, smoking or non-smoking.
    Since 1992, vast numbers of jobs have been lost through these 
changes brought about by advances in technology. Our national challenge 
is to increase the skill levels of current workers and our emerging 
workforce, while replacing baby boomers, in such a way that those 
workers don't instead create an increasing pool of unskilled workers 
competing for ever-shrinking low skill/low wage jobs.
An important part of the solution--The Workforce Investment Act
    One of our major weapons in this fight for global competitiveness 
is the Workforce Investment Act. NWA believes that significant progress 
has been made in every State in the short time WIA has been 
implemented, but it is important that we reauthorize WIA and make 
improvements so that it will be even stronger. In communities across 
the country innovative programs and strategies have blossomed as a 
result of the changed focus and flexibility provided in WIA to meet the 
needs of business and local economies in workforce areas, as well as 
the related needs of workers. As a result, we strongly believe that 
modest changes, not a dramatic overhaul, are needed in reauthorization. 
Reauthorization should result in necessary improvements and/or 
``fixes,'' and in the removal of barriers to program integration and 
innovation. Most importantly however, reauthorization should allow the 
positive evolution that is underway at the state and local levels to 
continue, building upon the private sector partnerships at the local 
level. Let me make a few specific recommendations--
    1. Authority of Local Workforce Boards (WIBs). In order to fulfill 
the broad strategic vision Congress articulated with the passage of 
WIA, NWA recommends that:
    <bullet> The private sector influence on the local WIBs should be 
bolstered by requiring local WIB membership to include at least 60% 
private sector representatives. Only public sector representatives with 
optimum decision-making authority should be allowed to serve on WIBs. 
Local WIBs should be appointed by local elected officials.
    <bullet> WIBs should be given greater direct control over resources 
and programs beyond WIA I-B. The system should allow rural, isolated 
and non-metropolitan areas of any state to have more discretion on how 
services are delivered. This would allow these areas the flexibility to 
respond to their particular labor market needs without being forced 
into inappropriate ``one-size fits all'' approaches. WIBs should have 
their own separate title in the Act, which would make clear to all that 
their mission is broader than just (today's) WIA Title 1B.
    <bullet> WIA reauthorization should clarify the essential, pivotal 
role that local boards are intended to play as conveners of key 
stakeholders for the development of local/regional workforce and 
economic strategies, and as brokers of training and related services, 
resulting in a highly skilled workforce.
    <bullet> Monetary incentives should be provided to local Boards who 
achieve exemplary results through innovative activities such as: 
strategic plan development, community audits, partnership with economic 
development entities, leveraging of local workforce and economic 
development funds, identification and adoption of innovative business 
strategies such as sectoral, incumbent worker, and career ladder 
pathways. Incentives should be provided to local boards to work 
regionally to address the comprehensive education, workforce, economic 
and competitiveness needs of their regions.
    2. One-Stop Delivery System. NWA agrees with the GAO that One-Stops 
are reducing duplication and increasing cost efficiency of the Federal 
workforce investment and partner programs. We further agree with the 
GAO that businesses know one stop career centers exist, and businesses 
have high customer satisfaction with one stop's services.
    <bullet> NWA recommends that One-Stops be authorized in a separate, 
new title of WIA, to reinforce the fact that One-Stops are the primary 
infrastructure through which to access services in a comprehensive 
workforce investment system.
    <bullet> While no one envisioned in the late 1990's when WIA was 
first being authorized the gigantic growth in broadband access to many 
American's homes, we do not believe that physical one stop locations 
can today be replaced by virtual one stops. In One Stops across this 
country, jobseekers with weak or no computer literacy skills are 
personally assisted as they apply for jobs at companies such as Home 
Depot that only accept electronic applications.
    <bullet> One of the failed promises of the Workforce Investment Act 
of 1998 is that the envisioned funding of one stop infrastructure by 
the federal partner programs has largely failed to materialize. In many 
cases, the cost of one stop infrastructure has been borne largely by 
WIA Title 1B and Wagner Peyser. In this turbulent labor market 
America's workers need the continued assistance and services of One 
Stops, but NWA recognizes that overly relying on WIA Title 1B and 
Wagner Peyser funding to support these One Stops has reduced the amount 
of training that could otherwise have been provided.
    <bullet> Therefore, we believe that One Stop infrastructure funding 
should be part of any WIA Reauthorization legislation. One Stop 
Infrastructure funding is necessary for aligning all components of the 
workforce development system. NWA recognizes the difficulty in 
determining appropriate funding contributions to One Stop 
infrastructure in this time of severe budget constraints, however, we 
believe that securing and adequately funded One Stop infrastructure is 
of great importance to providing access to American workers and 
employers as envisioned in WIA.
    <bullet> Finally, any separate line item for One Stop 
infrastructure funding must contain language protecting the Adult and 
Dislocated Worker funding levels to ensure that infrastructure is not 
funded at the expense of these needed formula funds.
    3. Training. In order to fulfill the vision in WIA to build a 
world-class workforce and strengthen U. S. businesses, training must be 
available to both emerging and existing workers. The National Workforce 
Association agrees with those organizations that think more training 
should be provided, although we believe that addressing One Stop 
infrastructure funding will be one important step in increasing the 
number of workers trained.
    <bullet> USDOL has claimed that only 200,000 people a year are 
trained under WIA. The National Workforce Association strongly disputes 
these numbers. The GAO has found that over 400,000 people a year are 
trained under WIA. But even GAO's numbers are lower than the actual 
numbers of workers receiving training. One Stop Career Centers across 
America are filled with workers engaged in skill enhancement activities 
like two week crash courses in Microsoft Office. Under current law, 
these activities, which the participating workers see as ``training'', 
are not reported as training. They should be included in the definition 
of training under WIA Reauthorization. One Stops across the country 
also do what the original WIA legislation asked them to do, leverage 
their limited funds. Yet workers who are referred from One Stops to 
Pell funded training don't show up in the WIA count. This too should be 
fixed in WIA Reauthorization. Finally, USDOL's numbers did not count 
people who received training under the Governor's 15% funds. In my 
state alone, thousands of people have been trained through strategic 
use of this WIA funding.
    <bullet> If Congress decides to require that a set percentage of a 
WIB's funds must be spent on training, then it is fair and essential 
that skill enhancements and leveraged training count under that 
requirement.
    <bullet> NWA strongly believes that WIA Reauthorization should 
adopt a regression model for calculations of cost and wage gain 
measures to reflect the local economy and characteristics of 
populations receiving services. Failure to reinstate this regression 
model that existed under WIA's predecessor legislation the Job Training 
Partnership Act risks under-serving individuals with severe barriers to 
employment.
    <bullet> Sectoral strategies which include career ladder approaches 
to help people move toward self sufficiency have shown great promise 
under WIA. They are best provided through contracted training, not 
Individual Training Accounts (ITA's). NWA believes that ITA 
requirements should be relaxed to allow contract training for sector 
initiatives.
    <bullet> The employer match requirement for customized training 
should be a decision of the local WIB, and factors such as the size of 
the employer's business are important factors in that determination.
    <bullet> WIBs should be allowed to spend up to 10% of their Adult 
and Dislocated Worker formula funds on incumbent worker training. This 
flexibility is needed to both target key industry clusters as well as 
to help move low wage workers up the career ladder. Performance 
measures will need to be adjusted, since earnings will increase less 
for an existing low wage worker than an unemployed worker who receives 
training and is then placed into a job.
    4. Expenditures vs. Obligations. Because no accurate assessment of 
WIA spending can fairly rely on expenditures exclusively, WIA 
reauthorization should require USDOL to utilize some combination of 
expenditures, accrued expenditures, and legal obligations in 
determining spending for the system. Congress may want to consider 
using either ``accrued expenditures'' or ``legal obligations'' 
(encumbrances) in determining the redistribution of ``unspent'' funds, 
in reports to Congress on spending levels, and in determining funding 
recommendations. These terms must be clearly defined in the Act, and 
DOL should be required to collect this information from states and 
local areas, and should be required to utilize such data. Subsequently, 
technical assistance should be promptly provided to States and local 
workforce areas by USDOL. NWA's recommendations are consistent with the 
recent GAO study and findings on expenditures and obligations.
    While you are the Authorizing Committee, the failure to reauthorize 
WIA has cost the workforce system millions of appropriated dollars 
since USDOL continues to erroneously insist that there are large sums 
of money not being spent. NWA strongly disagrees with USDOL's 
conclusion, as well as their continued insistence on using a reporting 
methodology that is not the one defined in the WIA legislation.
    We respectfully point out that in his recent June 28th testimony 
before this subcommittee, Sigurd Nilsen, of the Government 
Accountability Office stated that:
    <bullet> USDOL's ``focus on expenditures without including 
obligations overestimates the amount of funds available to provide 
services at the local level.''
    <bullet> ``The process used to determine states' available funds 
considers only expenditures and does not take into account the role of 
obligations in the current program structure. Our (GAO's) analysis of 
Labor's data from program year 2003 and beyond indicates that states 
are spending their WIA funds within the authorized 3 year period.''
    <bullet> ``In fact, almost all program funds allocated in program 
year 2003 were spent by states within 2 years.''
    <bullet> Finally, Nilsen said that USDOL's ``Office of the 
Inspector General (OIG) recently concurred, noting that obligations 
provide a more useful measure for assessing states' WIA funding status 
if obligations accurately reflect legally committed funds, and are 
consistently reported.''
    In my home State of New York, from Program Year 01 (PY01) to PY 07 
we received $1,536,278,587 in total WIA Title 1B funds. Every single 
penny was spent within the timeframe Congress authorized. That's right, 
New York State had zero funds recaptured. Yet based on this faulty 
USDOL argument that the workforce system is awash with funds, the House 
Appropriations Committee, July 11th, adopted a $335 Million dollar 
Rescission to WIA funds. In my State, even though we spend every single 
penny as Congress has directed us, we will have $28 million less to 
provide critically needed training to our workers, if this rescission 
stands.
    NWA strongly urges you to address this issue this year. While our 
global competitors increase their investments in an educated and highly 
skilled workforce, failure to remove this fallacious argument risks WIA 
becoming the piggybank for other worthy domestic programs at the very 
time when we need to maximize our investment in our workforce.
Conclusion
    For many years Workforce Development policy has been an area of 
strong bipartisan agreement in the Congress. The National Workforce 
Association believes that there are immense benefits to the workforce 
development system that can be derived by fine-tuning WIA in 
reauthorization. In these critical economic times, we hope that the 
Committee on Education and Labor, and the House will build on WIA's 
growing successes rather than making radical changes to a system that 
has just begun to see major improvements. The Workforce Investment Act 
has indeed moved the nation forward toward the goal of having a single, 
comprehensive, and customer-friendly system where all American workers 
and employers can receive the information and services they need to 
succeed in today's rapidly changing labor market.
    NWA stands ready to work with you and the committee staff as 
reauthorization moves forward. Chairman Hinojosa, that concludes my 
remarks. I want to thank you again for this opportunity to testify 
before the Subcommittee. I welcome any questions that you may have.
                                 ______
                                 
    Chairman Hinojosa. Thank you very much, Mr. Twomey.
    Now I call on Mr. Petit.

   STATEMENT OF MASON A. PETIT, WASHINGTON STATE EMPLOYMENT 
   SECURITY, ON BEHALF OF THE AMERICAN FEDERATION OF STATE, 
            COUNTY, AND MUNICIPAL EMPLOYEES, AFL-CIO

    Mr. Petit. Good morning, Mr. Chairman. My name is Mason 
Petit. I am a trade adjustment assistance counselor from 
Spokane, Washington.
    I am representing the Washington Federation of State 
Employees and the American Federation of State, County, and 
Municipal Employees. I appreciate appearing today and ask that 
you include my full statement in the record.
    Mr. Chairman, the present workforce system is seriously out 
of balance. Federal leadership has shrunk in favor of 
devolution. The voice of workers has been almost silenced. And 
publicly administered systems have been neglected.
    WIA has obscured the distinction between local WIA programs 
and the state employment service. WIA no longer targets low-
income groups or requires any spending on training services.
    All job seekers must first go through core services which 
are similar to Wagner-Peyser labor exchange services. Core 
services are becoming the only WIA service in some areas and 
are beginning to fill in for the drastic decline in funding for 
the statewide labor exchange system.
    These factors have played out in my area. When I started at 
the job service in 1978, we had a wide range of Wagner-Peyser 
staff and resources. We marketed our services to employers and 
industry specialists and worked personally with job seeker to 
evaluate their skills and needs.
    Today, we have only five employment specialists, compared 
to 25 in the early 1980s, and no ability to work personally 
with employers or develop industrial expertise.
    Not all of our state employees are paid through Wagner-
Peyser, however. WIA has contracted with the state employment 
service agency to provide public labor exchange services.
    Until recently, our local WIA board funded two One-Stop 
centers, WorkSource Spokane, a full-service public center 
operated by the state employment service, and an affiliate 
center run by a private non-profit, Career Path Services.
    WorkSource Spokane referred all job-ready individuals to 
the public labor exchange services provided through Wagner-
Peyser. For other job seekers, we developed an employment plan 
and referred them to appropriate WIA-paid training.
    In contrast, Career Path Services resisted referring WIA-
eligible job seekers to training and relied heavily on self-
help systems that can't help workers understand the full range 
of available WIA services.
    Career Path Services evolved into a publicly funded private 
job placement operation that duplicated the employment service 
work. Low cost and quick turnaround was the rule.
    As of July 1, Career Path Services is managing all WIA-
funded services in Spokane County. Now, our WIA-funded state 
employees in WorkSource Spokane can't provide workers the full 
range of available services.
    Money for training and support services has been 
drastically reduced. We think Congress should clearly 
distinguish the roles of various parts of the workforce system 
so that the state employment service becomes the primary 
provider of labor exchange services, allowing WIA to focus on 
training and intensive services.
    We urge you to require that at least half of WIA funds pay 
for training and rebuild the Wagner-Peyser system as a strong 
state and interstate system of publicly provided labor exchange 
activities. Such a strategy would benefit both systems.
    A publicly operated statewide labor exchange provides many 
benefits. It is where unemployment insurance and TAA recipients 
enter the workforce system. It provides WIA rapid response 
services.
    It develops and analyzes statewide labor information that 
can help guide state, regional and local economic development 
strategies and the content of effective training.
    A statewide structure also has flexibility that local 
programs don't have. It can shift staff around to respond to 
emergencies and fill in gaps where resources are scarce or 
don't exist.
    For example, when the TAA caseload in the Spokane area 
pushed 400, the state employment service provided resources for 
two additional staff to help me while our needs lasted.
    The state employment service also helped coordinate the 
recruitment effort for the massive cleanup after the eruption 
of Mount St. Helens, and Virginia conducted a similar shifting 
of staff to northern Virginia after 9/11.
    This structure could not have been patched together from 
private or solely local sources at the last minute.
    The public state operated labor exchange structure also is 
important in rural states and rural parts of states, especially 
for agricultural employers. Private companies prefer to work in 
urban and suburban areas where the work is more profitable.
    Despite the value of statewide public labor exchange, DOL 
has proposed legislation and regulatory change to end it. 
AFSCME strongly opposes DOL's attempt to end the public labor 
exchange system and privatize publicly operated state agency 
programs.
    We believe that WIA and Wagner-Peyser should be 
complementary, not competitive, parts of the same system.
    Thank you for this opportunity to appear here today. We 
look forward to working with you. And I would be happy to 
answer any questions.
    [The statement of Mr. Petit follows:]

 Prepared Statement of Mason Petit, Employment and Training Counselor, 
Washington State Employment Security, on Behalf the American Federation 
           of State, County and Municipal Employees (AFSCME)

    Good morning Mr. Chairman, my name is Mason Petit. I am a trade 
adjustment assistance counselor from Spokane, Washington. I'm here 
representing the Washington Federation of State Employees (WFSE) and 
the American Federation of State, County and Municipal Employees 
(AFSCME). We appreciate the opportunity to appear here today.
    The AFL-CIO is submitting to the Committee a detailed statement for 
the record with which we fully concur. I would like to use my time 
today to emphasize several points. First, the workforce system is out 
of balance and second, important parts of it have been neglected and 
need to be revitalized.
    The enactment of The Workforce Investment Act (WIA), along with its 
administration by the U.S. Department of Labor (DOL), has accelerated a 
process that began several decades ago. Federal leadership in workforce 
policy has continued to shrink in favor of devolution; the voice of 
workers has been almost silenced; the positive contributions that labor 
unions make generally have been ignored; and publicly administered 
systems have been neglected in favor of various publicly-funded but 
privately-provided services.
    There are many examples of this process. Among them are DOL's 
elimination of American's Job Bank, the largest electronic listing of 
job openings in the world with links to the job banks of all the states 
and the web sites of private placement agencies; the marginalization of 
organized labor in the workforce system; the defunding of the AFL-CIO's 
Working for America's Institute which provided technical assistance to 
local unions participating in federal workforce programs, the lack of 
emphasis in workforce policy on training for good jobs, and the 
distortion of the one-stop concept, which, in our view, has become a 
mechanism for those wanting to merge programs, including large state 
agency systems, together under the direction of local workforce boards 
and, in many cases, of private companies.
    DOL contends that WIA and the Wagner-Peyser state employment 
service duplicate functions while others have criticized WIA for 
providing very little training. In fact, there is some validity to both 
assertions for a number of reasons.
    Chronic underfunding of state Wagner-Peyser grants has led to a 
serious deterioration in the capacity of the state public labor 
exchange. WIA resources have declined steadily in recent years also. 
These funding reductions exacerbated the tensions between the public 
state agency systems and local WIA-funded, privately-provided 
activities, as each have sought to survive in a hostile financial 
environment. At the national level, this tension was most noticeable in 
the debate about infrastructure funding in which organized labor, along 
with most other stakeholders, has supported separate funding for local 
one-stop operations instead of mandating a transfer of funds from state 
agency programs.
    Policy changes made when WIA was enacted also have contributed to 
the current situation. WIA no longer has the low-income eligibility 
targeting of previous employment and training programs and lacks the 
requirement for 50 percent of the funds to be used for training 
services. WIA also has a sequence of services requirement in which core 
services, which are very similar to the Wagner-Peyser labor exchange 
services must be provided to job seekers first. These policy changes 
have helped to obscure the distinction between the local WIA programs 
and state agency systems, especially the state employment service.
    These factors have played out in my own state and city. When I 
started work at the Job Service (the state employment service) in 1978 
in the Wenatchee office, and later when I transferred to the Spokane 
office where I now work, we had a wide range of staff and resources. We 
had Job Service Representatives who went to employers to market our 
services. This system was augmented by occupational specialists for 
major occupational areas. They maintained relationships with area 
employers and their human resource departments to provide direct 
screening and referral services to them. They also were personally 
familiar with many of the job seekers and their skills and provided 
them with counseling, testing and other services. In addition, we 
maintained relationships with local radio stations and television 
stations and routinely announced jobs to the general public. All of 
these relationships enabled us to serve both employers and job seekers 
well.
    The Labor Market and Economic Analysis (LMEA) branch of the 
employment service provided further support for these services. It 
developed and made available publications for both employers and job 
seekers to further refine their needs and understandings of the 
marketplace where they lived and statewide.
    Over the years, however, this system of services was slowly picked 
apart as resources declined. One of the first things to go was the 
system of Job Service employer representatives. Then the occupational 
specialist system was dismantled and replaced with generalists who 
focused on serving job seekers but didn't have the relationships with 
the employers. Today, we have only five employment specialists compared 
to the 25 we had in the early 1980s.
    Not all the state agency employees providing labor exchange 
services have been paid through Wagner-Peyser funds in Washington 
State. The Job Training Partnership Act system and now the WIA system 
have contracted with the state employment service agency to provide 
public labor exchange services.
    Until very recently, the local WIA board in Spokane, the Workforce 
Development Council (WDC), awarded funds to two one-stop centers which 
competed for WIA funds: WorkSource Spokane, a full-service public 
center operated by the local employment service office, and another 
affiliate center run by a private non-profit organization, Career Path 
Services.
    Under WorkSource Spokane, WIA funds were used to hire state 
employees to provide workforce services. WorkSource Spokane referred 
all individuals with skills in demand in our labor market to the public 
labor exchange provided through Wagner-Peyser. For WIA eligible 
participants, we provided an employment plan that outlines a path 
through WIA funded activities, including training. We referred all 
individuals who could not return to work without retraining to three 
different forms of WIA paid training: 1) short-term in-school 
employment/vocational training; 2) long-term in-school employment/
vocational training; and 3) employer-based on-the-job training.
    In contrast, Career Path Services resisted referring WIA eligible 
job seekers to training, and, instead, enrolled as many individuals as 
possible who did not need training. They relied heavily on self-help 
systems that do not provide a clear understanding of the full range of 
services available to eligible WIA participants. In this way, they 
could report statistics showing large numbers of people enrolled, 
``assisted'', and placed, all with low costs and quick turn around. As 
a result, Career Path Services evolved into a publicly-funded private 
job placement operation that duplicates much of the Wagner-Peyser 
employment service work. Unique WIA services are not provided, and new 
training is not explored.
    As of July 1, 2007 Career Path Services has taken over management 
of all WIA-funded services in Spokane County. Under their new protocol, 
WIA-funded state employees in WorkSource Spokane no longer can provide 
unemployed workers the full range of available services. Money for 
training and support services has been drastically reduced.
    AFSCME believes that it is important to separate out and clarify 
the roles of various parts of the workforce system. In this regard, I 
would call your attention to the following statement in the FY 2008 
Labor, Health and Human Services and Education Appropriations bill:
    ``The Committee believes that the labor exchange activities 
provided by state employment service agencies should be the primary 
source of core services for local one-stop systems, thus freeing up 
Workforce Investment Act funds to focus on intensive services and 
training, and begins a process of restoring the capacity of the 
Employment Service to provide this key labor exchange role through this 
increase in state grants.''
    We think there are appropriate statewide and local roles which can 
compliment each other instead of competing with each other. We strongly 
support the recommendation of the Appropriations Committee. We also 
urge you to establish a requirement for at least 50 percent of WIA 
funding to be used for training services and to rebuild the Wagner-
Peyser system as a strong state and interstate system of publicly-
provided labor exchange activities. Such a strategy will be mutually 
beneficial to both systems.
    A publicly-operated statewide labor exchange provides many 
benefits. They include early interventions to provide rapid response 
services when plants close; job matching and career counseling services 
to workers, including those filing for unemployment insurance benefits 
and trade adjustment assistance (TAA) with state unemployment insurance 
agencies; the provision of a statewide information network to support 
and guide local area workforce activities; information systems and 
analysis that can help guide state, regional and local economic 
development strategies and inform the design of effective training 
programs in emerging industries and good jobs; and employer services, 
especially for those that move into an area as part of an economic 
development plan.
    In addition, a statewide structure has flexibility that local 
programs do not have, especially the ability to shift staff to 
different parts of a state during emergencies and to work on a regional 
and interstate basis. This flexibility allows states to fill in gaps 
where resources are scarce or not available, including supplementing 
veteran services and TAA support around a state when needed.
    For example, because the TAA program does not provide funds for 
case management, historically this responsibility has been assumed by 
the Wagner-Peyser employment service as trade impacted workers file for 
unemployment and TAA benefits. During the late 1990s and early 2000s, 
the TAA caseload in the Spokane area pushed 400. The rest of the state 
also experienced other layoffs as large companies like Boeing, 
Weyerhauser, Georgia Pacific, Keytronic Corp., Seneca Foods, Columbia 
Lighting, Bayliner/US Marine, Kaiser Aluminum, Agilent Technologies and 
Telect laid off large numbers of workers. The statewide employment 
service was able to move money to provide additional resources for 
staffing where needed. I gained two additional staff members. As other 
areas' needs increased and the Spokane area needs decreased, the 
resources have shifted.
    The statewide public labor exchange also plays an important role in 
disasters. When Mt. St. Helens erupted in May 18, 1980, several 
communities were particularly hard hit, including Moses Lake, Yakima, 
Ellensburg and Spokane. Clean-up from this natural disaster took the 
coordinated effort of many agencies. The Washington State Employment 
Security Department used its Wagner-Peyser resources to help coordinate 
the recruitment effort for the massive clean-up. As things returned to 
normal, Employment Security re-deployed its resources back to their 
original purpose. The state of Virginia conducted a similar shifting of 
staff to the northern Virginia area after the 9/11 attacks. In neither 
case could this structure have been patched together from private or 
solely local sources at the last minute.
    Some states, such as Ohio, have created a flexible workforce 
trained in employment services, unemployment insurance, trade 
adjustment assistance, labor market information and outreach services 
that allows the state to provide more universal labor exchange services 
capable of responding to emerging local needs. I, myself, am trained to 
provide information in a variety of services. As a public employee in 
our multiple services system, I have access to a robust database of 
information, and can easily advise the unemployed worker about such 
diverse topics as unemployment insurance, TAA benefits, placement 
services, training options, services available in neighboring states, 
financial aid, veterans' services, felon's services, Labor Market and 
Economic Analysis (LMEA) and other specialty information not easily 
accessed and interpreted by the public.
    The public state-operated labor exchange structure is especially 
important in rural states and rural parts of states, where local and 
private placement companies are weak or non-existent. Private companies 
tend to prefer operating in urban areas where opportunities to make 
money are greater.
    Rural employers, especially agricultural employers, need the state 
public labor exchange to help them hire and retain farm workers. The 
Migrant Seasonal Farm Worker (MSFW) program is supported, in part, by 
Wagner-Peyser funding. Recently, the Washington state Wagner-Peyser 
agency sent employment service counselors out to farms with laptop 
computers to work with their employment needs. This activity is not 
profitable for private providers and is, therefore, less attractive.
    Despite the value of a statewide public labor exchange, however, 
the administration has proposed legislation to block grant the state 
employment service with WIA. When WIA reauthorization stalled, DOL last 
winter proposed new Wagner-Peyser regulations to eliminate the 
requirement for state civil services employees to administer the labor 
exchange program. The effect would have been to create a state option 
to block grant these programs or turn Wagner-Peyser funds over to 
private contractors, both of which AFSCME has strongly opposed 
throughout the legislative process.
    AFSCME continues to strongly oppose attempts to block grant state 
agency programs with local WIA programs, to privatize publicly operated 
state agency programs, and to fund the WIA system through funding from 
other programs.
    In particular, I want to call your attention to the fact that 
enactment of WIA reauthorization without codifying the current 
regulatory requirement that the Wagner-Peyser system be publicly 
operated and statewide will allow the administration to proceed with 
its regulatory strategy to destroy this system. AFSCME would oppose any 
legislation that does not reinforce the current public administration 
policy.
    In summary, Mr. Chairman, AFSCME believes it is counterproductive 
for WIA and Wagner-Peyser to compete with each other. Wagner-Peyser 
employment service public employees can serve and match job-ready 
workers with employers seeking employees. WIA can help unemployed 
workers who need additional services in order to compete in the labor 
market. In this way, the two systems can mutually support each other.
    Thank you for this opportunity to appear here today. We look 
forward to working with you and I'd be happy to answer any questions.
                                 ______
                                 
    Chairman Hinojosa. Thank you.
    Now I call on Charles Ware.

STATEMENT OF CHARLES WARE, CHAIR, NATIONAL ASSOCIATION OF STATE 
  WORKFORCE BOARD CHAIRS, ON BEHALF OF THE NATIONAL GOVERNORS 
                          ASSOCIATION

    Mr. Ware. Thank you to Ranking Member Keller, members of 
the subcommittee. It is an honor to testify on behalf of the 
National Governors Association on the reauthorization of the 
Workforce Investment Act.
    Just a few days ago, the nation's governors convened in 
Traverse City, Michigan, a state confronted by economic 
transformation, to discuss innovations.
    As evident in Michigan and even my home state of Wyoming, 
our nation's workforce has significantly changed since the 
passage of WIA almost a decade ago.
    Without bold reforms to WIA, our current workforce system 
will struggle to equip American workers with the skills 
necessary to remain competitive in the global economy.
    Last week the governors released 13 WIA recommendations 
with the National Association of State Workforce Agencies and 
the National Association of State Workforce Board Chairs that 
would help states and local communities create efficient, 
nimble and coordinated workforce systems.
    The recommendations reflect four core principles that the 
governors believe must be central to the WIA reauthorization.
    One, to enhance program coordination and flexibility. Two, 
align workforce education and economic development needs and 
strengths. Three, improve training services. And four, reduce 
administrative costs.
    Let me point out two specific ways that the governors 
believe that Congress can promote state workforce innovation.
    First, Congress should provide governors with expanded WIA 
funding flexibility and transferability. Funding flexibility is 
critical to improve services, strengthen partnerships, target 
resources to state and local needs and align workforce 
programs.
    Congress should eliminate the arbitrary requirements to 
spend a percentage of youth funds on out-of-school or in-school 
youth. Such constraints are outdated and out of touch with the 
current high school reform efforts.
    Encourage state innovation. Our economic strength depends 
on the ability of each state to develop coordinated workforce 
systems that support, train and prepare workers.
    Congress should expand the U.S. Department of Labor's WIRED 
initiative and create an additional competitive matching grant 
program for states to plan and implement innovation in the 
workforce systems.
    Improve access to training. WIA must prepare workers for 
high-skilled jobs. Congress can overcome the so-called sequence 
of services by collapsing core and intensive services into one 
new category of eligible allowable services.
    Congress should also ensure that states can prioritize 
additional populations to receive training services, such as 
Wyoming did with our energy industry.
    Congress should support the NGA/NASWA common measures 
proposal to improve accountability and transparency.
    The proposal streamlines the complex system of nearly 100 
varying and incomparable performance measures into four 
critical measures focused on customer outcomes, including 
short-term and long-term employment rates, earnings and 
credential completion.
    Congress should also provide transitional financial support 
to help states modernize their data systems.
    Clarify and carry forward provisions and remove hurdles to 
spend federal funds. States need the current flexibility to 
carry forward WIA funds to provide training and promote 
responsible fiscal management of WIA funds.
    Congress should work to clarify the terminology regarding 
carry-forward and obligations to help eliminate inaccurate 
claims that states have unspent WIA funds.
    Lastly, Congress should empower states and local 
communities with tools to manage the burgeoning size of 
federally mandated boards, provide governors with flexibility 
to voluntarily transition from local to regional workforce 
boards to better serve job seekers, maintain the grandfather 
clause for state and local boards under the direction of 
governors.
    This check and balance of the grandfather clause will align 
boards and economic needs and minimize administrative costs.
    In conclusion, as my governor, Governor Freudenthal, would 
say, if it is the right thing to do, then we are going to do 
it.
    In Wyoming, we trained over 1,000 people in drilling, truck 
driving, heavy equipment and mobile crane operation for our 
high-demand energy sector. Every graduate is guaranteed a 
position with a major drilling company. The program is a win-
win situation.
    However, the ability of my state and others to help job 
seekers is constrained by the rigid constraints right now of 
the current WIA. Governors stand ready to work with Congress to 
ensure that our workers continue to lead the world into the 
21st century.
    Again, I thank you for the opportunity and can entertain 
any questions.
    [The statement of Mr. Ware follows:]

  Prepared Statement of Charles Ware, Chair, National Association of 
   State Workforce Board Chairs, on Behalf of the National Governors 
                              Association

    Chairman Hinojosa, Ranking Member Keller, and members of the 
Subcommittee I am Charles Ware and it is my honor to testify on behalf 
of the National Governors Association regarding the reauthorization of 
the Workforce Investment Act (WIA). I also have the privilege of 
serving as the Chair of the National Association of State Workforce 
Board Chairs.
    It has been almost a decade since Congress passed the Workforce 
Investment Act and overhauled workforce programs to become a ``one-
stop'' system. Today, new challenges confront our nation and our 
economic position in the world. Without bold reforms to WIA, our 
workforce system will struggle to equip American workers with the 
skills necessary to remain competitive in the global economy. In fact, 
our nation's workforce system must be able to prepare workers for jobs 
that do not even exist today. Much is at stake in this reauthorization.
The Nation's Economy Has Changed
    Just a few days ago, the nation's governors convened for the 99th 
meeting of the National Governors Association in Traverse City, 
Michigan--a state confronted by economic transformation--to discuss 
innovation, education, and changing state economies. As evident in 
Michigan, since the passage of WIA almost a decade ago much has changed 
in our nation's workforce. The nation has moved from a manufacturing-
based economy to one that is service-based, connected to the larger 
global marketplace, and heavily dependent on technology. Advances in 
technology and trade have revolutionized the way companies do business. 
Manufacturers in Michigan must compete with manufacturers in India, 
China, and South America. What took 20 workers a full day to produce 
just a generation ago can now be handled by a single worker with the 
right machinery and a computer. Our economy has changed, and we must 
change with it.
    According to a recent nationwide public opinion poll conducted by 
Dr. Frank Luntz for the nation's governors, 9 out of 10 Americans--
Democrats and Republicans alike--believe that if our nation fails to 
innovate, our children and our economy will be left behind. And while 
Americans believe we have the most innovative nation in the world at 
the moment--ahead of China and Japan--they see America losing ground in 
20 years.
    To address these issues, our workforce programs must have enough 
flexibility to meet the demands of a rapidly changing economy and a 
highly-skilled labor force. The workforce system cannot be one-size-
fits-all programs with rigid regulations and prescribed service 
delivery structures. Rather, the federal-state-local workforce system 
must recognize the differences among states and communities, and thus 
provide governors--working with local government, business, and labor--
the tools to design innovative, flexible, and nimble ways to meet a 
variety of workers' needs.
Governors' Workforce Investment Act Recommendations
    As Governor Freudenthal would say, ``If it's the right thing to do, 
then we are going to do it.'' In my home state of Wyoming, energy 
production is a major part of our economy and companies need skilled 
labor. With the assistance of energy companies, the Wyoming Contractors 
Association started a school in 2004 that provides workers the 
professional and safety training they need to enter the industry. To 
date, over 1,000 people have been trained in drilling, truck driving, 
heavy equipment, and mobile crane operation--and every graduate is 
guaranteed a position with one of the ten major drilling companies. 
However, my states ability to help more workers is constrained by the 
current limitations of WIA.
    WIA gave governors the authority to initiate broad structural 
reforms in their workforce development systems. With this authority, 
governors made significant progress to restructure these systems and 
strengthen the essential partnerships between federal, state, and local 
governments and the private sector. Yet state-by-state experiences 
reveal that many challenges remain, such as providing comprehensive, 
highly integrated education, training, and employment services for 
workers. In addition, states need help meeting reporting requirements, 
coping with resource constraints, and fully engaging the business 
community as partners. WIA needs to provide states with the tools to 
respond to changing needs of workers and businesses.
    To this end, Governors developed joint WIA recommendations with the 
National Association of State Workforce Agencies (NASWA) and the 
National Association of State Workforce Board Chairs (Chairs) to help 
states and local communities create efficient, nimble, and coordinated 
workforce systems. The recommendations build off the four core 
principles that governors believe should be central to the WIA 
reauthorization: (1) enhance program coordination and flexibility; (2) 
align workforce, education, and economic development needs and 
strengths; (3) enhance training services to workers while creating more 
transparent accountability systems; and (4) reduce administrative 
costs.
    In the reauthorization of WIA, it is essential not to lose sight of 
what is important--getting people training and a better job. The 
federal government, notably the work of the House Education and Labor 
Committee and this Subcommittee, can play a pivotal role to ensure the 
economic position of our nation through the reauthorization of WIA and 
adoption of the thirteen NGA-NASWA-Chairs WIA recommendations. Let me 
point to several specific ways that Congress can support state 
workforce innovation and best practices.
I. Enhance Program Coordination and Flexibility
    Increase State Funding Flexibility: Governors and state leaders, 
working with local leaders, are developing innovative workforce systems 
to better respond to job seekers' needs, reduce fragmentation, promote 
accountability, and better engage business. However, states will be 
unable to achieve the true vision of WIA one-stops without additional 
state funding flexibility and transferability. Such flexibility is 
critical to enhance states' ability to help local leaders improve 
services and strengthen partnerships, and to target resources to state 
and local needs. Congress should provide governors with expanded WIA 
funding flexibility and transferability, building upon existing 
flexibility.
    Eliminate Arbitrary Youth Funding Limitations: Across the nation, 
governors are leading efforts to improve the rigor and relevance of our 
nation's high schools. Despite this effort, in some communities 
``dropout factories''--high schools that produce a large percentage of 
high school dropouts--exist and must be reformed. WIA should not 
require states to spend a certain percentage of funds on ``out-of-
school'' or ``in-school'' youth. Such a federal requirement is outdated 
and out-of-touch with the needs of high school dropouts and current 
ongoing high school reform efforts. The focus of ``youth funding'' 
should be to serve high-risk, basic skill deficient youth to prepare 
them for future employment or education. Congress should eliminate the 
requirement to spend a percentage of Youth funds on out-of-school or 
in-school youth.
II. Align Workforce, Education, and Economic Development Needs and 
        Strengths
            Encourage Innovation and Competitiveness:
    In the 21st century, our economic strength will depend on the 
ability of each state, and our nation as a whole, to develop a 
coordinated and aligned workforce system that supports, trains, and 
prepares skilled workers. The critical shortage of skilled workers in 
areas of high demand is a significant employment issue that should be 
addressed in the WIA reauthorization.
    Congress should support and expand the U.S. Department of Labor's 
Workforce Innovation in Regional Economic Development (WIRED) 
initiative, which builds workforce partnerships between regions, 
states, and businesses.
    Congress should also support two competitive matching-grant 
programs to Governors, funded out of the Secretary of Labor's set-aside 
funds, to help states plan and create efficient workforce systems 
aligned with statewide, regional, or sector specific education, 
economic development, and business needs.
    States would be required to contribute a non-federal match of 20%. 
For more information, please review the NGA Innovation America: A 
Partnership legislative proposal at http://www.nga.org/Files/pdf/
0702INNOVATIONPARTNERSHIP.PDF
III. Enhance Training Services to Workers while Creating More 
        Transparent Accountability
    Eliminate Barriers for Workers to Access Training: During the last 
reauthorization, WIA services focused on helping individuals secure a 
job. Today, however, the focus of WIA must also help job seekers secure 
a better job. Although ``core'' and ``intensive'' services are valuable 
for many job seekers, current law requires states to spend limited 
resources on these services before an individual can access training. 
This so-called ``sequence of services'' impedes the delivery of 
necessary services at the earliest possible time and should be 
eliminated to ensure that job seekers and states have the flexibility 
to expand access to training services quickly, effectively, and at a 
lower cost. Training services are essential to help job seekers access 
better jobs and remain competitive in the increasingly skilled 
workforce. Congress can overcome this barrier by collapsing core and 
intensive services into one new category of eligible, allowable 
services. Congress should also eliminate ``intensive services'' from 
the list of priority services under Section 134 (E) and adding ``or 
other populations as identified by the state as priority to receive 
training services.''
    Expedite Use of Federal Funds through Sound State Fiscal Practices: 
State law, not federal law, should govern state fiscal practices for 
management of WIA funds. Unfortunately, a seemingly innocuous provision 
in Section 191 of WIA allows state legislatures to approve, disapprove, 
or even slow down gubernatorial use of federal WIA funds. This 
provision needs to be removed to ensure that state laws governing the 
disposition of federal funds can be followed and enforced. Congress 
should eliminate Section 191 of WIA to ensure gubernatorial authority 
to allocate federal funds in a timely manner. By eliminating Section 
191, states that require governors to seek approval of state 
legislatures would continue to be required to do so under existing 
state law.
IV. Reduce Administrative Costs
    Increase Accountability and Transparency through Common Measures: A 
critical and unique component of the NGA-NASWA-Chairs WIA 
recommendations is the development and use of common measures to 
increase system-wide accountability and transparency, while 
significantly decreasing administrative costs and inefficiencies. 
Congress should support the NGA/NASWA Common Measures Proposal, which 
streamlines the complex system of nearly 100 varying and incomparable 
performance measures into four critical measures focused on customer 
outcomes, including short-term and long-term employment rates, 
earnings, and credential completion. Congress should also provide 
transitional financial support to help states and locals modernize 
their data systems and collection to achieve greater efficiencies.
    Clarify State Carry Forward Provisions: States greatly appreciate 
and need the current flexibility to carry forward WIA funds. This 
flexibility is critical to provide training and promote responsible 
fiscal management of WIA funds. Unfortunately, in the last few years, 
the terminology around this provision may have created confusion that 
led to inaccurate and uninformed claims that states have ``unspent 
federal WIA funds.'' To alleviate this problem, Congress should work to 
clarify the terminology regarding carry forward and obligations.
            Manage Size of State and Local Boards:
    Governors, state workforce administrators, and other state leaders 
are concerned that the federally-mandated large state and local board 
sizes are draining the workforce system of resources that would be 
better spent helping job seekers. The burgeoning size of boards--local 
boards can number as many as 70 or 80 individuals--should be managed 
and streamlined to eliminate excessive administrative costs. In 
addition, boards of this size are too large to provide effective and 
meaningful oversight of the workforce system.
    Congress can alleviate this by giving states the following options:
    <bullet> Local Boards: Provide governors with the flexibility to 
voluntarily transition from local to regional workforce boards to 
better serve job seekers with specific employment needs. The territory 
of these new regional boards would be established by state boards and 
local boards; the composition of the regional boards would be set and 
negotiated by current local boards. However, the governor would have 
the option to add additional members to the regional boards or local 
boards if it is deemed necessary. Also, prohibit local boards from 
establishing even more government funded bureaucracy through the 
creation of ``councils for one-stop partners'' to advise the local 
board; if such councils are viewed as necessary, such activities must 
be paid for with local funds only.
    <bullet> Grandfather Clause: The grandfather clause may be 
maintained for state and local boards, but such latitude should be at 
the governor's discretion. This check-and-balance on the grandfather 
clause will ensure that boards are aligned with economic interests, 
administrative costs are minimized, and that states that prefer the 
current design of their boards will not be required to waste time, 
energy, and limited financial resources to create new boards.
    <bullet> State and Local Boards: The business majority for state 
and local boards should be maintained to help ensure business 
engagement in the WIA system. Governors should determine the 
composition of their boards. WIA should not federally direct mandatory, 
required, or minimum partners for state and local boards.
Conclusion
    The strength of America is our citizens--their innovation, 
creativity, and hard work. Our workforce system must be transformed to 
support lifelong learning and restore our nation's competitive edge in 
the 21st century global economy. Current and future workers should have 
the opportunity to equip and reequip themselves for different careers 
through training, education, and professional development.
    The NGA-NASWA-Chairs WIA recommendations would give states the 
ability to design workforce systems that enhance program coordination 
and flexibility; align workforce, education, and economic development 
needs and strengths; enhance training services to workers while 
creating more transparent accountability systems; and reduce 
administrative costs.
    Governors stand ready to work with Congress and the Administration 
to ensure that our workers and economy continue to lead the world in 
the 21st century.
                                 ______
                                 
    Chairman Hinojosa. Thank you.
    Now I call on the director of the Workplace, Incorporated, 
in Bridgeport, Connecticut, Joe Carbone.

      STATEMENT OF JOE CARBONE, DIRECTOR, WORKPLACE, INC.

    Mr. Carbone. Okay. Thank you, Mr. Chairman. I appreciate 
this opportunity to be here.
    Workplace, Inc., is a private not-for-profit in 
Connecticut, and we act as the WIA, you know, for the 
southwestern district of our state. We are also a generation 
two area for WIRED.
    I am going to try to cover two or three items this morning 
that through my 11 years' experience as president of the 
Workplace have really come to kind of resonate in my mind.
    And I am also going to try to touch on WIRED and to 
establish how it is a partner as the world, as we go through a 
movement to take our system to become a world-class actual 
system for training and jobs.
    Let me begin by kind of sharing what John said before, that 
I think there was a lot of wisdom and, you know, perception in 
the folks who were the makers of the Workforce Investment Act.
    I think they foresaw the challenge and the trends that we 
would be facing as the operators of today's job training 
system.
    I think they tried to establish many, many kinds of 
numerous and innovative things that just made the old system 
different or the new system different from the old system.
    I think they tried to bring it into the free market kind of 
a system with job training, and I think they tried to establish 
who would be the ultimate entity that would be responsible for 
the One-Stops.
    They gave license to workforce investment boards to be 
bigger than ever if they wished, to really become the 
centerpiece of workforce development in their actual 
communities. But I think they erred in one spot. They didn't 
mandate this, by the way. They simply give you actual 
permission for it.
    I think the error was not dealing with the local delivery 
system. Workforce boards are the operators, and when you look 
at performance, you know, kinds of standards and measurements, 
it is really the local delivery system that is charged with 
either doing everything possible--administering the Workforce 
Investment Act to the max or to the min--doing the most they 
can do or doing the little that they could do.
    If you can think of a map of America, there are some 630-
plus workforce investment boards. More than 100 of them have 
budgets of under $1 million. You need to have critical mass.
    If a workforce board is going to be the centerpiece of 
workforce development in any community, they have got to have 
size. They have got to have resources. They have got to have 
staff. They have got to be committed to innovation.
    And they have got to become the voice, the conveners and 
the planning for workforce development for the entire 
community. They don't carry a big stick. They can't make people 
do what people don't want to do. They have to lead and they 
have to create a consensus.
    I would recommend to you that as you consider the 
reauthorization questions that you look at setting some 
standards for what should be the size of workforce investment 
boards.
    See, I don't think that any board should have a district of 
less than one million people. I think if we did it, we would 
very, very significantly reduce the number of boards. And 
probably every board would start with the formula funding of 
anywhere from $3 million to $4 million a year.
    I think beyond that, you should set a minimum actual 
expense from those fundings that can be dedicated to ITAs. A 
previous speaker made mention of this. There are some districts 
that don't spend anything on ITAs.
    That is the fruit of our labor. That is where people who 
need a specific training opportunity can actually go out and 
have one.
    So I think fewer workforce boards means bigger boards and 
better boards. And I would hope that this committee would think 
about that.
    I think the One-Stop system, which is really the doorway to 
the American workforce system, needs to be kind of developed so 
that it can adapt to all the changes that several speakers 
previous to me have made mention of.
    It is a very different world today when it comes to job 
training. We see businesses investing more and more each year. 
It is part of a business becoming both, you know, competitive 
and trying to establish dealing with their bottom line issues 
by having a smart workforce.
    The system has to adjust. There are four new constituents 
that are coming into our system. They are immigrants. They are 
low-wage workers. They are youth, the folks who are kind of the 
victims of an issue with the achievement gaps. And they are the 
older workers who are going to be leaving.
    The One-Stops have to be prepared and ready for it. They 
have to have actual kinds of credentials and other things that 
they can offer.
    WIRED is a partner in the workforce system. As we tried to 
get these things occurring, WIRED can be the facilitator on a 
local level to make sure that boards and communities have a 
chance to come together as partners and think about the 
workforce system, not have anything that can kind of hamstring 
their ability to be innovative.
    Part of my handouts today will show you that as a WIRED 
district, we have incorporated two counties in neighboring New 
York, Westchester and Putnam County, that have joined with the 
workplace in Connecticut, and we have put our thoughts 
together, and we have declared that we made each other better 
if we work together, because we have got similar issues.
    That kind of critical mass is the way to go in the future. 
So I would hope you would consider these three matters as you 
discuss the future of the Workforce Investment Act.
    And thank you very much, and I look forward to questions.
    [The statement of Mr. Carbone follows:]

     Prepared Statement of Joseph M. Carbone, President & CEO, the 
                            WorkPlace, Inc.

Summary:
    As WIA reauthorization is being considered, I offer my viewpoint 
that the local workforce delivery system is fundamentally flawed, 
primarily due to the lack of scale of many WIB's. WIRED is the vehicle 
I see that can correct this. Regional economies focused on Talent 
Development can deliver better outcomes and better return on investment 
than the many smaller local entities in place today. The WIRED model 
can help transform America's Workforce System into a true competitive 
edge for our workers, employers, and communities.
Key Points:
    1. Developing Talent is a critical national priority, key to our 
ongoing competitiveness.
    2. America's Workforce System needs to adapt to new economic and 
demographic realities. We need to invest in enhanced capacity of the 
local delivery system to address the changing needs of businesses and 
ongoing employability of our people.
    3. The WIRED model provides an integrated approach built around 
regional economies. It's the kind of investment we need, and it can 
transform the workforce system if it's managed as an investment, not as 
``WIA extended.''
    4. Once transformed, the workforce system should operate as a 
public/private partnership, with the local delivery system responsible 
for moving people to a standard of readiness and businesses responsible 
for ongoing skill & knowledge investments.
    5. As we reinvent the workforce system, we need to create entities 
that can grow the business, supplementing federal and state funding. 
WIB's need to have the scale and the standing to be proactive, to 
optimize the benefits to individuals, and to serve as valued resources 
to businesses.
    6. Our experience with WIRED, though still developing, points to 
the potential for lasting impact through regionally-based investments 
which transform the workforce system.
Key Points Explained:
    1. Developing Talent is a critical national priority, key to our 
ongoing competitiveness.
    <bullet> In our region, one of the most respected corporate 
leaders, Michael Critelli, Executive Chairman of Pitney Bowes, recently 
told a business audience that workforce has risen to the top of 
business concerns, and that we have to ``notch up'' our efforts to 
assure a supply of skilled workers.
    <bullet> From business organizations to policy makers to local 
communities, preparing people to compete in the new economy is 
receiving focus in the form of initiatives on educational achievement, 
work readiness, retention, and recruiting.
    2. America's Workforce System needs to adapt to new economic and 
demographic realities. We need to invest in enhanced capacity of the 
local delivery system to address the changing needs of businesses and 
ongoing employability of our people.
    <bullet> Global--the flows of commerce and people are linked to the 
global economy; jobs are increasingly fluid, as businesses seek the 
best combination of skills and costs
    <bullet> Technological--rapid change, focus on productivity, all 
workers need to keep pace
    <bullet> Sustained Talent Shortage--just emerging now, may last 20-
25 years
    <bullet> Boomer Exit--major transition of experience, expertise, 
location, and numbers
    <bullet> Shift of Advantage--from employers to employees, market-
driven; self interest will require businesses to invest in human 
capital and connect to lifelong learning
    <bullet> Rising Requirements--90% of the fastest growing jobs 
require post-secondary education. Business, education, and workforce 
entities will need to coordinate better and respond faster to meet the 
needs of both youth and adults.
    <bullet> The local delivery system is charged with serving people 
and businesses in this rapidly changing environment.
    <bullet> Yet many WIB's are too small to deliver meaningful impact 
and lack the capacity to be effective advocates, resources, and 
innovators. More than 100 WIB's have budgets of less than $1 million 
(WIA funds--youth, adult and dislocated workers combined), lacking the 
scale to be cost-effective and relevant.
    <bullet> America's Workforce System is fundamentally flawed, and we 
are in danger of becoming irrelevant to our communities and of falling 
behind our global competitors.
    3. The WIRED model provides an integrated approach built around 
regional economies. It's the kind of investment we need, and it can 
transform the workforce system if it's managed as an investment, not as 
``WIA extended.''
    <bullet> WIRED redefines our partnerships and our geographic 
regions. It uses economic study to understand what the economic 
generators are. It engages a community in a journey to determine how to 
find the best possible providers.
    <bullet> This transformation through the WIRED model will be good 
for communities and good for taxpayers.
    <bullet> The WIRED investment gives communities an opportunity to 
do what businesses do--use investment dollars to become more 
competitive. This requires different measures and standards vs. those 
used to measure general operating funds.
    <bullet> Transformation of the workforce system will be 
shortchanged if WIRED projects are measured only on operational 
performance measures.
    <bullet> WIRED is a transition period, a force to shake up the 
system. The new system will be comprised of fewer, bigger and better 
WIB's operating more consistently as defined in WIA.
    <bullet> By consolidating funding streams, and leveraging the 
resources of multiple agencies, WIRED investments provide more local 
flexibility to implement strategic talent development plans.
    4. Once transformed, the workforce system should operate as a 
public/private partnership, with the local delivery system responsible 
for moving people to a standard of readiness, and businesses 
responsible for ongoing skill & knowledge investments.
    <bullet> Future WIB's and One-Stop's will work with employers to do 
better planning, to develop talent pipelines, to invest in incumbent 
worker training, and to reach out to nontraditional labor pools.
    <bullet> The new workforce system will be positioned to play a 
pivotal role in ensuring lifelong employment readiness for people as 
requirements and conditions change, and in facilitating business 
investments in human capital and connections to lifelong learning.
    <bullet> The ``Tough Choices or Tough Times'' report is a call to 
action, making a compelling case for transformation of the workforce 
and education system.
    5. As we reinvent the workforce system, we need to create entities 
that can grow the business, supplementing federal and state funding. 
WIB's need to have the scale and the standing to be proactive, to 
optimize the benefits to individuals, and to serve as valued resources 
to businesses.
    <bullet> WIB's need to be operated more like businesses and to be 
more entrepreneurial in leveraging their resources. Whether through 
fee-for-service initiatives or seeking private funding, WIB's should 
constantly strive to generate the resources to serve more people.
    <bullet> Larger WIB's can operate with lower overhead and dedicate 
more resources to training and direct services. Just as important, they 
can be a more proactive community partner, at the table and respected 
as a convener.
    <bullet> WIB's also need to be the voice of workforce development, 
and they must earn respectability and credibility to do so.
    6. Our experience with WIRED, though still developing, points to 
the potential for lasting impact through regionally-based investments 
which transform the workforce system.
    <bullet> Our key steps included asking fundamental questions: What 
is the region? Who are the key stakeholders? Where is the economy 
going? What are the opportunities and threats facing us? How prepared 
is the current system to address these needs? How can the region's 
talent become a magnet for economic growth?
    <bullet> When we concluded that our ``region'' should be expanded 
beyond Southwestern Connecticut to include neighboring Westchester 
County and Putnam County in New York, we chose to use our WIRED seed 
money as an investment in cross-border collaboration. WIRED enables us 
to bring higher-level leaders to the table and to engage in more 
strategic endeavors.
    <bullet> We intend to use the WIRED process to transform our local 
workforce system. This means taking a more strategic view of the 
economy's talent needs on a regional basis. It means addressing all 
populations, not just the unemployed or underemployed. It means 
coordinating and scaling our workforce operations along regional lines. 
And it means investing for the future, making responsible investments 
in people earlier and at points which can make the difference between 
lifelong self-sufficiency and lifelong under-performance.
Close
    Since my first introduction to America's Workforce System when I 
became President of The WorkPlace eleven years ago, I have come to 
believe that a national system, well-funded, with incentives to 
perform, and with a balance of short-term and long-term deliverables 
has tremendous opportunity to contribute economically and socially to a 
better society. My vision is for it to shift from safety net to 
competitive edge. Thank you very much for this opportunity to speak 
with you.
                                 ______
                                 
    Chairman Hinojosa. Now I call on Ms. Kathleen Randolph.

    STATEMENT OF KATHLEEN RANDOLPH, PRESIDENT, PARTNERS FOR 
                   WORKFORCE SOLUTIONS, INC.

    Ms. Randolph. Thank you. I am most pleased to be here.
    As the committee considers reauthorization of the Workforce 
Investment Act and is discussing innovations in workforce 
development, certainly the things that are occurring in 
northeast Indiana and in the state of Indiana are worthy of 
consideration.
    Over the last year, Indiana has innovated its workforce 
development system through three major initiatives. In July of 
2006, it established a statewide workforce investment board, 
and it reorganized the state into 11 economic growth regions, 
down from 16.
    It also created regional workforce boards that serve each 
region. These boards operate in much the same way as workforce 
investment boards, but they are really operating in an advisory 
capacity to the WIBs.
    Historically, the WIBs in Indiana have had between 35 and 
100 members. Our WIB in northeast had 45. This unwieldy number 
created a condition that was nearly impossible to get business 
accomplished.
    Securing a quorum at any given meeting was an arduous 
proposition, just bogging down the board's ability to meet its 
responsibilities for overseeing the system and strategically 
investing the public and private resources entrusted to it.
    Plus, the composition of the old board included contract 
service providers, causing conflict of interest issues. Nearly 
one-third of our board had to recuse itself from discussion and 
vote on significant matters, which again jeopardized effective 
planning and decision making.
    These challenges no longer exist. Our regional workforce 
boards are small and nimble. Our board has 16 high-profile 
leaders of business, economic development, community-based 
organizations, education and labor.
    Their knowledge and their expertise is foundational to 
effective planning and oversight and investment. They operate 
with efficiency and they operate as a business.
    The second Indiana innovation is the strategic skills 
initiative. It, in effect, forced our region to consider 
workforce training needs and subsequently to transform our 
programs and service delivery to a demand-driven process and to 
strategically focus our WIA dollars to areas of greatest need.
    SSI drove our transformation by increasing our capacity to 
collect, analyze workforce and economic data, to monitor 
economic trends and identify workforce skills gaps, to work 
very closely with businesses and other key constituents 
throughout our region, and to develop viable solutions aimed at 
root causes of those regional issues.
    After intense research and identification, northeast 
Indiana competed with all of the other regions for state 
funding to support our solutions.
    We received $1,765,000 plus we leveraged an additional 
$500,000 in local match to support projects that will result in 
industry-recognized skill certifications that address shortages 
in our high-growth, high-wage jobs.
    We created and founded a fast-track nursing program, for 
example. We recognized that our education service providers 
were addressing our nursing shortage, but we also came to 
understand that there is very low minority representation in 
the nursing profession.
    So our SSI-funded project targeted minorities into a 
nursing program, established a special cohort for nursing 
training for 48 minority individuals who will graduate into 
full employment in hospitals, already placed.
    We also established the Center of Excellence in Advanced 
Manufacturing, since the lifeblood of northeast Indiana is 
still manufacturing, with 26 percent of our base employment.
    We know we are at risk in terms of the global economy for 
these companies, and they must transform to technology-driven 
production processes.
    We established the Center of Excellence and within 18 
months we will have trained and fully certified 110 
individuals--45 percent of them are minorities--who are now 
moving right into positions within those advanced manufacturing 
companies.
    Our regional workforce board is continuing to use that SSI 
demand-driven process now to look at how it allocates all of 
its resources. Our previous structure was cumbersome and 
unwieldy, and when it came to WIA, our service providers were 
justly criticized for creaming for customers who would ensure 
meeting federal performance measures.
    WIA and other resources were invested based largely on 
anecdotal evidence of need, rather than by true data analysis 
and engaging businesses in decision making.
    The changes in our regional board structure, SSI and all of 
our processes have led to dramatic innovation in our system. A 
new model for system delivery in our WorkOnes will begin--or 
has begun, actually, 4 weeks ago.
    We anticipate a 400 percent increase in the number of 
individuals who will be served in our system with WIA and a 65 
percent decrease in the amount of money or cost per individual 
served. We are leveraging additional funds to support 
individuals, all the while improving our training programs.
    So it is with that that I urge all of you to consider 
reauthorization and funding of the Workforce Investment Act. 
Thank you.
    [The statement of Ms. Randolph follows:]

   Prepared Statement of Kathleen Randolph, President, Partners for 
                       Workforce Solutions, Inc.

    As Congress addresses reauthorization of the Workforce Investment 
Act and recommendations to improve the overall effectiveness of job 
training programs, innovations currently underway in the State of 
Indiana are worthy of consideration.
    In July 2006, Indiana implemented a comprehensive restructuring of 
its workforce development system--it is now characterized by new, 
higher profile and more accountable Regional Workforce Boards that 
oversee all local workforce programs, and a new overall system designed 
to move Indiana to a demand driven workforce system that effectively 
serves employers and employees.
    The new structure provides greater flexibility to the Regional 
Workforce Boards, making the Northeast Indiana region better able to 
address our unique, demand-driven issues. An important element of the 
new board structure is that the boards now range in size from seven to 
sixteen members. The Northeast Indiana Workforce Board is now composed 
of sixteen high profile leaders of business, economic development, 
education, labor, and community based organizations, each appointed by 
locally elected officials. And, these board members now reflect the 
region's high growth, high wage industries. Their knowledge and 
understanding of these industry sectors is fundamental to effective 
planning for workforce development in the region. In the past, 
Indiana's Boards ranged in size from 35 to 100 members--Northeast 
Indiana's board had 45 members. This unwieldy number created a 
condition that was nearly impossible to get business accomplished. 
Securing a quorum at any given meeting was an arduous proposition, thus 
bogging down the board's ability to meet its responsibility for 
overseeing the region's workforce system and strategically investing 
the public and private dollars entrusted to it. In addition, the board 
composition historically included contracted service providers, causing 
conflict of interest issues. Nearly a third of our board members had to 
recuse themselves from discussion and vote on significant matters, 
which again jeopardized effective planning and decision making.
    Through its Strategic Skills Initiative (SSI) Indiana Department of 
Workforce Development, in effect, forced our region to consider its 
training needs and subsequently transform its programs and service 
delivery to a demand-driven process and to strategically focus our WIA 
dollars in areas of greatest need. The SSI initiative drove our 
region's transformation by enhancing our capacity to collect and 
analyze workforce and economic data, to identify workforce trends and 
skills gaps, to work closely with businesses and other key constituents 
throughout the region, and to develop viable solutions aimed at the 
root causes of regional issues. After an intensive research and 
planning phase, Northeast Indiana received $1,768,000 in funds from the 
state (in addition to our WIA formula funds), as well as more than 
$500,000 in local matching funds, to implement sustainable projects 
that will result in industry-recognized skills certifications that 
address shortages in our high growth, high wage jobs. Examples and of 
the SSI projects include:
    <bullet> Fast Track Nursing Program--SSI investigation revealed a 
projected shortage of 220 RNs in the region's hospitals and indicated 
that minorities are under-represented in this profession. We expect the 
shortage to grow by 48 each year. The Fast Track Nursing program 
targets minorities to enter the nursing profession and is training a 
stand alone cohort of 48 students to obtain their RN degrees. Each 
student is employed by a hospital at a maximum of twenty hours per 
week, but receives full time benefits and works in an environment 
supportive of their studies. Upon completion of their RN degree, they 
move into nursing positions in their current place of employment.
    <bullet> Center of Excellence in Advanced Manufacturing--
Manufacturing is still the region's life blood, accounting for 26 
percent of northeast Indiana's base employment. At risk due to global 
competition, these companies must transform to technology driven 
production processes. SSI established the Center of Excellence to train 
and certify 110 workers in leading edge high tech manufacturing 
processes. Certified workers further allow us to demonstrate to new or 
expanding companies that the skilled workforce they need exists in the 
region. These are just two examples of demand-driven strategies and 
investments of public funds having impact on the region's economy. 
Indiana Workforce Development and the Regional Workforce Board are 
continuing to use the demand driven SSI process for investing local 
formula dollars and to measure the investment's economic impact.
    Northeast Indiana has fully embraced the state's new structure and 
expectations. The previous structure was cumbersome and unwieldy. WIB 
staff spent copious amounts of time managing board meetings and board 
members rather than accomplishing the employment and training goals of 
the Workforce Investment Act. The Board's Service Provider contractors 
heavily screened individuals before registering them to receive WIA 
services--our region was justly criticized for ``creaming'' for those 
who would ensure meeting federal performance metrics. WIA and other 
regional workforce resources were invested in projects and programs 
that were based largely on anecdotal evidence of need, rather than 
being driven by data analysis and truly engaging businesses in decision 
making. And, the complexity of our former system was confusing to our 
WIB board members, our education partners, and most certainly to our 
business partners. This confounded our businesses and made them 
reluctant to engage with the workforce system seeing it as 
``government'' with many encumbrances.
    In July, 2007, the Northeast Indiana Regional Workforce Board 
launched a new model for service delivery in its One-Stop (WorkOne) 
Career Centers. The model aims to reduce and, in many cases eliminate, 
duplication while at the same time increasing the service quality and 
the numbers of individuals served. The model is focused on enhancing 
Hoosiers' skills in demand driven occupations. Even though jobs go 
away--skills do not. Northeast Indiana's system is predicated on skills 
improvement--each person entering the WorkOne Career Centers now has 
the opportunity to know his skills, to enhance his skills and to get 
the best job possible with his skills. The new model of service 
delivery will dramatically increase the numbers served with WIA funds. 
The total number of individuals registered and served through WIA in 
2006 was 2,201. Already, within the first four weeks of the new service 
delivery model, 1,095 were registered in WIA. Based on current 
preliminary expenditure rates, estimates indicate that the cost per 
participant in the new model (Program Year 2007) will be reduced by 65 
percent compared to Program Year 2006.
    Indiana's new structure, system and service delivery methodology 
have allowed Northeast Indiana to transform to a demand-driven system 
by gaining the confidence of individuals, businesses, local economic 
development officials, and education and training partners throughout 
the region. We've also gained significant alignment with economic 
development. If asked, many of the regional partners would attest to 
the Strategic Skills Initiative being the catalyst for this alignment. 
The Northeast Indiana Regional Economic Development Plan, for example, 
identified key growth industries targets for the region and made 
workforce recommendations. The Regional Workforce Board is now tying 
its resources to these targets; the Community College and Universities 
are developing curricula to address the training and education needs of 
business, extensive partnerships have been established between and 
among organizations, and most importantly Hoosiers are tooling or 
retooling their skills to meet the demands of high growth businesses--
all in the promise of enhancing the economic vitality of Northeast 
Indiana.
    The workforce innovations developed by the Indiana Department of 
Workforce Development and now underway in the region are and will 
continue to help Northeast Indiana regain its position as a great place 
to work, live and do business.
                                 ______
                                 
    Chairman Hinojosa. Thank you. Thank you for your statement.
    And I identify with that, because in my area we started an 
allied health and nurse training center within our South Texas 
Community College system.
    We started with five students, and today we have 3,000 in 
that college, in that--actually, the section for allied health 
and nursing. There is a total of 17,000 students now in the 
community college, but there is a great demand.
    And you will be pleased to hear that 80 percent are 
minority students, many who had jobs. They were underemployed, 
making less than the national poverty level of $15,000. Minimum 
wage produces about $10,000, $11,000 a year.
    And we are producing large numbers of graduates with the 
associate degrees in nursing, and it is making a huge 
difference.
    My first question is going to be for Ms. Butler.
    You mentioned that the return on investment for your own 
particular rehabilitation was quite high. At the same time, you 
also spoke of long waiting lists for those clients seeking 
vocational rehabilitation services.
    Your testimony indicated that the V.R. program may not be 
receiving the necessary services at the One-Stops. In addition, 
the V.R. concerns may not be adequately addressed by the 
current membership of the workforce investment boards.
    How can we ensure that the One-Stops receive the necessary 
services and how we can improve that portion--correct that 
concern that you voiced?
    Ms. Butler. That was just a great question, and I think 
that there are a lot of responses that I would love to submit 
that to you in writing.
    I will say that I know that one of the return on 
investments--numbers from the Alabama vocational rehabilitation 
service--is one of the programs that I received services 
through--is $20.69 for every dollar spent on my rehabilitation.
    It doesn't take a banking expert to do the math there. That 
is an incredible return on an investment and an excellent way 
to spend taxpayers' dollars. So from that perspective, there is 
absolutely the means in continuing the funding of these 
vocational programs.
    There are waiting lists, I know, in some states in excess 
of 9,000 employees that are not being served, because again, 
the capacity through the funding is stretched to the maximum.
    And when we look at continuing to provide services to 
individuals with disabilities--we have talked about aging 
workers this morning, and again, our returning veterans, 
service men and women, that will be coming back.
    You may know that there was a national memorandum of 
understanding signed by the vocational rehabilitation services 
as well as with the Veterans Administration.
    This to me is a perfect example of collaborative, 
meaningful dialogue taking place to, again, ensure that our 
returning veterans are going to be transitioned effectively 
into America's workforce.
    Chairman Hinojosa. Ms. Butler, if you could give us your 
answers that you said would come in writing.
    Ms. Butler. Absolutely.
    Chairman Hinojosa. I would appreciate having them within 
the next 2 weeks to make it a part of our record.
    And know that we are experiencing--not experiencing, 
rather, but we have finished with the Veterans Administration 
on appropriations with the largest increase in funding for V.A. 
And certainly, this would be one opportunity for us to try to 
address that concern for the veterans that you pointed out.
    And I now turn to Mr. Twomey.
    We agree with you regarding the real growth in the U.S. 
labor market cohort and that much of that, a big percentage of 
it, is Hispanic. However, this community is over represented in 
the lowest wage jobs and reflect the highest high school 
dropout rates in the nation.
    What ideas do the National Workforce Association have for 
using WIA to help overcome these problems?
    Mr. Twomey. That is a great question, Mr. Chairman. They 
were very bright young people, but in that labor market, in 
that time, in the mid 1970s, it was easier to get into the 
labor market and move up the ladder.
    I think the income disparity in this country now is really 
reflected on the education, on haves and have-nots. So we have 
our work cut out for us.
    In my state, we are using $35 million in state money for a 
separate summer youth employment program. Since 16-year-olds to 
19-year-olds are only--only 38 percent of them are in the labor 
market, how do they know the changes in the workforce?
    I think that that was an unfortunate federal policy 
decision when that happened to end that summer youth employment 
program.
    The second thing is labor market information. Young people 
don't know, and their parents don't know, when they are in 
junior high school what growth jobs are out there and what 
sequence of courses you need to take in high school in order to 
get them.
    So having massive kids unemployed, at the same time we have 
35,000 national vacancies in automobile technicians and 
dealerships, ASE certified 35,000 vacancies across the country, 
where the average pay with overtime is $80,000 a year. We can 
do better than that.
    And with your leadership with this bill, we will.
    Chairman Hinojosa. Thank you.
    My time has expired, and I will yield time to our ranking 
member, Congressman Keller.
    Mr. Keller. Well, thank you, Mr. Chairman.
    And, Ms. Butler, let me start with you, if I can. I think 
your story is truly one of inspiration and success.
    You mentioned that along the way on your path through law 
school and now as a corporate executive that you were assisted 
by various vocational rehabilitation services. You mentioned a 
computer, for example.
    How would a young lady today who was going to law school in 
Alabama and ultimately wants to get in the corporate world know 
that these services exist and know where to go?
    Ms. Butler. That is a great question. Well, if the 
individual works for Wachovia or comes to us through an 
internship program, through, again, a national V.R. employment 
network, we ensure that those services are made available.
    I think that is the duty of the network, is that it puts a 
V.R. professional, somebody that is certified, many of who have 
master's education level degrees in rehabilitation services. It 
gives them that direct contact in that state or city where they 
sit.
    And so that certainly would be one way.
    Mr. Keller. What about the education example? If she just 
gets accepted to Cumberland Law School in Alabama and she is 
moving there from out of state, and she needs some help, do you 
go to your guidance counselor at school, or how do you figure 
that out, where to go?
    Ms. Butler. There are disability services programs in many 
universities.
    Mr. Keller. Okay.
    Ms. Butler. And those individuals have the relationships or 
should have the relationships established with vocational 
rehabilitation experts in their area.
    Mr. Keller. Okay. Thank you.
    Ms. Randolph, let me ask you a question. I was taking 
notes, and I saw that in your area you had some 110 individuals 
who were trained and now ready to go into the job market for 
manufacturing jobs.
    How did you go about working with the businesses to see 
what their needs were in terms of what they needed students 
trained, and if you trained them, would they hire them--that 
sort of thing?
    Ms. Randolph. We set up a regional consortium of advanced 
manufacturers and talked with them specifically about what the 
skills and capacities are that they needed, the technical 
skills.
    And we also used that nationally recognized ACT tool called 
Work Keys. We did assessments of the individuals to make sure 
that they had the baseline knowledge, foundational knowledge, 
and then moved right into the training programs.
    The training programs themselves were custom built by our 
community college system.
    Mr. Keller. All right. So give me an example of like what 
would be a major manufacturer that hires a lot of people out of 
this. What would they make?
    Ms. Randolph. We don't have large manufacturers in our 
area. We have lots of mid-sized to small manufacturers.
    But a tool and die shop, for example, who is transforming 
into an advanced process, technology-based process--we have one 
company called Ottenweller who actually is a boutique 
manufacturer.
    They worked with us to develop the skills training 
programs. We trained the individuals and they were guaranteed 
employment on successful completion of their certifications, 
moved right into employment in those companies.
    Mr. Keller. So let me give you a hypothetical example, and 
this may be--we will cover all the different ones. Let's say 
that you have a manufacturer of stereo systems, and they 
assemble various different parts.
    Would you then go to that employer and say, ``Tell me the 
widgets you need them trained on, tell the electric circuit 
boards, we will get them trained, and then in return we hope 
that you hire a certain amount of people from that training 
program?''
    Ms. Randolph. Precisely.
    Mr. Keller. Okay. That seems to be a pretty good 
partnership between the public and private sector. And have you 
seen pretty good placement rates as a result of that?
    Ms. Randolph. Excellent placement rates. Through SSI our 
placement rates have catapulted. We have had 100 percent 
placement in all of our SSI projects.
    Mr. Keller. That is wonderful.
    Mr. Twomey, I see that--I was taking notes from your 
comments, and you want us to augment and improve this act with 
a sense of urgency, is that right?
    Mr. Twomey. That is correct.
    Mr. Keller. If you had a magic wand, knowing that we are 
not the appropriators but the authorizers here, and we could do 
the top two improvements to make this act better, what would 
you say those were?
    Mr. Twomey. Well, I would say, one, as I said to the 
chairman, we need to do a better job with labor market 
information. It exists, but your previous question to Ms. 
Butler was how do people find it.
    Kids and parents don't find it. And workers who lose their 
jobs and have to go to a complete new career need to know--we 
need to make labor market information localized and more 
visible.
    Mr. Keller. Like more T.V. commercials, that sort of thing?
    Mr. Twomey. Well, I think for young people we are going to 
have to get them where they are. We are going to have to go 
more Web site and, you know, find other ways to go forward, not 
public service announcements at 4 o'clock in the morning.
    Mr. Keller. My time is up, but what is your second 
suggestion?
    Mr. Twomey. Well, the second one would be, really, that we 
need to change the definition of what is training. You know, 
there has been a debate--you are not training enough people.
    I have been in One-Stops all over this country. They are 
packed with people who worked on a computer every day, but 
maybe they worked in an auto parts store on proprietary 
software. Now they are getting 2-week brush-up in Microsoft 
Office.
    Under the current law, that doesn't count as training. We 
need to count leverage training. People in One-Stops are 
referred and they are able to get Pell and further their 
education. That doesn't count.
    I suspect that the numbers of people trained are probably 
five times what we are reporting, and we will need to be able 
to do that and work on better common performance.
    Mr. Keller. Thank you.
    Mr. Yarmuth [presiding]. Thank you, Mr. Keller.
    Mr. Scott?
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    I don't remember who it was, but somebody mentioned the 
training of returning veterans. Who mentioned that? Whoever 
mentioned veterans' problems--are veterans having problems 
getting their old jobs back?
    Ms. Butler. Not at our company, no. I will say this, that 
the progress that we have made--we have been actually 
recognized nationally for our military leave policies and 
recently recognized by Military Spouse Magazine as well.
    Mr. Scott. Well, that is your company, but generally, 
particularly the Guard and Reserves who get activated and come 
back, are they losing their jobs?
    Ms. Butler. I am not able to answer that based on any 
research that I have done. I would be happy to get back with 
you and do some research on that if you would like.
    Mr. Scott. Okay. Do we need to make any changes in the 
Americans with Disabilities Act to make sure that people with 
disabilities are not discriminated against, or is that bill 
working okay?
    Ms. Butler. I think there is always opportunity for 
improvement, and I would be happy to share my comments around 
that in writing as well.
    Mr. Scott. Okay.
    Can anybody comment on youth employment, whether or not 
summer jobs and hiring teenagers is part of this picture?
    Mr. Petit?
    Mr. Petit. If you don't mind, in my area, we used to have a 
summer youth employment and training program which was very 
good. It was intended to introduce kids as young as 16 to the 
working world. And in the past few years, that has not been 
available.
    But it resulted in kids at an early age understanding the 
value of work and then when they got to the point of being able 
to go to work had the basic underpinnings of what it takes to 
be a good employee.
    That is gone, and I would like to see a return to that.
    Mr. Scott. Are there any studies to show that summer 
employment and employment activities reduce the dropout rate?
    Mr. Twomey?
    Mr. Twomey. Dr. Andy Sum at the Center for Labor Market 
Studies in Northeastern has done, in my opinion, the best work 
on this issue in the country, and I will be happy, Congressman, 
to follow up and get him to forward you some of it.
    His studies are that that is an investment that continues 
to pay benefits for many, many years.
    Mr. Scott. Thank you. That would be very helpful.
    In terms of services that are available in training people 
for jobs, do you use career schools as part of the possible 
services?
    Mr. Petit?
    Mr. Petit. Career schools--you mean like vocational 
training?
    Mr. Scott. Right.
    Mr. Petit. Absolutely.
    Mr. Scott. And how do you tell the good ones from the bad 
ones? Because there is some out there that don't give you value 
for the money, and others are as good as gold.
    Mr. Petit. WIA law requires that there be consumer 
information on the results, the outcomes, of these schools.
    Mr. Scott. And the outcome is essentially placement rate?
    Mr. Petit. It is essentially a placement rate. However, 
there can be also included in that labor market--or that 
information, information about the quality of training.
    Mr. Scott. There is a provision in the Workforce Investment 
Act that prohibits discrimination based on race, color, creed, 
national origin or sex. Is there any reason why we ought to 
change that? Anyone suggesting that we change that so that 
people would be able to discriminate?
    Let the record reflect that nobody is suggesting that we 
change that.
    Ms. Randolph, you are training 48 nurses. What are they 
doing now? And can you give us a little background about where 
they were and what kind of jobs they had and, based on your 
training, what kind of jobs they will have?
    Ms. Randolph. I am not sure the percentage, but a fair 
number of them were certified nurse assistants, CNAs. But they 
were disillusioned by that particular job, and so they were 
looking to get additional training.
    What is, I think, the backbone of the success of this 
program is that we contacted our hospital systems, and because 
these individuals showed promise, they were hired right into 
the hospital system, and they were given a variety of jobs.
    But they were only allowed to work 20 hours a week. 
However, they were given also full-time benefits. And the 
purpose was to make sure that they weren't spending too many 
hours on a job and not enough hours on studies.
    Then when they complete their R.N. degree and receive the 
certification, they are moved right into a full-time nursing 
position within that hospital.
    Mr. Scott. Can you just say a word about what their salary 
was before and what their salary would be after their training?
    Ms. Randolph. Yes. Actually, most of them were in the range 
of between $8 and $10 an hour before they started the program, 
and when they conclude their program they will move into 
positions that--the lowest is $18.50 an hour.
    Mr. Yarmuth. Thank you, Mr. Scott.
    Mr. Ware, I believe you wanted to make a comment. Would you 
like to proceed?
    Mr. Ware. Thank you, Mr. Chairman.
    Representative Scott, you asked the question earlier about 
the credibility of vocational schools or career schools. I 
started a school with my members in 2002. It is a private 
sector non-profit school for heavy trades.
    And we make an effort. We call every graduate that 
graduates. Over the last 5 years, we have put 7,500 people 
through classes. And we use somewhat of the common measures. I 
can tell you that of the last 1,000 people that we have 
trained, 100 percent have been placed.
    They start at $21 an hour, 75 percent retention rate after 
90 days, 68 percent after 180 days. So we can, in a sense, 
verify the product that we are turning out.
    Mr. Yarmuth. Thank you.
    Mr. Souder?
    Mr. Souder. Thank you.
    I wanted to make a couple comments and finish with a few 
questions. One is that in my congressional district we, in 
fact, have many very large employers. G.M. has, I think, 
2,300--the largest pickup plant in the world. Michelin, 
Verizon, all employ more than 2,000.
    But most of those jobs are union jobs, highly sought after, 
very tough for new people to enter. And also, major company 
policies let transfers come in and take those jobs from other 
states.
    So most of the innovation in WIA is going to occur in the 
small-and mid-size. And then if an opening occurs in a bigger 
company, they are trained and can move up.
    And understanding and giving the flexibility for states to 
adjust around their markets in that way--you are not 
necessarily going to train people who go straight into highly 
sought-after, high-paid jobs.
    A second, and I think the biggest, challenge as we do this 
is the changes as we have gone from SEDA to JTPA to WIA have 
enabled us and the governors in particular who do this more 
flexibility in how to meet changing challenges of the 
workplace.
    And to use that awful term ``creaming.'' The people who 
lose a job are able to move to another job. The people who have 
a lower-paying marginal job that could dip into the welfare 
system in the sense of not having enough health insurance or 
other types of things--getting them trained higher.
    And we may have, combined with welfare to work, taken as 
many as 50 percent in an area where there are jobs up into the 
marketplace.
    The question is how to deal with the harder ones who are 
kind of left behind in that at the same time you do the 
innovation that enables the market area to respond in a limited 
source of funds, because it is much more expensive to deal with 
the harder ones than the ones that you are retraining for the 
marketplace or adjusting.
    And my questions here--and I will start with my home 
district first, with Ms. Randolph. And if you can't all get in 
or want to add or do some checks, I think it would be very good 
for the record.
    I am hearing in the area--and it is one of the reasons we 
are bringing in, like every place else, huge numbers of 
illegals to try to meet the labor demands--is many of the 
people can't meet drug and alcohol screening--not a federal 
mandate. It is a local mandate for health and insurance reasons 
as well as job performance reasons.
    Is there in the linkages of the workforce program any type 
of trigger that goes to drug and alcohol--and try to figure out 
how to get to the substance?
    Because it can be--as many as two-thirds to 90 percent of 
the people being turned down at employers that I talked to 
can't pass the basic screen or they don't show up when they 
find out there is a screening, so many of them are dropping the 
screening, depending on their insurance.
    The second question is that we are all trying to deal with 
language questions. I would be interested in any innovative 
programs in trying to deal with language questions.
    Our area, like many others, not only has Hispanic, but we 
have all these refugee programs when they closed down the New 
Haven plant. I don't know what you do with 400 people. I mean, 
it was like probably at least 20 languages at that plant.
    Another is--Congressman Davis has been a leader in this, 
and I have worked with this. In Fort Wayne, we have a prison 
reentry program that--many of the hardest to employ also have a 
prison record.
    How do you tackle that in the workforce development? And I 
would be interested in any comments from Ms. Randolph and 
anybody else who can comment during my time period.
    Ms. Randolph. Well, let me just make a comment about the 
prisoner reentry program. We have the Blue Jacket program, 
which I believe you already are very aware of.
    What has occurred, because these individuals have felony 
records and are not able to get jobs because of policy in many 
companies, there are some innovative companies that are 
startups that are specifically employing them.
    Then they have a good track record and a work history that 
they can present to a potential new employer. So that is one of 
the innovations that Blue Jacket, for example, has done.
    We are working very closely with the prisoner reentry 
program and seeking placements for individuals who have that 
record and are finding that the most accept comes from those 
startup companies who actually hire by purpose the returning 
offender, giving them that second chance.
    Mr. Carbone. I think that one of the values of a One-Stop 
is that you would have all the services under one roof, at one 
location, that anyone who walks through that door may need in 
order to get to successful employment, be it people with 
disabilities or be it others that, you know, you mentioned with 
other forms of barriers to successful employment.
    The services should be there at the One-Stop level. 
Sometimes there are lots of other barriers that folks have, not 
just not having skills or a career in sight, but lots of other 
barriers that have to be dealt with in order to properly 
prepare them and get them ready for the future.
    Part of creating a base of companies that are friendly to 
folks who are part of the reentry program takes leadership on 
the part of the board to go out and drum up support, and even 
the political leaders of the community, to help us, and 
particularly with small-and mid-sized companies, to create this 
sort of friendly hiring atmosphere, so that we can refer folks 
who are part of the reentry program who have gone through our 
testing process, who have gone through all the sort of other 
agencies that can help to get them better prepared, and are now 
ready for employment.
    Most communities, and I think mine, you know, to some 
extent as well--there is a limited number of companies that 
want to talk to you. There are lots of startup companies. There 
are lots of folks that employ folks that might be day laborers 
or things of that sort that will help and will do that.
    But if you are interested in getting them jobs that are 
going to kind of nurture them for the years to come and 
integrate them into the job market, I think, again, I get back 
to that same point I made before.
    If you have a larger board, and the board has more 
resources, and the board is kind of respected, if not revered, 
in the community, then I think you can get the level of 
cooperation from all of the partners of that community to be 
successful, regardless of the barriers that a person may have.
    Just to better respond for a second to your first point, I 
mentioned in my remarks that the One-Stops need change, that 
the constituencies of service as unemployment continues to 
diminish are going to change.
    And it is going to mean that a lot of folks are going to 
need a lot more time, a lot more services, to be successful. 
And resources need to be dedicated accordingly.
    But if the workforce board, again, has the community 
colleges, your state universities and the institutions that 
spend a lot more money than workforce boards do in job 
training--if we are focused on a community consensus, a plan, 
it can be totally full service.
    So again, the leadership of the board--the larger board is 
part of doing this part of our work a lot better.
    Mr. Ware. Mr. Chairman, I would like to comment on that, if 
I might?
    Mr. Yarmuth. Sure, Mr. Ware.
    Mr. Ware. Representative Souder, it is a great question, 
and I see in what I am doing that the employer really has to 
become more involved than he has in the past.
    We have a 2.8 percent unemployment rate in Wyoming. That 
means that people that we are coming to or are coming to us to 
serve have suspended driver's licenses. I mean, we are really 
at the lowest level. They have alcohol problems, et cetera.
    And we can serve them, get them trained and into position, 
so I think the employer, just because of the nature of the 
workforce shortage, is going to have to take on more 
responsibility than they have in the past.
    And I give one example, Valerie Giddens, a single mom with 
three kids, age 46 years old, has never been self-sustaining in 
her life. We taught her how to drive a truck and become a Class 
A driver.
    She made $48,000 last year. She has insurance for herself 
and her kids. She has bought a car, and she is looking at 
buying a house. Great short story there.
    It took 1.5 years of the employer working with her to get 
her to that point. And the employer made the investment in that 
person.
    The other comment about language--you know, today, with all 
of our technology, there are a lot of new processes to learn 
the English language or the Spanish language much more quickly 
than just opening a book and turning pages. Thank you.
    Mr. Yarmuth. Thank you.
    Before I recognize Mr. Bishop, I would like to ask 
unanimous consent that three statements be submitted and 
included in the record: the testimony of Gary Earl, the 
president and CEO of Workforce Central Florida; the statement 
of the AFL-CIO; and the statement of the United States 
Conference of Mayors.
    Without objection, so ordered.
    [The information follows:]

 Prepared Statement of Gary J. Earl, President, CEO, Workforce Central 
                                Florida

    Chairman Hinojosa, Ranking Minority Member Keller, and 
distinguished members of this Subcommittee, I am Gary J. Earl, 
President and CEO of Workforce Central Florida. Workforce Central 
Florida is the Regional Workforce Investment Board under the current 
Workforce Investment Act for the five County area surrounding Orlando, 
Florida. We cover the areas of Orange, Seminole, Osceola, Lake and 
Sumter Counties. We are a regional entity formed by combining the areas 
of two previous Private Industry Councils and adding additional 
counties from each of two other Councils, in order to achieve a 
regional economic area that resembles the kind of regional entity 
envisioned in much of recent discussion on the matter of what the right 
size region might be. Our geographic footprint covers the areas of five 
school districts, three community college districts, and at least seven 
economic development organizations, and each and every one of those is 
a valued partner to our enterprise. To give you some perspective, 
Workforce Central Florida's WIA Adult allocation was larger than that 
of nine states when we checked just a few months ago. At Workforce 
Central Florida, We believe that to compete in the global economy of 
the 21st Century, America, Florida, and our Region must maximize the 
productive potential of all segments of its population and its 
businesses.
    As Background, I would like to share some of Florida's WIA history 
with you. Florida's response to the challenges and opportunities 
offered by the Workforce Investment Act, the amendments to the Wagner-
Peyser Act, and the enactment of the Temporary Assistance for Needy 
Families Act were unique. Florida was an early implementation state in 
the initial phases of WIA, having anticipated much of what was working 
its way through Congress at the time as the new Workforce Investment 
Act. After a long process of public hearings, stakeholder focus groups, 
and so forth, in Florida's landmark Workforce Innovations Act of 2000, 
the State Legislature established the State Workforce Board as the 
policy and oversight body for all workforce development activity in 
Florida, the Agency for Workforce Innovation as its administrative arm, 
and the Regional Workforce Development Boards as the local planning and 
oversight entity responsible for programs operated at the local level. 
This followed several years of discussion and reorganization at the 
state and local levels, as we adapted to the changes in federal 
workforce legislation, the movement of welfare transition programs away 
from a social service design to one of reemployment.
    As I am sure you know, the Workforce Investment Act of 1998 was 
built on five key principles: 1) streamlined services in a one-stop 
environment, 2) customer choice, 3) universal access to all customers, 
4) strengthened accountability, and 5) private sector authority. In the 
Workforce Innovations Act of 2000 (FL), Florida adopted four more of 
its own: 1) self-sufficiency and self-reliance, 2) performance 
accountability, 3) privatization as a cornerstone of operations, and 4) 
local governance by the private sector leadership. Further, the Florida 
Senate Select Committee on Workforce Development identified several key 
issues facing the economy of Florida that had direct implications for 
the workforce Development system. They included, 1) disconnect between 
the workforce system and the state's economic development strategy, 2) 
insufficient number of potential employees with the technical or 
professional skills to meet the needs of Florida's employers, 3) 
insufficient number of potential employees with adequate literacy 
skills, work ethic, and good work habits to meet the needs of Florida's 
employers, 4) problems of welfare transition clients and other 
``working poor'' Floridians, 5) employers' need for continual 
enhancement of employee skills, 6) small business workforce needs, 7) 
strategic, effective, and innovative use of workforce system resources, 
and, 8) multiple, overlapping administrative structures.
    Florida's Legislature concluded, in the preamble to Florida's 
Workforce Innovations Act that, ``Florida's [local business] 
communities have demonstrated in the Workforce * * * programs that they 
have the energy, capacity, and the will to tackle some of society's 
toughest challenges. The nexus between workforce challenges and 
workforce solutions is in the [local business] community and, to the 
greatest possible extent the authority to implement those solutions 
should reside there, as well.'' We believe these actions were directly 
attributable to the private sector leadership involved at both the 
state and regional board levels. In Florida, the oversight delegated to 
the private sector mandated in the Workforce Investment Act was 
extended to all labor market exchange and welfare transition programs 
as well.
    Workforce Central Florida believes that Florida's Workforce 
Development System stands out as a model for the rest of the country. 
Very few states have their own laws on the subject of Workforce 
Development and only a hand full have laws as comprehensive as that of 
Florida. While functional consolidation of all programs related to 
activities in the publicly funded labor market exchange systems is 
still a topic of debate for the large portion of the country, Florida's 
Workforce Innovation Act of 2000 did that to the extent allowed by 
federal law.
    The genius and the key to the success of Florida's system design 
over the years in hitting performance goals, successfully navigating 
welfare reform, responding to disasters, and tackling special charges 
such as Florida Rebuilds (hurricane response) has been in the systems 
recognition of the private sector leadership at the local level as the 
``nexus'' of workforce development activity. Who better to establish 
and maintain policy on labor market exchange than the local business 
leaders who make up the consumer base of the services provided by the 
system? The state law clearly established the state level 
responsibilities as policy and enablement, and anticipated all 
consolidated activities to be overseen at the local level by the 
several regional Workforce Investment Boards.
    Workforce Central Florida recently celebrated its tenth 
anniversary. I would like to share with you some of our accomplishments 
over that period. In the last ten years, Workforce Central Florida has:
    <bullet> Assisted over 38,676 employers recruit and hire,
    <bullet> Assisted over 38,676 employers recruit and hire,
    <bullet> Helped nearly 900,000 residents looking for work,
    <bullet> Provided over $14M in training scholarships to upgrade the 
skills of Central Florida residents,
    <bullet> Awarded 44 college scholarships to youth,
    <bullet> Helped to reduce welfare roles by 80%, saving 
approximately $35M/year in welfare expenditures,
    <bullet> Partnered with other agencies to help bring another $8.5M 
in grants to our local area,
    <bullet> Reduced infrastructure from over 1 dozen offices to 5 one-
stop career centers; redirecting funds saved into other services,
    <bullet> Placed over 320,000 job seekers into jobs,
    <bullet> Helped over 9000 at risk youth stay in school,
    <bullet> Received over 55 local, state and national awards of 
excellence,
    <bullet> Hosted over 1000 HR professionals and CEOs at our 3 
workforce summits,
    <bullet> Provided outplacement services to area employers for over 
32,000 individuals they had to lay off,
    <bullet> Partnered with school districts to provide ESOL to 
hundreds of individuals who do not speak English, and
    <bullet> Directed over $100,000,000 to area organizations through 
contracts for services.
    During that ten year period, there were a number of events that we 
consider significant milestones. I will list a few of them:

1996: New board seated in newly-configured 5 county region
1997: WAGES (welfare reform) launched Service delivery in One-Stop 
        began
1998: Teen pregnancy prevention kicked off
1st web site unveiled
1999: Local WAGES Board and CFJEP merged; WCF is new name
1st regional labor market study conducted
2000: Search for unrestricted resources becomes a priority of Board
One-Stop served over 65,000
2001: Workforce Watch e-newsletter began
Partnered with chambers to train businesses regarding services
President Bush visited our one-stop center after 9-1-1.
2002: Launch of Employed Worker Training as priority of Board
Board adopted policy that the employer is our customer
2003: 1st regional workforce summit held--275 attend
Board designated targeted industries, directing resources to those 
        industries in the area compatible with area's economic 
        development strategies
2004: Inaugural State of Workforce survey released
Mobile Express begins service
NEG response is implemented after hurricanes
2005: State and national recognition received for business and 
        healthcare models
Katrina came ashore; staff was sent to Mississippi
Won high performing region designation
Orange County Mayor's Job Fair held for Katrina victims in area

    I relate these historical facts to make a central point. Workforce 
Central Florida is a success story because the policies followed over 
that time period were generated by an overwhelmingly private sector led 
Board of Directors at the local level. I say overwhelmingly because we 
have maintained a super majority across that period, not just the 
required simple majority. Furthermore, we have maintained within our 
own bylaws a definitional requirement for a quorum that requires not 
just a majority of active Board members to be present to conduct 
business, but an additional requirement that a majority of those 
present must be private sector representatives. That is our corporate 
culture. If we are to truly ensure that the ``investment'' in workforce 
investment is to be an investment in our communities' comprehensive 
economic development strategies, then all expenditures and practices at 
the local region level must be overseen and managed by the local 
regional Boards. In my view, this would necessarily extend even to 
expenditures made under any form of Individual Training Accounts, or 
any of the other several labels that have been suggested for the same 
kind of activity. Without such local oversight, such expenditures have 
no more accountability than FEMA credit cards and can hardly be called 
``investments''. I would recommend to you without reservation, that as 
you deliberate on improving our nation's workforce development system, 
that you consider similar requirements regarding the private sector 
leadership at both the local and state levels.
    I would also like to take this opportunity to suggest a number of 
other recommendations which I would, on behalf of my Board and 
colleagues ask that you consider. As we look for ways to improve 
services to our primary customers the employers we need to continue to 
be able to identify and design program and service mixes that best fit 
the needs of the local Workforce Boards business community. We must go 
beyond ``continue'' to ``triage and blend'' the traditional State 
managed workforce programs with and accompanying traditional local 
workforce programs. One size rarely fits all therefore we recommend 
exploring ways to customize, mix and blend services for the local 
business communities. Therefore, we would ask that you: Allow Local 
Regional Workforce Boards the authority to operate Incumbent Worker 
Training (IWT). Include IWT as another arrow in the local workforce 
quiver of services, continue to explore eliminating the 50% match 
requirement for customized training, provide that services for business 
should include targeted skill development for customized skill needs, 
allow local Workforce Boards the authority to add performance criteria 
for local training provider's eligibility, continue the prohibition of 
listing On-the-Job Training providers (OJT) and customized training 
providers from State Training Providers List, and we request that 
scarce Youth formula dollars not be used to fund new youth programs 
like the National Youth Challenge Grant and other future youth 
programs. In fact, in recent years, the Department (USDOL) has engaged 
in a good bit of discretionary grant-making in areas other than youth, 
as well. Efforts to engage Faith-Based and Community-Based 
Organizations are noteworthy; however, these activities have been 
largely conducted with little or no notice to or coordination with 
designated authorities at the state and local level. In the case of 
some of the WIRED grantees, entities (which did not exist prior to the 
grant) were formed specifically for that purpose without any 
consultation and agreement by local elected officials; creating 
questionable and unclear situations regarding accountability. Some 
large national grants were given to companies offering wages so low 
that such companies would not be considered for funding assistance by 
local authorities at the local level. Discretionary activities of the 
Department should be coordinated with local and state authorities, in 
order to ensure that such activities enhance the economic strategies of 
local areas.
    Adequately funded One-Stop Infrastructure is critical to maximizing 
the availability of training and retraining services, as well as 
support services, for America's employers and workers. Although the 
Workforce Investment Act mandates specific partners within the One-
Stops, partners are not required to pay their fair share and partners 
often choose not to participate when they are pressed to pay. 
Transportation is an issue in most of our regions, making it difficult 
for customers to travel to the various partners' offices. The rising 
costs of infrastructure, physical and electronic, are placing a strain 
on the local workforce boards and their partners. More partners with a 
mandate to share costs are needed to shoulder the infrastructure 
burden. With declining funding and only limited financial support from 
partners, many workforce boards have found it necessary to close One-
Stops. We would ask that you create an infrastructure funding mechanism 
whereby States are required to determine and appropriate contributions 
to the One-Stop infrastructure from WIA mandated partners, without 
federally imposed caps on such contributions and/or establish a 
separate, new authorization for One-Stop infrastructure funding that 
brings together all partners with the needed resources to support a 
comprehensive workforce system.
    Regarding accountability, we would note that in our private sector 
businesses, we expect to be held accountable for employee, customer 
service, and bottom line performance. The public workforce development 
system and its' local programs must also be held accountable, both 
fiscally and programmatically. We support evaluation measures that make 
sense for legislative purposes, as well as managerially meaningful for 
local Boards. ``Accrued expenditures'' must be included in any 
meaningful measurement system, as has been recommended by the GAO, for 
several years now. We support efforts to target performance standards 
under WIA that will help build a comprehensive, outcome oriented 
national public workforce system, and we would hope that there is to be 
room for locally developed measures, as well. We would recommend 
caution with implementation of any measures that may cause unintended 
consequences, such as a tendency to serve individuals who are most job-
ready.
    Finally, and perhaps most importantly, regarding GOVERNANCE, we 
believe that legislation must ensure the continuation of strong, 
locally-based, private sector business-led decision making process of 
the current workforce investment system, the formation of workforce 
regions from the local area up, not the top down, as this is 
fundamental to a region's legitimacy at the local level, and the 
appointment of local boards by local elected officials.
    In the Workforce Investment Act, Congress struck a very delicate 
balance between the authorities and responsibilities given to the 
federal, state and local levels in the system. As an example, the Act 
clearly gave the responsibility of certification of one-stop centers to 
the local Workforce Investment Boards. It also left the oversight of 
the Wagner-Peyser functions at the state level. Care needs to be taken 
that the notion that the proper roles of the federal and state levels 
are to enable the local WIBs, set direction and policy appropriate to 
that level, and assure accountability, and that operational decision 
making occurs at the local WIB level. The states should establish the 
overall framework for service delivery in consultation with the local 
areas. The final determination on service delivery mix should be made 
at the local area, closest to the customer, not micro managed by the 
state. There is a distinct difference between setting standards for 
certification and conducting the actual certification within those 
standards or guidelines. To assist in the clarity of the legislation, 
we recommend the following items:
    Retain the requirements that Chief Elected Officials and Local WIB 
members be included on the State Board (retained from current 
law).Local WIB members on the State Board provide a frontline view that 
many of the appointed business seats and mandatory partner seats may 
not have.
    Focus the role of State boards on providing guidance to partner 
programs on their appropriate roles and contributions to the One Stop 
infrastructure. State boards need to be given tools to fully engage 
partner programs such as the Vets and Vocational Rehabilitation 
programs in the infrastructure of the One-Stop Centers. Many Centers do 
not have co-location of these programs and even if they do they are 
often not structurally a part of the One-Stop team.
    Ensure that regional planning is conducted only after first 
consulting with local boards and local elected officials; and regional 
plans must incorporate the plans of each of the local areas within the 
region. Regional plans should add value to and not be developed at the 
expense of the local area's needs. While regional planning is necessary 
for labor market and economic development information there are still 
unique challenges to the local regions.
    Streamline the membership requirements of local Board membership 
without diluting the private sector representation. There are too many 
mandated partners that do not bring strategic direction or policy 
governance to the State and Local Board memberships. Board size and its 
effect on a Board's ability to function is a serious issue, 
particularly where the area covered by a given Board is large, entails 
heavy time and travel demands on the volunteers, and as a result, makes 
meetings difficult. The requirements for ``representatives'' should be 
minimized wherever possible, but only in the context of and in 
agreement with current requirements of the Act itself. Boards need to 
continue to be driven by the private sector membership and eliminating 
requirements for multiple seats for one-stop partners would enhance 
business leadership. Perhaps a minimum requirement for representation 
on the State Board of Regional Workforce Investment Boards' membership 
would enhance coordination between the two. Specifically, at the local 
level the reduction of requirement to have a representative of each of 
the One-Stop Partners on the local board would help to reduce the size 
of boards to a manageable level and would remove contractors from 
sitting at the board table (as many do across the nation). Local Board 
membership should be Business led with a strong (if not super) majority 
and removing those who are representatives of Unemployment Compensation 
or Trade Adjustment Act and other operational partners would foster the 
environment of a demand-driven, pro-active workforce system.
    I would add to these comments only one more in conclusion. It is 
imperative that we ``get it right'', and therefore, proper deliberation 
is necessary. However, it is, in my view, also (and perhaps more) 
important that we get it sooner rather than later. We need 
reauthorization now so we can move forward in ensuring our communities' 
competitiveness as expediently as possible. Mr. Chairman, Mr. Keller, 
and Members, I want to thank you for the opportunity to comment.
                                 ______
                                 

    Prepared Statement of American Federation of Labor-Congress of 
                   Industrial Organizations (AFL-CIO)

Overview
    More than ever, securing the future for working families depends on 
having access to training and education, and then access to jobs that 
pay well and have good benefits. Responding to the economic challenges 
facing millions of unemployed, low-wage and disadvantaged workers, and 
the need to retain and create decent jobs, is a daunting and urgent 
task for our nation's workforce development system--but it must be the 
primary task.
    Globalization, outsourcing, technological change and mass layoffs 
have created unprecedented turbulence in the labor market where workers 
are increasingly faced with jobs that pay less and provide fewer 
benefits. Changing jobs should not result in financial disaster for 
families. The United States must do more to help workers manage these 
transitions and the economic threats faced by working families. These 
include specific labor market, education and training services that 
will better match job seekers and employers, help U.S. workers access 
training for good jobs and provide employers with skilled workers.
A Historical Perspective
    In the depths of the Great Depression, over 70 years ago, the 
federal government established an economic security system to aid in 
economic recovery, provide help to unemployed workers and assure 
stability in the labor market.
    The Congress and the Roosevelt administration put into place a 
federal-state system of public employment offices that were to be 
universally available to employers and workers without charge or any 
conditions. This was followed by the creation of the Unemployment 
Insurance program whose benefits were to be paid through the public 
employment offices. The relationship between the Employment Service and 
Unemployment Insurance has prevailed ever since.
    Since that time state Employment Security agency functions have 
included Unemployment Insurance and Employment Service functions 
including labor exchange; labor market research and information, and 
the administration of worker adjustment programs such as the Trade 
Adjustment Assistance program. In the post-World War II period the 
state Employment Security system was asked to take on additional 
responsibilities--providing special help to veterans and certifying 
foreign workers by demonstrating that the admission of foreign workers 
would not harm U.S. workers
    Throughout the intervening years the workforce system has evolved 
to respond to the various economic, social and political changes 
affecting our nation. Starting in 1960s the federal government sought 
to involve itself in worker training by creating direct federal 
categorical grants programs as part of the ``War on Poverty.'' During 
that period the institutional responsibility to provide training 
services to the disadvantaged and unemployed was given to local 
governments, non-profits and community agencies. In the 1970s workforce 
training programs became highly decentralized and federal decision 
making was transferred to state and local governments who were charged 
with designing, developing and implementing workforce training.
    The Comprehensive Employment and Training Act of 1973 (CETA) 
created local advisory boards and later Private Industry Councils to 
help oversee local programs. The Job Training Partnership Act of 1983 
(JTPA) increased employer control over local training programs for 
disadvantaged and dislocated workers.
    As time went on federal job training programs began to compete for, 
and displace, the resources of the state employment security system and 
the process has continued to this day.
Reauthorizing The Workforce Investment Act
    The Workforce Investment Act is the next iteration of the evolving 
workforce system that began in the 1960s and it is an outgrowth of the 
locally based structures established in as part of the anti-poverty 
programs. As a result, governance is localized and dominated by 
employers, delivery is often privatized and job training effectiveness 
varies widely. One of the reasons why workforce training programs 
always have to struggle for attention in the appropriations process is 
that they can not produce evidence of effective training. This will 
continue to be problematic as the system struggles for political and 
financial support.
    As we reconsider workforce training within the context of the 
Workforce Investment Act we see a system where most of the attention 
and resources are focused on governance and ``work-first'' policies at 
the expense of training. While employer dominance has increased, the 
voice of organized labor and community organizations has been 
increasingly marginalized. The competition for resources coupled with 
the emphasis on ``work-first'' strategies and core services delivered 
through a one-stop infrastructure has created extraordinary tension 
between state and locally based system.
    This struggle to keep a statewide focus on programs including 
Vocational Rehabilitation, Unemployment Insurance, Employment Service, 
and Trade Adjustment Assistance is challenged by a workforce training 
system that is dominated by local workforce boards. The inability to 
reach consensus on WIA reauthorization over the last five years is 
symptomatic of the inability of both sides to resolve the tensions 
between state and local delivery systems and between the interests of 
employers and the interest of workers.
    We believe there are valuable roles for all parties in the 
workforce system. At the center of the system must be a robust 
employment security program that is able to provide labor exchange, 
labor market information, counseling, case management and referral to 
job training and job placement. We are not proposing that the 
employment security system serve as a mechanism for providing training; 
however we believe that system must serve as the primary entry point 
into the system. The employment security system is not a replacement 
for local training programs--rather these programs should work in 
coordination with the labor exchange structure
    During the five years that we have been debating the 
reauthorization of the Workforce Investment Act we have seen the Bush 
Administration and the Labor Department try again and again to block 
grant Wagner-Peyser Employment Service and WIA programs. The AFL-CIO 
has consistently opposed these initiatives, including our strenuous 
opposition to proposed regulations published last December that would 
have essentially created a state option to block grant these programs.
    We believe that organized labor has been marginalized--our 
participation on WIA boards has been minimized, our input in the design 
and development of training was eliminated in 1998 and we have been 
engaged in a struggle to regain a strong voice in this system.
A Stable, Sustainable System
    Our nation needs a renewed social compact between government, 
employers and workers that creates a stable and sustainable employment 
security system. This system would:
    <bullet> Provide unemployment benefits that replace the majority of 
lost wages and cover more of the unemployed. It would extend 
unemployment benefits well beyond the 26 weeks so that workers have 
sufficient time to look for better paying jobs and get retraining.
    <bullet> Expand the public delivery system to support full 
implementation of labor exchange, Unemployment Insurance and training 
services staffed by trained professionals
    <bullet> Provide a guarantee of education and quality training for 
unemployed workers as well as those seeking to upgrade skills that 
ensure economic self-sufficiency. This requires a system that supports 
labor-management partnerships in industry sectors that links training 
to good jobs.
    As economic hardship and uncertainty plague millions of workers, it 
is particularly important that the Congress exert strong leadership to 
ensure that our nation's workforce system helps workers rebuild their 
lives, their families and their communities.
    Just as working people and their unions fought for the good jobs we 
have today, unions will continue to seek a strong voice in the 
education, training and economic development systems in our states and 
in our communities.
    We believe that to work effectively, this system must be 
universally available, publicly administered and fully funded. As the 
voice of workers in the system unions can help transform WIA into an 
instrument for developing high-wage, high-skill jobs, instead of a 
revolving door of low-wage, low-skill jobs.
    The labor movement is committed to strengthening the nation's 
workforce development and job training infrastructure. We will continue 
to oppose any effort to privatize our public delivery systems, and will 
continue to support a central role for the State Employment Service in 
providing labor exchange service and a federally supported Unemployment 
Insurance system as key components of a comprehensive workforce 
development system. The AFL-CIO will continue to advocate for funding 
levels sufficient to meet the reemployment and retraining needs of all 
American workers.
    We will support coordination with and involvement of proven 
providers--our nation's registered apprenticeship programs, community 
colleges, and other post-secondary institutions as well as community-
based organizations--in delivering high-quality education and training.
    We believe that workers' skill and career development needs must be 
at the forefront of our nation's workforce development system. Public 
workforce programs must build family-sustaining jobs that connect poor, 
unemployed and underemployed workers to good jobs and career ladders, 
and that support high-road companies that compete on the basis of skill 
and innovation.
Specific Recommendations
            1. Strengthen the Wagner-Peyser System
    Wagner-Peyser Programs are fundamental to the U.S. labor market and 
play a crucial role in the Unemployment Insurance program.
    A comprehensive and well structured employment and training system 
requires a strong robust public labor exchange. Private sector 
intermediaries like temporary agencies are not concerned with helping 
individuals facing barriers to employment or helping them move upward 
in the labor market. Only a public institution, like the Employment 
Service can take on this responsibility.
    State Employment Service (ES) grants through the Wagner-Peyser Act 
provide funds for a range of services to millions of workers looking 
for jobs and millions of employers looking for workers. The Wagner-
Peyser Employment Service is financed from the UI Trust Fund because 
the public employment service is used to ensure that UI claimants meet 
the program's legal requirement to look for work, which is a core 
element in determining UI benefit eligibility, and to provide job 
matching services for claimants. The Social Security Act explicitly 
authorizes appropriations from the UI Trust Fund for public employment 
offices under the Wagner-Peyser Act for this reason.
    More recently the 1998 Workforce Investment Act reaffirmed the 
close connection of Wagner-Peyser employment services to the 
unemployment insurance program by amending Section (3) of Wagner-Peyser 
to require that the Secretary ``ensure, for individuals otherwise 
eligible to receive unemployment compensation, the provision of 
reemployment services and other activities in which the individuals are 
required to participate to receive the compensation.''
    Long term resource declines for the Wagner-Peyser program have 
seriously degraded its capacity as a national/state labor exchange. For 
example, The United States ranks last in spending on public employment 
services as a percentage of GDP in an OECD survey of developed 
countries.\1\ In addition, the shift to UI call centers and Internet 
claims taking has substantially weakened the connection between the two 
programs. There has been a steady decline in real terms for Wagner-
Peyser funding. To match the 1985 appropriation for Wagner-Peyser, the 
Administration would have to request $1.4 billion, or twice as much as 
the current appropriation for FY 2007.\2\
---------------------------------------------------------------------------
    \1\ Lippodlt, Douglas and Melvin Brody, ``Public Provision of 
Employment Services in Selected OECD Countries: The Job Brokerage 
Function. In Labor Exchange Policy in the United States, Balducchi, 
Eberts and O'Leary.
    \2\ Devereux, Greg. American Federation of State County and 
Municipal Employees (AFSCME) ``Testimony before the Subcommittee on 
Human Resources of the House Ways and Means Committee.'' May 4, 2006
---------------------------------------------------------------------------
    It is more efficient and seamless for the same state system that 
provides UI benefits to provide such services, as assessments, public 
job search assistance and referral to other appropriate services, as 
soon as a worker becomes unemployed as possible. Keeping these 
functions with the same state agency that provides the benefits is more 
efficient and effective because it allows for early intervention and 
assistance.
    A statewide public labor exchange system is a valuable component to 
a broader workforce development system.
    In addition to its role in the UI system, the Wagner-Peyser system 
also is charged with making available universal labor exchange 
services. Specifically, the Wagner-Peyser Act requires the Labor 
Department to ``maintain[ing] a system for clearing labor between the 
States''.
    With job turnover and mobility much greater than in previous 
decades, a strong and uniform system that can operate on a statewide 
and interstate basis is necessary now more than ever. This is true not 
only from the standpoint of the job seeker but also from the standpoint 
of maintaining a high level of economic productivity. It would be 
difficult if not impossible to achieve this with a collection of 
private or local entities. Passing down dollars and driving policy 
through multiple layers of and among multiple providers makes it 
difficult to develop uniform policies and practices as called for under 
Sec. 3 of the Wagner-Peyser Act.
    In addition to the legal requirements in Wagner Peyser, the public 
state labor exchange can provide the following benefits:
    <bullet> The development and use of labor market information (e.g. 
information on state, regional, interstate and local economies) on a 
uniform and systematic basis is more efficiently and equitably 
accomplished on a statewide, if not national, basis instead of by a 
multiplicity of local areas. This function can provide useful support 
to local one-stops as well as a variety of private intermediaries.
    <bullet> A statewide information network for jobs and jobseekers 
(either as a public job bank or linkages with private ones or a 
combination of both) avoids costly duplication of information systems 
by local areas. In addition, the free self-help services which are 
available to both employers and jobseekers in local one-stop centers 
depend on the infrastructure that state agencies have developed. 
Privatizing this function could convert these self-help operations into 
profit centers for private companies to begin charging both employers 
and job seekers.
    <bullet> Statewide information systems can become a central 
component of state, regional, and local economic development strategies 
and can help inform the design of effective training programs focused 
on emerging industries and good jobs.
    <bullet> Trained Wagner-Peyser staff can help job seekers who 
cannot use advanced information tools and to refer them to more 
specialized services. Evidence shows that ES services are of particular 
value for low skilled minority workers.\3\
---------------------------------------------------------------------------
    \3\ Holzer, Harry. ``Labor Exchange Policy in the U.S.'' W. E. 
Upjohn Institute, 2004.
---------------------------------------------------------------------------
    <bullet> A statewide structure provides flexibility that local 
labor exchange entities do not have, including the ability to shift 
staff to different parts of a state during emergencies, which Virginia 
did after 9/11, and the ability to work on a regional and interstate 
basis. This flexibility also has allowed Ohio to fill in gaps where 
resources are scarce or not available, including supplementing veteran 
services and TAA support around the state when needed. Ohio state staff 
is trained in ES, UI, TAA, labor market information and outreach 
services to employers, a flexible workforce that allows the state to 
provide more universal labor exchange services that can respond to 
emerging local needs.
    <bullet> The public state operated labor exchange structure is 
especially important in rural states and rural parts of states, where 
local and private placement companies are weak or non existent. Private 
companies tend to prefer operating in urban areas where opportunities 
to make money are greater. Employees in public agencies seek to serve 
all jobseekers consistently and evenly.
    Maintaining a public labor exchange subject to merit based 
personnel standards, instead of using private contractors creates 
accountability, equity and the ability to achieve statewide or federal 
policy objectives
    <bullet> Merit-based (or civil service) system requirements were 
applied to the Wagner-Peyser Act shortly after enactment. They are 
designed to promote high quality service delivery by ensuring that 
hiring and promotions are based on competence, and not affected by 
nepotism, political connections and favoritism unrelated to job 
qualifications. These standards also ensure impartial and unbiased 
delivery of service, and not affected by favoritism or prejudice. As 
such they are very different from the personnel policies of private 
contractors whose primary obligation may be to maximize profit for 
stockholders or who can hire and fire at will without any of the 
restraints of merit standards.
    <bullet> Public administration provides important due process 
protection for individuals who are receiving government benefits such 
as UI, who might be subject to discrimination, and who expect the 
privacy of confidential information. Consistently state employees point 
out that they must serve any and everyone while private contractors 
can, and do, pick and choose to whom they give the most attention.
    <bullet> A state/national public structure can help facilitate the 
implementation of public policies. For example, with adequate staff, a 
public labor exchange can be a useful tool for identifying and working 
with employers with skill shortages, including those requesting 
immigrant labor, guiding qualified jobseekers to them, and promoting 
training in these occupations.
                             recommendation
    <bullet> Require states to use Wagner-Peyser funds for statewide 
public labor exchange and labor market information.
    <bullet> Require that states use merit-based personnel systems to 
implement Wagner-Peyser programs.
    <bullet> Increase Wagner-Peyser funding for the State Employment 
Security programs to a level that is sufficient to carry out its labor 
exchange, labor market research and information and related programs.
            2. Address Infrastructure Funding
    The use of WIA resources to focus on service integration, create 
new one-stop facilities and bureaucracies, without any limitation, has 
contributed substantially to the decline in training. This is despite 
the fact that many WIA partner programs already contribute operating 
funds to one-stop operations.
    A number of infrastructure proposals would start the commingling of 
funds from non-WIA programs. In doing so, they transform the original 
one-stop idea of a better-coordinated workforce system into a mechanism 
for reducing resources for and block granting these programs in the 
future.
                             recommendation
    <bullet> Current law should be retained, or a separate WIA funding 
stream should be created, for one-stop operations.
            3. Rebalance the Interests of Employers and Workers: 
                    Increase Labor Participation and Connect Training 
                    to Good Jobs
                    a. increase labor participation
    Organized labor brings a vitally important perspective to workforce 
and economic development. This involvement is rooted in labor's 
fundamental mission to create, sustain and expand opportunities for 
good jobs and foster strong communities in which working families have 
a voice.
    Expanded organized labor participation will help to ensure that 
funds are used to identify skill needs, develop relevant training 
curricula, provide quality training and career pathways that lead to 
good jobs and economic self-sufficiency. Unions also encourage 
employers to invest more in training and education. Joint training 
programs in the auto, steel, communications and health care sector have 
significantly increased opportunities for career development for 
workers and their families.
    Unions who represent workers having skills in which training is 
proposed should be fully consulted in the design and implementation of 
training so that organized labor's unique knowledge of the local labor 
market and industry skill needs will assure that WIA programs are of 
high quality and proven results
    The AFL-CIO Working for America Institute has been working with a 
number of unions to establish high road partnerships with companies, 
community organizations and the WIA system to provide workers with 
education and training, opportunities for advancement and a commitment 
to build their communities based on skill, innovation and an equitably 
share prosperity.
                             recommendation
    <bullet> Require that unions who represent workers having skills in 
which training is proposed should be fully consulted in the design and 
implementation of training.
    <bullet> Increase labor representation on state and local workforce 
investment boards so that a minimum of 15% of state and local board 
membership comes from organized labor.
          b. expand training and connect training to good jobs
    A principal criticism of WIA has been the substantial decline in 
actual training and the use of WIA for labor exchange services as a 
result of the decline in Wagner-Peyser funding. Specifically WIA 
reauthorization should ensure that Wagner Peyser funds are used for 
labor exchange which will free up WIA funds for training
    In regard to funding decisions, priority consideration should be 
given to training programs of demonstrated effectiveness in helping 
workers gain economic self-sufficiency, including joint labor-
management training programs.
    The Congress should look to efforts in Great Britain where 
employment and training programs involve key partnerships between the 
Department for Education and Skills and British Trades Union Congress. 
The British Government has established a Union Learning Fund that 
provides support to Union Learning Representatives who are on the 
frontline in workplace education and training providing outreach and 
assistance to workers in accessing the workforce system. These 
partnerships help workers develop new skills and careers and increases 
productivity.
    Union-involved education and training programs help to promote 
employer's economic success and reflect a commitment to broad workforce 
development. Union-sponsored education and training seek to create 
worker-centered learning programs that build both a broad base of 
worker's knowledge as well as specific fundamental occupational and 
technical skills that underlie a range of jobs, in contrast to the 
often narrow training offered by employers. Union programs connect 
worker training, work organization and work processes in ways that help 
workers and employers increase productivity and spread the benefits of 
increased earnings equitably.
    Unions can work particularly effectively with employers on a 
sectoral basis addressing not only the workforce training needs, but 
modernization and market development as well. Additionally, unions can 
help set sector-based skill standards, assessment and certification 
systems so that workers will have portable and marketable skills.
                            recommendation:
    <bullet> Training should be industry focused on available high-
growth, high-demand, high-wage occupations in qualified industries 
through the one-stop delivery WIA training programs should be 
coordinated with community colleges, employers and unions businesses 
and labor organizations, and the one-stop system to meet the training 
needs of qualified industries for new entrants, dislocated as well as 
incumbent workers
    <bullet> At a minimum, 50% of adult and dislocated worker WIA 
allotments should be used for training.
    <bullet> Priority consideration for funding should be given to 
supporting sector skill alliances established through labor-management 
partnerships that create high-wage, high-growth training and placement 
opportunities.
            4. Increase Funding
    The AFL-CIO continues to be extremely concerned about the under-
funding of workforce training and employment security programs. At a 
time when unemployment and poverty rates are still at unacceptable 
levels, it does not make sense to cut programs that help workers get 
back on their feet. The Administration's cuts have had significant and 
deleterious effect on the workforce system's ability to provide 
services to unemployed workers, those who are leaving public assistance 
and those who are low income.
    Comparative statistics from the Organization for Economic 
Cooperation and Development (OECD) set the total federal expenditures 
for job training in 2000 at .04 percent of GDP. This level places the 
United States in the bottom of OECD member nations in terms of 
government spending on job training.\4\
---------------------------------------------------------------------------
    \4\ O'Leary, Christopher, Straits, Robert and Stephen Wandner. U.S. 
Job Training: Types, Participants and History. In Job Training Policy 
in the United States. W.E. Upjohn Institute. 2004.
---------------------------------------------------------------------------
                             recommendation
    <bullet> Increase funding for the WIA adult, dislocated worker and 
youth programs to a level that will ensure disadvantaged and dislocated 
adults and at-risk youth receive the necessary adjustment and training 
help they need.
            5. Maintain and Expand Labor Standards and Worker 
                    Protections
    WIA labor standards and worker protections are an important 
foundation of protection for participants and regular employees and 
they should be preserved. It is important to expand these standards to 
include assurances that employers who receive WIA subsidies abide by 
``responsible contractor'' principles.
    Employers who benefit from WIA resources should pay their workers 
fair wages and benefits. These employers must also obey all labor laws, 
provide training and job retention programs and remain neutral if their 
workers try to organize a union. Employers who violate labor, 
environmental, employment, health and safety or civil rights laws are 
not entitled to receive OJT, customized training or other public 
subsidies.
                             recommendation
    <bullet> Expand WIA labor standards to require that any employer 
who benefits from WIA resources, including employers who receive on-
the-job training and customized training subsidies, abide by 
responsible contractor policies.
            6. Improve Services to Dislocated Workers
    It is essential that the funding stream for dislocated workers be 
adequately funded. States must involve organized labor organizations in 
their rapid response programs and should support the creation of labor-
management mechanisms to help workers connect with federal and state 
resources. Layoff aversion strategies such as employee buyouts should 
be fully considered.
    The definition of dislocated workers should be broad enough to 
serve workers who may still be unemployed or underemployed some time 
after their dislocation. In addition, skills upgrade programs that will 
prepare dislocated workers for the new demands of their existing 
industries should be allowed, rather than a strict interpretation of 
the ``unlikely to return to their previous occupation or industry'' 
standard.
    Consideration should be given to formula changes that would better 
allocate funds to areas of high dislocation and to prevent dramatic 
swings in funding that jeopardize program continuity.
                             recommendation
    <bullet> Implement improvements to the dislocated worker program 
that will facilitate early intervention and layoff aversion, expand 
Rapid Response, engage labor and management and address the needs of 
those facing layoff as well as those experiencing layoff and provide 
increased funding and funding stability to the program.
            7. Link Performance Goals to Good Jobs
    WIA funds should not be used to subsidize training and placement in 
temporary, part-time work. WIA reauthorization must include a clear 
commitment to economic self-sufficiency.
                             recommendation
    <bullet> WIA performance standards should be expanded to include 
post-placement earnings gains, job retention as well as health care and 
pension benefits.
            8. Do Not Expand Waivers
    Current WIA waivers should not be expanded. In fact Congress should 
examine the effectiveness of the WIA waivers and work-flex authority 
granted by the department of Labor. Particularly the Congress should 
determine whether the WIA waivers and work-flex authority have 
increased training quality and improved performance.
    Additionally WIA funds should not be used to support capped 
individual accounts that incentivize workers into taking lower paying 
jobs and reduce the amount of support for quality training
                             recommendation
    <bullet> Current WIA waivers should not be expanded, nor should the 
Administration or Congress seek broad waiver authority for other 
federal programs.
    <bullet> Individual Training Accounts should not be an allowable 
activity for youth programs and WIA funds cannot be used for capped 
Personal Reemployment Accounts, Career Advancement Accounts or other 
individual accounts.
Conclusion
    As economic hardship and uncertainty plague millions of workers, it 
is particularly important that the Congress exert strong leadership to 
ensure that our nation's workforce system helps workers rebuild their 
lives, their families and their communities. Our nation's employment 
and training system has an important role to play in addressing the 
challenges of economic insecurity.
    However it is only part of the solution. Increasing the minimum 
wage, responding to the challenges of trade and immigration and 
reversing the decline of unionization are all important determinants of 
economic security.
    Just as working people and their unions fought for the good jobs we 
have today, unions will continue to seek a strong voice in the 
education, training and economic development systems in our states and 
in our communities.
    It is time for the Congress to take bold action to assure that 
every worker has a right to employment security and every worker has a 
right to be retrained for a new job and to be fully supported by a 
strong government safety net.
                                 ______
                                 

      Prepared Statement of the United States Conference of Mayors

    Chairman Miller and members of the Committee, The United States 
Conference of Mayors appreciates the opportunity to submit testimony on 
the Reauthorization of the Workforce Investment Act of 1998.
    The United States Conference of Mayors is the official nonpartisan 
organization of cities with populations of 30,000 or more. There are 
1,139 such cities in the country today. Each city is represented in the 
Conference by its chief elected official, the mayor.
    The enactment of legislation reauthorizing the Workforce Investment 
Act is of major importance to mayors at this critical time in our 
nation's economy. Global competitiveness, long-term economic security 
and the achievement of the American dream for all Americans depend 
primarily on a highly skilled, highly productive, and flexible 
workforce. The future prosperity of the United States and its cities 
will depend upon educating all Americans to higher and ever-changing 
standards. One way to achieve this is through a strong federally-
funded, locally-driven workforce system.
    Mayors believe that it is imperative that all low-wage and 
structurally employed workers have the chance to acquire these new 
highly-valued skills; receive needed supports while they are upgrading 
skills and changing careers; and have access to high quality help to 
find good jobs that lead to self-sufficiency and will enable them to 
support their families. Mayors also believe that we must find ways to 
bring business, workers, researchers, economic developers, 
entrepreneurs, K-16 and other education and training institutions, and 
government together at the local level to identify and develop their 
strengths and capacity for innovation.
    Mayors and other chief local elected officials understand first 
hand what needs to be done. The place where every U.S. citizen meets 
the government is at the local level. Leaders at the local level are 
held accountable by their residents. Mayors and local elected officials 
are first to know of an economic downturn or upturn because of the 
number of residents who tell them their concerns about or pride in 
having and keeping a job. The economic health of a community and its 
citizens--especially its workers--is the top priority for every mayor 
and other local elected official.
    In 1998, when Congress articulated its vision for the central 
operations of the workforce system it funds through the Workforce 
Investment Act, the legislation was crafted in close collaboration with 
practitioners and public interest groups. Since then, that vision has 
been implemented and built upon by mayors and chief elected officials, 
in partnership with the local workforce investment boards they appoint.
    Among the successes that have emerged from your investment over the 
last several years are a robust One-Stop system to directly connect 
local employers with the local employee base; a youth development 
system that assists directly in helping young people make the 
successful transition to the workforce; and innovations that have 
resulted in the leveraging of millions of dollars to align workforce 
development with economic development and education activities. From 
the every day needs of residents, to the relocation of tens of 
thousands of refugees in the weeks and months following the 2005 
hurricanes, the local workforce system has been there to help connect 
people to jobs using a broad range of tools and strategies.
    As you consider WIA reauthorization this year, the Conference of 
Mayors recommends the following to continue the evolution of the 
nation's core workforce development system, with a specific focus on 
governance and service delivery structures currently authorized in 
Title I of WIA. We have listed them in order of priority:
    Governance and Local Area Designation--The public workforce system 
is charged with achieving two distinct objectives--assisting people in 
finding employment and training them to upgrade their skills in order 
to find employment.
    An ideal workforce system is aligned to labor markets. Hiring 
transactions are both local and regional. To be effective, the 
workforce system must be positioned to work at those levels and led by 
those who have the greatest interest in its success.
    A local board led by business, appointed by the mayor and/or the 
chief elected official in the area, is in the best position to create a 
strategy and implement it based on the needs of the local/regional 
economy. Local workforce development systems and strategies must be 
shaped around the local/regional economies and must be responsive to 
the key needs of employers. Simply put, without healthy cities and 
local economies, regions cannot thrive. In the absence of thriving 
regions, the nation cannot compete.
    A reauthorization bill should ensure a continued strong, locally 
based business-led workforce investment system; ensure the appointment 
of local boards by mayors and other local elected officials; and 
protect the designation of high-performing workforce areas to best 
address the comprehensive education, workforce, economic and 
competitiveness needs of the country.
    Moreover, the bill should clarify the essential, pivotal role that 
local boards play as conveners of key stakeholders for development and 
alignment of local/regional workforce and economic strategies; and as 
brokers of training and related services, resulting in a highly skilled 
workforce.
    Youth--The Conference of Mayors is committed to promoting the well-
being and positive development of the nation's youth. Mayors know that 
early work experience provides educational and enrichment opportunities 
leading to academic improvement for millions of disadvantaged youth, 
and helps youth develop life skills and values that prepare them for 
the challenges of adolescence and the responsibilities of adulthood.
    By 2010, the largest segment of the nation's labor force will be 
teens and young adults as 41 million new workers enter the workforce to 
replace the 76 million retiring workers. Yet, the labor market for the 
nation's teens has deteriorated considerably over the past several 
years, and the overall teen employment rate in the past three years 
(2004-2006) was the lowest in the past 60 years.
    According to the Center for Labor Market Studies at Northeastern 
University, the 2007 summer jobs outlook for the nation's teens appears 
to be worse than last year despite an improving national job market for 
older adults. Also, according to the Center's research, last summer 
only 7.11 million teens worked on average during the months of June-
August; and the number of employed teens would have been 8.63 million, 
or 1.52 million higher, if the 2000 summer teen employment rate had 
prevailed and 9.5 million, or 2.4 million higher if the summer 1989 
employment rate had prevailed.
    In the past decades, there has been strong bi-partisan support for 
a summer jobs program for teens by the nation's mayors. Therefore, the 
Conference urges the Committee to restore its long term commitment to a 
strong summer jobs program, by continuing to include year round youth 
activities in WIA reauthorization and ensuring that a separate summer 
jobs program is part of WIA reauthorization.
    In addition, The Conference of Mayors continues to support the 
development of national programs that are designed to provide both in-
school and out-of-school youth, particularly youth in high poverty 
communities, with increased opportunities to achieve success in the 
workforce. The Conference strongly supports funding of these programs, 
such as YouthBuild, but not at the expense of the formula program.
    Training--While skill and labor shortages threaten economic growth 
in the long-term, the current economic condition masks the challenge 
before us. Even as the economy is demanding a more educated workforce, 
several extraordinary forces are at play that will require new tools to 
address. Baby boomers are retiring, and new workers do not have post-
secondary degrees at sufficient levels to replace even those who are 
retiring. And vast numbers of new potential workers are immigrating to 
America, but many lack the formal education necessary to support the 
demand for a more knowledge-based workforce.
    At the same time, America's workforce system must respond to both 
recently laid off workers who need new jobs and often retooled skills, 
and to businesses who need skilled workers.
    Adequate resources for training are necessary to meet employers' 
needs to attain and sustain economic strength. The WIA reauthorization 
bill should continue to authorize training for low wage workers for 
jobs that provide self-sufficiency; simplify training reporting 
requirements; provide for local input on certification of training 
providers; strongly encourage expanded access to training, and give 
credit for the leveraging of resources, other than WIA, for training.
    The Conference of Mayors strongly supports inclusion of language 
that encourages the leveraging of resources for training, and urges the 
Committee to identify further incentives and rewards for state and 
local workforce investment systems that are successful in the 
leveraging of additional resources, beyond those provided through the 
WIA system, for training and other WIA services.
    Finally, the Conference of Mayors recommends that the Committee 
consider relaxation of the sequence of services language in WIA, 
clarifying that intensive and training services may be provided as 
determined appropriate, without major interventions or delays. The 
Conference of Mayors strongly supports including provisions that 
provide authority to local workforce areas to provide training to low 
wage workers that leads to self-sufficiency, as defined locally. This 
authority is essential to allow for continued intensive and training 
services for the working poor for jobs that provide skill and wage 
progression.
    Expenditures and Administrative Cost Limits--Carryover was an 
intentional spending strategy built into WIA as a planned management 
tool to assure proper and consistent operation of the workforce system. 
Since the WIA system must respond to economic events such as 
unanticipated plant closings, mass layoffs, or disaster relief, some 
funds must be held in reserve to enable immediate response.
    The system also provides training for jobseekers that spans more 
than a single Program Year--at the point in time when carryover is 
determined (June 30 of each program year), many workers are midway 
through training, which appears as ``carryover'' even though those 
funds are already legally obligated.
    The Conference of Mayors supports a requirement to reflect that 
when determining the reallotment and reallocation of unspent funding in 
WIA reauthorization, such determinations would be based on 30 percent 
of unspent ``accrued expenditures'' or ``obligations'' as required in 
current law. In addition, the Conference of Mayors believes that the 
new spending requirements should not be imposed retroactively, but 
should take effect the first Program Year after the date of enactment 
of the reauthorization legislation.
    The Conference of Mayors also strongly urges the Committee to 
maintain the current function-based definition (from current DOL 
regulations for WIA) and maintain the 10 percent cap on administrative 
costs. This is very important to every local area, with broad 
implications for the workforce investment system. The Conference worked 
closely with DOL and the Inspector General's office at DOL in 
developing the current regulations shortly after passage of the 
original Act. The Conference believes that the definition of 
administrative costs must be included in statute, rather than defined 
through administrative or regulatory means.
    Business Services, Alignment with Economic Development, 
Encouragement for Innovation--A strong workforce system interfaces 
effectively with its critical partners--including economic development 
and educational entities, employers and business groups, employee 
groups, and community and faith-based organizations. This means it must 
be organized within a construct similar to those entities, and be 
poised to work closely with them in order to leverage resources 
effectively.
    Mayors would like to see a bill that encourages innovation and 
development of knowledge-based economies through alignment of workforce 
development, economic development, adult and postsecondary education; 
implementation of innovative services and strategies for meeting the 
needs of business; and encouragement for the leveraging and flexible 
use of private sector resources for meeting these goals.
    One-Stop Infrastructure Funding--Securing an adequately funded One-
Stop infrastructure is of paramount importance to maximizing the 
availability of adequate training and other important services to 
American workers. The Conference of Mayors supports consideration of a 
separate line item for such funding, with language protecting the Adult 
and Dislocated Worker funding levels, ensuring that infrastructure is 
not funded at the expense of formula funds.
    Performance Standards--Workforce development efforts must 
demonstrate accountability for results--for objective outcomes that can 
be tracked, measured and evaluated. To truly be accountable for 
results, workforce development system efforts must develop appropriate 
measures for the outcomes we seek. Then, we must develop a data 
tracking and reporting system that allows transparency--regardless of 
whether the news is good or bad--with respect to the meeting of those 
outcomes.
    The Conference of Mayors supports the simplification of performance 
standards under WIA, and the development of cross-program performance 
measures that will help to build a comprehensive, outcome-oriented 
workforce investment system across this nation.
    The Conference of Mayors is concerned over the use of 
``efficiency'' as a measure or reporting requirement, as this could 
inadvertently result in serving only those who are most job-ready, and 
to a decrease in more costly services, including training, for 
individuals with the most serious barriers to employment.
    The Conference supports the retention of customer satisfaction as a 
required measure. Such measures are needed to ensure that the workforce 
system serves both of its primary customers well--jobseekers and 
businesses.
    The Conference urges retention of skills attainment (i.e., 
employer-recognized credentials) as a measure to drive the system 
toward the provision of training identified as necessary by employers, 
and supports requiring that a regression model be used by States and 
localities to develop performance standards. This correlates the 
disparities of very low-income individuals being served with the cost 
of being served.
    Finally, The Conference of Mayors supports the strengthening of 
language pertaining to the negotiation between states and local areas 
on the establishment of local performance standards, to ensure that 
this is truly a negotiation process in which local conditions are fully 
taken into account.
    In closing, The U.S. Conference of Mayors thanks the Committee for 
the opportunity to represent the interests of mayors and their cities 
on the importance of training our future workforce. In a dynamic world, 
America's competitiveness depends on a world-class workforce with the 
knowledge, skills and abilities necessary to be nimble in an ever-
changing economy. The nation's mayors understand that, as leaders of 
urban centers at the heart of the nation's 361 metropolitan areas, they 
have a critical and unique responsibility to insure the future 
workforce is ready, willing and able to support our global leadership 
in the 21st century.
                                 ______
                                 
    Mr. Yarmuth. Mr. Bishop?
    Mr. Bishop. Thank you very much, Mr. Chairman.
    Mr. Ware, in your testimony, you suggest that WIA should 
drop the distinction between out-of-school youth and in-school 
youth in terms of funding, and you talk about how clearly high 
schools must be reformed.
    One of the things that we are concerned about both in this 
committee and in the larger Education Committee is the 
alarmingly high dropout rate in certain of our schools.
    And so my question is to what extent can WIA funds either 
currently--are they currently being used or could they be used 
to assist in this high school reform effort?
    We have had testimony before this committee really that 
sort of the retention strategies that one would use in high 
school are very similar to the retention strategies one would 
use in higher education.
    And at the risk of over-generalizing, the extent to which 
students can see their efforts being related to their goals 
contributes to retention.
    So to what extent can WIA funds be used to assist in this 
process?
    Mr. Ware. Mr. Chairman, Representative Bishop, I will make 
two comments, one that is coming off the NGA testimony, and one 
more personal as I deal with the issues in my state as chairman 
of the state workforce investment board.
    The way that it has been set up now, to my understanding, 
again, it is more siloed between where the monies can go. As we 
look at a 30 percent, you know, dropout rate in high school 
here in these recent years, that becomes blurred as to who is 
in school and who is not in school.
    The short answer is to have the flexibility for the 
governors and the different workforce boards to be able to move 
those monies to benefit those people.
    My second point is more of a personal point, and that is we 
only act from our heart. We don't act from our head. And our 
youth, in a 30 percent dropout rate, is voting with their feet 
that the school system as it is right now isn't meeting their 
needs.
    And that needs to be looked at. And I know in particular 
Chairman Hinojosa is very strong on high school reform. Boy, if 
I had that answer, you know, I would be a millionaire to that.
    Mr. Bishop. Can you or anyone on the panel foresee 
partnerships--Mr. Carbone--foresee partnerships that are 
supported in part by WIA funding and support by local school 
boards and in part by perhaps Perkins vocational and technical 
education funds, so that you are all--because you used the term 
that I was thinking of, this sort of siloed use of resources 
and siloed assessment of problems.
    Is there some synergy here that we could realize that could 
be facilitated by how we do the reauthorization?
    Mr. Carbone. I think there is, and I think the issue here 
is that the dollars for youth that are appropriated from states 
to workforce investment boards--you almost have to dedicate it 
to out-of-school kids.
    I mean, at the very least, at least kids that might be 
potential dropouts have their local school boards to kind of 
watch over them and try to help them to kind of avoid making 
that big, big mistake.
    But even more important is, I think the local workforce 
boards have to help these kids who are at this potential for 
dropping out understand the cost of dropping out. We are doing 
it in several parts of my district.
    We have got one school district in Bridgeport that has one 
of the highest school dropout rates in the nation.
    And one of the things we are doing is to try to help these 
kids to understand there is a huge gap between kids who 
complete high school and kids who don't, in terms of earnings 
right out of high school, when they drop out or throughout a 
lifetime, the rate of unemployment--trying to help them 
understand how they are depriving themselves of opportunity if 
they make this mess and drop out of school.
    But again, I think it is a community problem. I think the 
school districts and all the agencies of the community schools 
and so on need to work together and use all resources.
    And I think there is no group that is more important in 
terms of getting resources than these kinds who have dropped 
out of school, or these kids--and the school districts know who 
they are--who are clearly potentials for dropping out of 
school.
    Mr. Bishop. Thank you, Mr. Chairman.
    And thank the panel.
    Ms. Butler, did you want to comment on that?
    Ms. Butler. I did. We have had several comments about the 
One-Stops in terms of a full service approach. And I think it 
is important to point out the difference, I think, the paradigm 
of the WIA One-Stop versus--and quite frankly, the 
accessibility issue has to be put out there.
    I mean, it has been my experience that the One-Stops are 
not accessible. And you know, perhaps in some places they are, 
but in areas that--the alternative formats and the information 
around the training programs that we have talked about today--
those kinds of issues are not available.
    And so what happens is these individuals are coming in with 
disabilities and being referred to the vocational 
rehabilitation programs who then are serving these individuals.
    So I think there is a real struggle here in terms of the 
infrastructure funding that goes from the V.R. program into 
these One-Stops when, in fact, that money could be sent back to 
the V.R. program where, again, that consumer is going to get 
the services that they need.
    So I would encourage the committee to look at the 
accessibility issues at the One-Stops.
    Mr. Bishop. Thanks, Mr. Chairman.
    Mr. Yarmuth. Thank you, Mr. Bishop.
    Mr. Davis?
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    And, Mr. Ware, I was just thinking that if I could ever be 
in an environment where the unemployment rate was 2.8 percent 
that it would be like manna from heaven.
    But my questions--Mr. Twomey, you mentioned labor markets' 
needs and how do we communicate those more effectively. What 
are you finding to be the areas, for example, where there are 
real opportunities for the types of individuals in many 
instances that we are talking about who need the assistance of 
a work board?
    Mr. Twomey. Well, I returned last week. I was out of the 
country in Argentina on vacation for 2 weeks. I came back.
    I was a little jet lagged, but I went to speak to a school 
superintendent and about 20 people, his senior team, and this 
particular school district is in upstate New York.
    And they are really--they read ``The World is Flat'' and 
got religion on it and got to the point where within 6 months 
they had a community meeting attended by 550 people to say, 
``What do we do to prepare our kids for this global economy?''
    And one of the first things they did is this coming 
September they will now begin offering Mandarin Chinese as an 
elective in the school.
    But he asked me to go and talk about what is changing in 
the labor market, because what we normally do in school right 
now is--the guidance counselors are overworked. They have big 
caseloads.
    They spend all their time trying to get colleges to come 
in, get kids to apply--gets to be January, get the kids' 
parents to file their tax returns so they can fill out the 
financial aid form.
    We don't do labor market information there. We have to find 
a vehicle to do that. The types of jobs that are unfilled--the 
president of the Central Labor Council in Saratoga Springs, New 
York, told me he gets calls every day from at least nine 
companies desperate for people that can understand computerized 
heating ventilation air conditioning control systems. They are 
computerized solid-state electronics.
    The guy said, ``It is not duct work. These are $90,000-a-
year jobs. We can't fill them.'' So we have this mismatch.
    And I think that one of the really good things that 
happened under WIA is that we have had very much success in 
concentrating limited training money on sectoral growth areas, 
high wage and building and career ladders to move people up, 
get them more skills and help them move forward.
    Mr. Davis of Illinois. So technology is a primary area 
where there are opportunities?
    Mr. Twomey. It is a primary area. It would be more 
effective if two things happened--one, if there were a 
regression model so you could take more risk.
    Mr. Souder talked about ex-offenders reentry program. 
Obviously, if somebody is coming out of substance abuse or is 
being released from the prison system, they are probably not 
going to succeed at the same rate as someone without those 
barriers.
    We should adjust so people would be able to take more risk, 
serve that population.
    The second is just----
    Mr. Davis of Illinois. Let me--because my time is going to 
run, and I have got some other questions that I want to pursue.
    Ms. Randolph, you mentioned as you were addressing 
Representative Souder's question the difficulty of placing 
individuals or assisting individuals who might have criminal 
backgrounds.
    What do you find to be the primary reason that employers 
give for not being willing to hire these individuals?
    Ms. Randolph. Well, I believe that one of the largest 
reasons is a security issue in terms of--particularly if it is 
a service industry, life sciences. There is always a concern 
there.
    But what I find more interesting is employers who tell us 
that the recidivism rate for offenders is about 70 percent, and 
that they feel as though if they hire this individual, the 
individual is going to drop off the radar screen and----
    Mr. Davis of Illinois. Of course, our experiences suggest 
that if the individual has a job, then the recidivism rate----
    Ms. Randolph. It reduces the recidivism----
    Mr. Davis of Illinois [continuing]. Goes way down.
    Ms. Randolph. Right.
    Mr. Davis of Illinois. Yes.
    Ms. Randolph. It does, but it is not in their minds. They 
are risk-averse.
    Mr. Davis of Illinois. And this might be for anyone. Are 
there things that we can really do that will seriously assist 
this population group? I mean, what needs to change in a real 
way?
    Mr. Petit. In the last 3 years I have worked for a company 
called Piner Human Services on a part-time basis, and we work 
with people releasing back from the prison system into the 
society.
    One of the things that we have discovered is that, yes, the 
recidivism rate is quite high--70 percent is probably correct. 
With education, the recidivism rate reverses.
    I think that one of the problems when people are released 
from prisons is that they go back to their same old friends, 
their same old neighborhoods and so on, and the associations 
cause them to just go back into some of the same old habits.
    When you go to school, you change associations. You change 
habits. And you are associated with more positive people. This 
is an important thing. And the recidivism rate is quite 
dramatically impacted by that.
    The other thing I would like to just touch on is the 
comment about labor market and economic analysis. In Washington 
state, the Wagner-Peyser system supports labor market and 
economic analysis to the degree that we are--very high-quality 
information comes out of our system that helps all levels, from 
high school and all others, to make decisions that make sense.
    So I really support the idea of strong labor market and 
economic analysis.
    Mr. Davis of Illinois. Mr. Chairman, I know that my time 
has ended.
    But let me just ask, if I could, is there anything that can 
be done or included in this reauthorization that might 
positively impact this situation that we are talking about?
    Because the reality is that we are not really talking about 
10 people or 20 people. Some states, of course, don't have much 
of a problem. But we probably are talking about 5 million or 6 
million people in this country who have that problem and that 
need.
    And in some communities, especially the large inner-city 
areas of the country, it is enormous. So is there anything that 
any of you see?
    Mr. Ware. Mr. Chairman, Mr. Davis, I actually recruited at 
a maximum security prison for these energy jobs, and we get a 
few people to come through. And I agree with the numbers that 
you have.
    My short answer is maybe in this WIA reauthorization we 
need to have some money set aside for a pilot program on a 
state or national basis, because those numbers are large and 
there really, in my opinion, are no clear answers as to how to 
get those people really back to work.
    Mr. Davis of Illinois. Thank you very much.
    And, Mr. Chairman, thank you for your indulgence.
    Mr. Yarmuth. Thank you, Mr. Davis.
    Before I recognize myself, I would like to ask unanimous 
consent that the statement of the National Center on Education 
and the Economy be included in the record.
    Without objection, so ordered.
    [The information follows:]

   Prepared Statement of Ray Uhalde, Director, Workforce Development 
     Strategies Group, National Center on Education and the Economy

Introduction
    Mr. Chairman, Members of the Subcommittee, I am pleased to submit 
testimony to the Subcommittee on Higher Education, Lifelong Learning, 
and Competitiveness in support of reauthorization of the Workforce 
Investment Act (WIA). I am Ray Uhalde, Director of the Workforce 
Development Strategies Group at the National Center on Education and 
the Economy (NCEE). Our organization conducts research, benchmarks best 
practice, and provides advice and technical assistance to policymakers, 
states, localities, and other stakeholders on building comprehensive 
workforce development systems that meet the needs of America's workers, 
jobseekers, and employers. In recent years our work has increasingly 
focused on helping states and regions to align their workforce, 
education, economic and community development activities and assets to 
promote high growth, high wage, and high employment economies that 
benefit all their citizenry.
    Two years ago, NCEE formed a bipartisan New Commission on the 
Skills of the American Workforce. Tough Choices or Tough Times, the 
recent report of the New Commission, proposes a framework for a major 
reorganization of the states' education and training systems for 
children and adults. NCEE's Workforce Development Strategies Group 
provided core staff support for the New Commission and developed the 
adult workforce recommendations, including guaranteed adult education 
to new standards, universal personal learning accounts, and regional 
economic growth authorities responsible for the alignment of workforce 
and economic development, adult and technical education activities to 
support unified regional growth strategies. The New Commission believes 
that reforms of this scope and magnitude ultimately will be necessary 
if the standard of living for most Americans is to be maintained in a 
rapidly changing and very competitive global economy.
    But the urgent and immediate priority before this Committee is, in 
my opinion, to enact a modest reauthorization of the Workforce 
Investment Act this year. Reauthorization of WIA would demonstrate a 
bipartisan reaffirmation by the Congress and the President of the vital 
importance of the public workforce system for U.S. economic growth and 
opportunity. Without reauthorization, the WIA system is needlessly 
weakened and its funding will continue to decline, as is evidenced by 
the nearly $700 million reduction in WIA's appropriations over the past 
five years, and the $335 million rescission of WIA funds that was 
included in the House Labor-HHS-Education FY 2008 Appropriations bill 
passed last week. If last week's rescission were to be enacted, the WIA 
system would experience real reductions in service to low-income youth 
and adults, dislocated and incumbent workers. Funding that could have 
been used to pay for the training of over 130,000 youth and adults 
would be lost to the system forever. This at a time when the skills of 
the American workforce have never been more important to both 
individual and U.S. economic prosperity.
    Both the House and Senate-passed reauthorization bills that were 
passed last Congress redefined expectations for WIA system 
expenditures--the concern cited as justification for the rescission 
contained in this year's House appropriations bill. Reauthorization 
legislation would address this issue fairly by shifting any 
(statutorily defined) excess unexpended resources to states with 
acceptable spending levels. Moreover, reauthorization would reinstate 
Congressional confidence in and support for the programs authorized 
under WIA that are so vital to U.S. competitiveness, economic equity, 
and to sustaining and growing the middle class.
    The balance of my testimony offers a brief review of the progress 
we have seen in state and local workforce systems across the country in 
carrying out the Congress' intent for the major reforms established in 
the Workforce Investment Act. My testimony concludes with a few 
recommendations for improvements to the WIA statute as a result of our 
ongoing field work and proposals from our Tough Choices report.
WIA: the Intent, the Progress, and the Challenges
    This Committee is well aware that in 1998, when the Workforce 
Investment Act was developed, the new law was intended to enhance the 
productivity and competitiveness of the nation and the quality of its 
workforce in response to challenges brought on by demographic and 
technological changes, international trade, and economic 
restructuring--many of the challenges confronting us today. The Act 
represented the first major reform of the nation's job training system 
in over 15 years. With its enactment, states and local communities were 
challenged to think expansively and to design and implement a customer-
focused, comprehensive delivery system that provides workers with 
services and training to get and keep good jobs--and employers with 
skilled workers. The intent was to fundamentally change the way 
workforce development services were provided across the U.S. through:
    <bullet> Streamlining services. Multiple employment and training 
programs and services integrated at the ``street level'' through the 
One Stop career center delivery system so that the system as a whole is 
coherent and accessible for individuals and businesses alike;
    <bullet> Empowering individuals. Development of a voucher-like 
mechanism (Individual Training Accounts (ITAs)) for accessing training, 
providing adults with choice in the selection of training based on up-
to-date labor market information and data on performance of education 
and training institutions;
    <bullet> Universal access. Any individual who wants to advance his 
or her career have access to the One Stop system and to core 
employment-related information and job search services. Wagner-Peyser 
Act services delivered as core services within the One Stop system;
    <bullet> Increased accountability. A strengthened performance 
measurement system, requiring continuous improvement and holding State 
and local workforce systems accountable for employment-related 
measures, including customer satisfaction;
    <bullet> Strong role for local boards and the private sector. High 
level, business-led state and local workforce investment boards (WIBs), 
acting as ``boards of directors'', responsible (in partnership with 
state and local officials, respectively) for strategic planning, policy 
development, and oversight of workforce investment systems. 
Establishment of a market-driven system, meeting the business and 
economic development needs of states and local workforce areas--
recognizing two equally important customers--jobseekers and employers;
    <bullet> State and local flexibility. Increased State and local 
flexibility and authority to design and implement comprehensive 
workforce investment systems tailored to meet the needs of local and 
regional labor markets; and
    <bullet> Improved youth programs. Linked more closely to local 
labor market needs and community youth programs and services, and with 
strong connections between academic and occupational learning.
    These key reform principles guided the implementation of the Act 
and have generally stood the test of time. As one would expect with a 
system of ownership devolved to 50 states and over 600 local areas, 
there is a considerable range in the quality of programs and degree of 
reform initiated across a country as large and diverse as the United 
States. Some states and localities have been slow to fully embrace the 
opportunities for reform envisioned in WIA; their progress has been 
retarded by real and sometimes self-inflicted obstacles such as 
inadequate funding, conflicting statutory requirements, turf battles, 
cultural blinders, and in some cases old-line bureaucracies that are 
reluctant to change how they do business. In many cases, these programs 
are simply ``managing the grant''; often quite competently, but with 
limited vision and ability to help power economic growth and 
opportunity for vulnerable workers in their communities. However, this 
is only part of the story. Many states and local areas have seized the 
reins and made tremendous strides; and there are numerous exemplary 
programs throughout the country providing high quality services to 
jobseekers and employers by using WIA as a platform for successfully 
linking workforce development, economic development and postsecondary 
education. Progress on some of these key reform principles is discussed 
below.
    One-Stop System. The WIA system, in partnership with State Job 
Service agencies, currently provides a wide range of vital services to 
over 15 million U.S. jobseekers and employers through its One-Stop 
delivery system including:
    <bullet> Labor market information, job search assistance, guidance 
and counseling to help jobseekers find the right jobs, and employers 
find the right employees;
    <bullet> Transition assistance to dislocated workers;
    <bullet> Support services for individuals pursuing employment and 
training;
    <bullet> Assistance for low-wage workers in search of career growth 
opportunities in jobs that lead to self-sufficiency; and
    <bullet> Access to training for individuals in need of skills that 
will enable them to find employment and progress in their careers.
    Frankly Mr. Chairman, One Stop Career Centers are the most visible 
evidence of reform the workforce investment system has achieved, and 
the transformation from the old ``unemployment offices'' to customer-
centric, high-tech, high-class career centers is, in most places around 
the country, stunning. My colleagues and I have visited hundreds of One 
Stop centers over the years. The quality of service in centers in 
Baltimore, Boston, Canton, Charleston, Dallas, Houston, Kansas City, 
Lansing, Salt Lake City, and San Diego, for example, would rival any 
private sector customer service operation. Workforce investment boards 
often adopt creative strategies to give both job seekers and business 
customers special, market-sensitive attention. The Northern Virginia 
WIB (and its partners), for example, established a Center for Business 
Planning and Development as an integral part of its Falls Church career 
center to support emerging entrepreneurs and existing small businesses 
in the region. New York City's Business Solutions Centers are another 
example of the business side of One Stop centers. The Philadelphia WIB 
established a special purpose One Stop focused on the health care 
workforce as a component of its broader life sciences sector 
initiative.
    In these and many other communities and states, top level 
leadership took advantage of the Workforce Investment Act to streamline 
the delivery of workforce services. WIA took what was previously a 
targeted collection of programs (focused primarily on economically 
disadvantaged individuals and dislocated workers) and established an 
employment and training system for all jobseekers and employers. WIA 
removed some restrictive eligibility requirements, making all 
individuals regardless of income or employment status eligible for 
``core'' or front-end services through the One-Stop delivery system. By 
loosening the eligibility requirements of the past, Congress intended 
that the WIA system become more relevant for high skill/high wage 
employers, as well as more easily aligned with business needs and 
economic development efforts. These changes have provided significant 
flexibility for the workforce investment system, helping it to 
implement innovative strategies for meeting the needs of employers and 
working with economic development stakeholders. Employers are now 
recognized as important customers of the system, and in many states and 
localities their skill demands drive the delivery system. This, in 
turn, should result in better employment and earnings outcomes for job 
seekers and trainees.
    However, serious concerns have emerged in some areas. This 
expansion of responsibilities coupled with reduced funding for Wagner-
Peyser employment services and WIA's supplementation of core services 
like counseling and career guidance has resulted in a reduction in WIA-
funded training--and in some areas a reduction in services for low-
skilled individuals with multiple barriers to employment. There is no 
question that with such an expanded array of services, particularly 
when resources are diminishing, all system partners--state and local, 
public and private--must work together, providing seamless services.
    Training. With 15 million individuals served annually through the 
One-Stop system, there is no question of the need for such an expanded 
system. However, when Congress made the decision to expand the 
responsibilities of the workforce system, it envisioned commensurate 
increases in funding. Unfortunately, that has not happened. As 
mentioned above, there has been a steady decline in WIA funding over 
the past five years, and the era of tight budgets is expected to 
continue in the foreseeable future.
    Even with the decline in funding and the apparent decline of WIA 
spending on training, the U.S. General Accounting Office (GAO) found in 
a recent study, that the WIA system spent over 40 percent of its 
funding in FY 2003 on training, and this estimate did not take into 
account funds used to pay for computer lab workshops in software 
applications, basic keyboarding, computer skills training, and even 
certain adult basic education classes offered through the One Stop 
system. Nor did it appear to take into account training arranged by the 
One Stop system but not paid for with WIA funds, which is belived to be 
significant.
    While many localities still devote a significant portion of their 
WIA dollars to training, and many have sought to replace dwindling 
resources for training with non-WIA funding, there is no question that 
the WIA system's training services are seriously underfunded. When 
combined with the fact that the adult education system in this country 
is only serving 3 million of the over 40 million individuals in need of 
adult basic education, literacy, and English language education in the 
U.S., again due to a serious lack of funding, it becomes even more 
apparent that the workforce investment system must become expert at 
raising and leveraging resources, public and private.
    Moreover, communities must become even more adept at bringing 
partners together to identify the strengths, challenges, resources and 
needs of their regions, enabling the collaborative building of 
regional, knowledge-based innovation economies.
Ensuring Regional Competitiveness through Local Innovation, Business 
        Relevance, and Alignment of Workforce and Economic Development.
    The Council on Competitiveness, a forum of American business, 
university, and labor leaders collaborating for economic prosperity, 
identified innovation as the single most important factor in 
determining America's success through the 21st Century. The Council 
urged the coming together of talent, investment, and infrastructure to 
foster new innovation ``hot spots'' in regions across the U.S. than can 
sustain jobs and wage growth. The U.S. Department of Labor has built on 
the Council's work with its ambitious and promising WIRED initiative.
    This call for innovation, creativity, and the alignment of 
education, training, and economic development to power regional 
economic strategies was an integral part of the Tough Choices or Tough 
Times report and recommendations mentioned above. Why would an 
essentially education report make recommendations on regional growth 
strategies? For three reasons. First, we know that education and job 
training do not create their own demand. While high skills through 
higher quality education and training are clearly a necessary part of a 
national strategy, they are not sufficient for America to maintain a 
high and growing standard of living for all its citizenry. Just as 
scissors are most effective with two blades, we need education and 
training policies and practices on the supply side of the labor market 
that are driven by growth policies and practices on the demand side 
that encourage and reward more and better use of educated and skilled 
labor. Second, while they are essential, we have also learned that 
business-led workforce boards alone are an insufficient mechanism for 
affecting a market-driven approach to workforce development. Approaches 
like sectoral initiatives and industry partnerships are a more demand-
driven, market-sensitive method of carrying out the business of 
workforce development. And third, we have learned that regional 
strategies are critical to overall economic growth and prosperity, in 
part because industry agglomerations do not respect political 
geography. Regions are where supply chains, complementary industries, 
networks of investors, university-based and other research efforts, and 
skilled workers join forces to achieve the critical mass necessary to 
stimulate economic activity and innovation. So while global supply 
chains and international competition present a national challenge, it 
is at the regional level where an important part of future U.S. 
competitive success will be determined.
    A growing number of local workforce investment boards are already 
working to bring these key ingredients for innovation together at the 
local and regional levels. The best WIBs are leading efforts in their 
communities, convening partners, brokering services, leveraging 
resources, identifying and following through on necessary actions to 
develop their regional knowledge-based, economies. Often overlooked, 
this brokering and convening function is a critical element for any 
regional economic growth strategy. However, this level of leadership 
does not yet exist in all areas of the country.
    The statute also required that all states and local areas receiving 
WIA funds engage in strategic planning, taking into account the labor 
market and economic development needs of their regions. And a number of 
provisions are intended to result in alignment with economic 
development including:
    <bullet> Economic development representation on all state and local 
WIBs;
    <bullet> A requirement that local boards coordinate workforce 
investment activities with economic development strategies and develop 
employer linkages;
    <bullet> A requirement that local boards provide ``connecting, 
brokering, and coaching'' to promote participation of employers in the 
workforce system and ensure the effective provision of services for 
employers;
    <bullet> Clarification that states may use WIA funds to devise and 
oversee strategies for: layoff aversion, incumbent worker training, and 
linkages with economic development activities at the Federal, State, 
and local levels, including business retention and recruitment 
activities.
    Since WIA's enacment, the workforce system has continued to improve 
its services for businesses. In a survey of local WIBs conducted by the 
National Association of Workforce Boards in recent years, of those 
local areas responding, more than 80 percent reported engaging in 
sectoral strategies to meet the needs of employers; 48 percent have 
organized separate business service centers; and more than 55 percent 
reported raising outside funds to support their business service 
offerings. While caution should be exercised when viewing the survey, 
as those reporting back may be more likely to engage in these more 
progressive activities, the U.S. General Accounting Office also found 
significant improvements in recognition and utilization of the 
workforce system on the part of employers.
    Local workforce boards are increasingly building their systems 
around innovative initiatives designed for the regional delivery of 
training, and for linking with economic development and education. The 
important role of local boards in leading these efforts should be 
appropriately recognized in any reauthorization.
    Some of the workforce strategies showing great promise in recent 
years include:
    <bullet> Sectoral initiatives that focus in depth on the workforce 
needs of many employers in a specific industry;
    <bullet> Cluster-based approaches that promote the economic 
development of hubs of related business activity by improving the 
competitiveness of one or several specific industry sectors within the 
cluster through a broad range of activities, of which workforce 
training may be only one component;
    <bullet> Career ladder approaches to training that provide upward 
mobility opportunities for low-skilled, low-wage workers;
    <bullet> Utilization of specialized intermediaries (labor market 
organizers and partnerships, including joint labor-management training 
programs, that help workforce systems to plan, convene, broker, and 
organize the various critical components of labor market services in 
ways that successfully connect the needs of jobseekers and employers);
    <bullet> Implementation of incumbent worker training to avert 
layoffs, increase productivity, and increase regional competitiveness; 
and
    <bullet> Other strategies that result in the leveraging of 
resources, and the building of regional economies that benefit a wide 
range of workers and employers, as well as strengthen regional tax 
bases.
    The U.S. workforce investment system must learn and build upon the 
promising practices established in these and other successful 
initiatives, as well as look for new ways to contribute to the 
competitiveness of the workers and employers in the regions they serve. 
Several private philanthropies have been instrumental in seeding and 
promoting several of these innovations in workforce policy and 
practice.
    Some excellent examples of local areas that have taken an 
aggressive approach to serving the needs of business, in addition to 
those you are hearing from today, include:
    <bullet> The Delaware Valley Healthcare Council in Pennsylvania, 
where the Philadelphia Workforce Investment Board (PWIB) and Southeast 
Pennsylvania's four other WIBs convened representatives of the region's 
life sciences industry to identify opportunities to redirect workers 
who were anticipated to be dislocated as a result of September 11 into 
life science careers;
    <bullet> The city of Boston that has uniquely parlayed its strong 
economic resurgence--directing fees charged to developers building 
within city limits into a new funding stream in support of workforce 
development and job training.
    <bullet> The San Diego Workforce Partnership which joined in 
collaboration with the San Diego and Imperial Counties Community 
Colleges Association to establish the Workforce Alliance Project--
designed to foster a stronger dialogue between industry and education 
and to focus on the ongoing challenge of educating and training San 
Diegans to fill the high-demand, high-wage occupations that are shaping 
their region's diverse economy;
    <bullet> Jacksonville, Florida, who you heard from at your prior 
hearing, where their WIB worked with the regional economic development 
authority to develop an incumbent worker training strategy that aligned 
their targeted industries (including biotechnology, aerospace, 
manufacturing, health services, and distribution) to provide just-in-
time, customized training that improved worker skills and productivity 
and helped to stabilize the workforce. WorkSource paid on average 35 
percent and the employer paid the other 65 percent of the costs for 
training;
    <bullet> The North Central, Northwest, and West Central 
Pennsylvania Workforce Investment Boards that joined with the Northwest 
Industrial Resource Center that joined with their regional economic 
development and manufacturing extension programs to form the 
Manufacturing Education and Economic Network (MEEN) Industry 
Partnership, designed to expand manufacturing in that rural region of 
PA; and
    <bullet> McAllen, Texas, where the McAllen Economic Development 
Corporation (MEDC), working with the local community college, the Lower 
Rio Grande workforce investment board, and other partners have engaged 
in a multi-year economic strategy to transform the Lower Rio Grande 
region to a diversified economy that capitalizes on its geographic 
position and its designation as a foreign trade zone to create jobs--
where overall, the strategy has been responsible for helping to attract 
more than 500 employers and nearly 100,000 jobs to the region, along 
with billions of dollars in private investment, and where companies 
recruited to Reynosa are estimated to have a $3 billion annual 
aggregate impact on the McAllen economy.
    With such an expanded array of responsibilities and missions, at 
the same time as federal resources are dwindling, there is no question 
that the U.S. workforce investment system has been challenged. Many 
insightful states and localities have thrived as the result of the 
expanded authority vested under the WIA statute. Others have struggled 
to change the culture of their programs--still figuring out how to 
serve jobseekers (including those hardest-to-serve) and employers 
equally and effectively. It has become increasingly apparent that 
partnering and leveraging other resources for training and workforce 
services will be essential in the future if the workforce investment 
system is to survive and provide the kinds of services and outcomes 
needed for U.S., state and regional competitiveness.
    State Coordination, Regional Alignment, and Leadership. There has 
been a lot of debate and controversy over the respective roles of 
states and local workforce systems as reauthorization of WIA has been 
considered. In truth, there are very important roles for both states 
and local areas/regions in the implementation of effective workforce 
development systems.
    At the state and local levels, system integration, coordination, 
regional alignment, and innovation varies. Some states such as Texas, 
Florida, Michigan, Utah and others have enacted state laws that mandate 
the integration or provision of a wide array of workforce services 
through the One-Stop system, beyond that required by WIA. State 
leadership in the area of system integration and functional alignment 
of multiple programs has resulted in comprehensive service delivery 
through the One-Stops in several states; increased resource sharing; 
the leveraging of limited resources; the elimination of wasteful 
duplication; and cohesive governance arrangements. Such integrated 
service delivery also appears to encourage employer utilization of the 
system due to reduced bureaucracy and more flexible funding.
    Increasingly, states and local areas are recognizing the need to 
align workforce development with regional economic development efforts. 
The WIA statute encourages regional planning and service delivery by 
providing Governors the authority to require local areas to join 
together around true labor market or economic development regions, 
regardless of local area designations, in planning and service delivery 
efforts. The law even authorizes states to require shared regional 
performance measures. The degree to which this authority has been used 
however varies. While few states are requiring such regional 
cooperation, an increasing number are using an incentive approach to 
encourage regional collaboration.
    States currently have at their disposal a significant portion of 
WIA funding with which to encourage innovation, system integration, 
regional alignment, and other positive behaviors. The degree to which 
states have taken advantage of this very attractive ``carrot'' approach 
to moving the system forward again varies significantly. States like 
Illinois, Michigan, Oklahoma and Pennsylvania are using their state-
held monies to foster alignment with economic development priorities; 
invest in regional initiatives designed around sector strategies; and 
encourage innovative approaches to serving their hardest to serve 
populations.
    State examples of innovative uses of its state-held resources 
include:
    <bullet> Oregon, where the Governor established the Employer 
Workforce Training Fund (EWTF) supporting regional projects at over 100 
companies that have resulted in training for more than 5,500 workers, 
and the establishment of local Workforce Response Teams (WRTs), 
proactive resource teams that provide a single point of contact, set 
regional priorities for the use of funding, and control and award 
grants to businesses;
    <bullet> Michigan, where the state has used its state-held money, 
matched with philanthropic and private sector funds, to encourage the 
development of Michigan's Regional Skills Alliances (MiRSAs), bringing 
regional, industry-based partnerships among employers, education 
institutions, training providers, economic development organizations, 
and the public workforce system together to plan for and solve their 
regions' workforce challenges in innovative ways;
    <bullet> Illinois, where the state has used state-held monies to 
implement its Critical Skills Shortage Initiative (CSSI), an aggressive 
strategy to connect economic development and workforce development to 
meet the needs of Illinois' employers for skilled workers on a regional 
basis;
    <bullet> Pennsylvania, where the Governor has provided funds, 
ranging from $5000 to $150,000 to strengthen existing partnerships and 
seed fund development of new partnerships in the Commonwealth's nine 
targeted Industry Clusters; and
    <bullet> New York, where the State leveraged its workforce and 
education systems with technology investments to create several career 
ladder initiatives in key industry sectors including biotechnology and 
nanotechnology.
    Overall, the U.S. workforce investment system continues to meet its 
statutory performance goals of raising the employment, retention, 
earnings and skill levels of its participants, but its reach and impact 
on individuals, businesses and communities has been limited most 
importantly by a severe and growing shortfall of federal resources 
compared to the Act's ambitious mission and purposes.
Recommendations for Reauthorization
    As you consider reauthorization of WIA this year, we urge you to 
begin by looking at both the House-passed and the Senate-passed bills 
from last year. Had a bipartisan conference agreement been reached on 
the two bills, and had that agreement been enacted, we believe that the 
workforce investment system would be in a far stronger position at this 
juncture.
    Following are a few suggestions that we urge you to consider as you 
develop a WIA reauthorization bill for this Congress.
            Aligning Workforce and Economic Development.
    Local Boards. Reauthorization should maintain the authority of 
business-led local workforce investment boards, clarifying their 
responsibility and allowable use of funds for:
    <bullet> Convening industry partners and system stakeholders;
    <bullet> Brokering partnerships, aligning missions, and developing 
alliances; and
    <bullet> Leveraging resources
    Regional Alignment/Innovation. Reauthorization should promote 
innovation and the development of unified regional economic strategies 
by requiring that a portion of state-held funds be used for incentives 
and the provision of technical assistance to local areas for:
    <bullet> Regional alignment of workforce development, economic 
development, adult and postsecondary education efforts (around true 
labor markets);
    <bullet> Implementation of innovative services and strategies for 
meeting the needs of regional employers and workers (e.g., sector and 
industry cluster strategies, career ladder initiatives, utilization of 
workforce intermediaries, incumbent worker training);
    <bullet> Identification and implementation of strategies for 
leveraging flexible, alternative funding sources to support regional 
workforce development activities.
            Expanding Training Opportunities.
    Reauthorization should promote expanded training opportunities by:
    <bullet> Retaining language in WIA that allows for training of low-
wage workers that leads to jobs providing self-sufficiency.
    <bullet> Giving credit (through performance measures or other 
means) for the outcomes of individuals who access training through One 
Stop Centers, even if such training is paid for with resources other 
than WIA, as long as they receive other One Stop services.
    <bullet> Encouraging states and local areas to address the needs of 
low skilled workers through career ladder or other progressive training 
methods, particularly in sector or industry-cluster based initiatives 
that support economic growth.
    <bullet> Relaxing the requirements for current WIA-authorized 
Individual Training Accounts where a sectoral or industry-cluster-based 
initiative warrants ``bundling'' such accounts to benefit a group of 
workers.
            Integrating Systems and Streamlining Services.
    Reauthorization should further encourage integrated service 
delivery of all appropriate workforce-related programs through the One-
Stop delivery system.
    <bullet> Relax requirements around the sequence of core, intensive, 
and training services to provide greater flexibility to move customers 
through the various components of the system according to their needs.
    <bullet> Authorize up to 100 percent transferability at the local 
level between adult and dislocated worker funding.
    <bullet> Require co-location of One Stop Centers and Employment 
Services offices.
    <bullet> Retain a separate, distinct youth funding stream, for both 
in-school and out-of-school youth.
            Strengthening Performance and Financial Accountability.
                       performance accountability
    <bullet> Adopt integrated performance measures similar to outcome 
measures recommended in ``Integrated Performance Information for 
Workforce Development: A Blueprint for States'' developed by Washington 
State's Workforce Training and Education Coordinating Board in 
collaboration with the National Governors Association and a working 
group including Florida, Michigan, Montana, Oregon and Texas.
    <bullet> Provide support for states and local areas to modernize 
current data systems to cost-effectively collect and report performance 
information.
    <bullet> Begin measurement with registration for core services, 
allowing for interventions brokered through the One Stop Center, 
whether or not paid by WIA funds.
    <bullet> Require use of a regression model to address concerns 
about serving the hardest-to-serve populations.
                        financial accountability
    <bullet> Fairly hold States and local areas accountable for system 
expenditures based upon accrued expenditures and allow a maximum 
carryover of 30 percent of funds available.
    <bullet> Codifying the function-based definition of administrative 
costs that is currently provided in the U.S. Department of Labor 
regulations, similar to that used by business, and applying the 
administrative cost limits to contracts for One Stop operations.
            Adult Education Expansion.
    Though 30 million Americans 16 years old and over are out of school 
and without a high school credential, there are only enough federal and 
state funds made available to serve about 3 million adults.
    <bullet> Reauthorization should consider amending Title II of WIA 
(Adult Education and Literacy) so that the federal government would 
provide free secondary education services to all adults who had 
completed the 9th grade--an estimated 18 million individuals--to enable 
them to pass state qualifying or high school equivalency examinations.
    <bullet> State and local resources would be focused on getting 
adults who lack a 9th grade level of education and fluency in English 
up to the point where they could take advantage of the federal program.
    This is a recommendation of the New Commission on the Skills of the 
American Workforce. When their report entitled, Tough Choices or Tough 
Times was released, Chairmen Miller responded with a statement by 
saying:
    ``The Commission's report offers some recommendations--from 
providing a world class education to 3- and 4-year old students * * * 
to offering free adult literacy classes for American workers--that 
deserve serious consideration by the Congress next year as we seek to 
preserve America's global economic leadership and to strengthen 
America's middle class.''
    My colleagues and I request that the Committee give this 
recommendation the serious consideration the Chairman called for. It is 
imperative that we as a nation make it possible for every American 
worker to attain this basic education standard.
    Not all eligible adults, of course, would take advantage of these 
education opportunities. But for the millions who would, this important 
amendment would enable those workers to attain a high school 
credential, continue their postsecondary education and technical 
training, and acquire further credentials and skills that will give 
them a new lease on life, and make the economy as a whole more 
productive.
    Adult education often is overlooked as a tool for economic growth 
because it has been isolated from people responsible for regional 
economic growth and development. Consequently we undervalue and 
underinvestment in adult education services, and this limits the 
prosperity of millions of adult workers, companies, and communities as 
a whole. I urge the Committee to change this result by amending WIA to 
include at least initial steps that put into practice the Commission's 
proposal.
Conclusion
    The Workforce Development Strategies Group at NCEE strongly 
supports enactment of WIA reauthorization this year. Therefore we urge 
you to move legislation as early as possible this Congress. We thank 
you for your hard work and dedication to these issues and look forward 
to continuing to work with you on this vital legislation.
                                 ______
                                 
    Mr. Yarmuth. Mr. Twomey, you talked in your statement about 
the proposal for recision of $335 million that was made in the 
Appropriations Committee, and you talked about the impact in 
dollar terms on your district.
    In terms of the level of services that that would reduce, 
could you give us an idea of the impact of that type of 
recision? I think you mentioned $20-something million in total 
funding. How many people are we talking about?
    Mr. Twomey. Well, first of all, that amendment that was 
offered by Mr. Walsh. Mr. Walsh is a really good member, and 
from the perspective of the National Workforce Association we 
think the bill as passed is a very good bill, with the one 
glaring exception of this recision.
    I believe that Mr. Walsh took on face value--they needed 
desperately an offset for a fine program, IDEA, and if there is 
unspent money, there is unspent money. This is not unspent 
money.
    The scope of this--that $28 million in New York state this 
year will translate into 88,223 fewer participants in the 
workforce system. These are numbers from our state department 
of labor. The research and statistics people are top-notch.
    I can't imagine that Mr. Walsh himself knew that there 
would be a reduction to WIBs in his district of almost $2.1 
million, and 8,741 less people would be served. So I mean, the 
magnitude is huge. And again, it is just because this ongoing 
dispute about how you count it.
    Let me just say this. When you pay your tuition, it doesn't 
count till you pay it, even though the people are in there and 
you set it aside for 2 years.
    Mr. Yarmuth. On that question, I think the theory was that 
there were these excess carry-overs and that therefore it was 
money not being spent.
    It is my understanding that the Department of Labor has the 
power to reallocate funds that are carried over in any 
particular area to others. Are you aware of any situation in 
which that has occurred?
    Mr. Twomey. In my oral testimony earlier, I said that in 
the last 7 years New York State had $1.5 billion-plus----
    Mr. Yarmuth. Right.
    Mr. Twomey [continuing]. And in that time, we did get 
reallocated funds. The total reallocated funds we received over 
that 7-year period was, I think, $42,000.
    Mr. Yarmuth. Can anyone else share their experiences who is 
involved in this, where there were excess funds or you were the 
beneficiary of any allocated excessive funds? No.
    One of the things that--back in April we had a forum in my 
district in Louisville, Kentucky on job development, and it was 
based on the Kentuckiana Works, which is our One-Stop shop and 
effort there.
    One of the issues that came up during that session--we had 
a lot of stakeholders at the meeting, probably 40 or 50 
different people--was that there seemed to be a resistance to 
including organized labor in any of these activities.
    And, for instance, the carpenters union in my district had 
built a multimillion-dollar training facility, and they were 
kind of miffed that they were never called in to participate in 
some of these activities, because they had both the capacity 
and some of the networks to provide training and job 
opportunities for people.
    Is that a situation that you have found--and anyone can 
address this--in your areas and whether you think that this is 
a problem and something that we ought to encourage change in?
    Mr. Carbone. That is not the way it is in my area. We have 
two labor reps on my board of directors at the workplace.
    And at the Connecticut Employment Training Commission, 
which is the state WIB in Connecticut, the chairperson of the 
state AFL-CIO is a member, and a very active member.
    We actually have relationships with unions that do 
apprenticeship programs in defense companies and other 
companies in our region. They play an important role in helping 
us to formulate policy.
    So in terms of Connecticut--I can't speak for the rest of 
the nation--I don't see that. As a matter of fact, our two 
reps--one comes from AFL-CIO and the other is an appointment of 
one of the mayors.
    And we have found them to be a resource and of great 
assistance in every one of our projects.
    Mr. Yarmuth. Thank you.
    Yes, Mr. Petit?
    Mr. Petit. Thank you. In our area, the secretary-treasurer 
of the Spokane Regional Labor Council sits on the Workforce 
Development Council.
    But one of the things that is kind of remarkable about our 
system is that those labor representative from employment 
security, or very system that receives these funds, are blocked 
from appearing on these boards because of a perceived conflict 
of interest.
    I view that as a kind of wrong thinking, because we have 
the expertise to be able to help direct the activity, and so I 
would like to see some kind of additional emphasis placed on 
including AFSCME particularly in those boards.
    Mr. Yarmuth. Thank you very much, Mr. Petit.
    That concludes the questioning, and I want to thank all the 
witnesses. It has been very instructive and useful.
    Members will have 14 days to submit any documentation for 
the record.
    And with that, I thank everyone and the meeting is 
adjourned.
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this hearing on how we can 
improve the workforce development system through the reauthorization of 
the Workforce Investment Act.
    I am anxious to hear recommendations from today's witnesses about 
how the Workforce Investment Act can be improved. As I mentioned in my 
statement at our first hearing on the Workforce Investment Act, one 
issue I am particularly interested in is how we can modify the 
Workforce Investment Act to better serve the underemployed. I was 
pleased to see that several of today's witnesses addressed this issue 
in their written testimony and look forward to hearing them more fully 
speak to this issue.
    Thank you again, Mr. Chairman, for holding this hearing and for 
your leadership on this issue. I yield back the balance of my time.
                                 ______
                                 
    [Additional submissions by Mr. Hinojosa follow:]

   Prepared Statement of the National Association of Counties (NACo)

    Chairman Hinojosa and members of the Subcommittee, the National 
Association of Counties welcomes the opportunity to submit testimony on 
the Workforce Investment Act: Ideas to Improve the Workforce 
Development System.
    The National Association of Counties (NACo) is the only national 
organization representing county governments. NACo membership totals 
over 2,200 counties comprising over 80 percent of the nation's 
population. County officials across this country recognize the 
importance and take seriously the accountability for overseeing 
implementation of the Workforce Investment Act at the local level.
    The Workforce Investment Act (WIA) is the only federally sponsored 
program that is designed to address the broad range of worker needs 
through a one-stop delivery system. The Workforce Investment Act 
provides every worker with an entry point from which to access a wide 
range of services from welfare to work to employment services to 
assessment and training services.
    Reauthorization of WIA legislation has been a work in progress for 
several years. While both chambers of Congress approved legislation in 
past congressional sessions no final agreement was ever reached before 
adjournment. In the interim, local elected officials and workforce 
boards have continued operating and developing workforce initiatives 
funded via congressional appropriations. In the absence of WIA 
reauthorization, congressional funding for such important workforce 
programs has decreased over time, and credible workforce system data 
collection has languished. Furthermore, attempts to dismantle the 
congressional intent as a locally based, business-led workforce system 
have occurred via state WIA plan updates and waivers requests.
    NACo urges Congress to pass and finalize WIA reauthorization 
legislation as soon as possible, to preserve the basic framework as a 
locally based, business-led workforce investment system, and to improve 
upon key issues such as funding, performance data/standards, and 
training to further enhance the workforce system. Such improvements 
will also assist with the ongoing efforts of local areas in moving the 
system to the next level of workforce development initiatives, such as 
industry clusters and sector initiatives recognizing the importance of 
economic development in strengthening workforce development. It is 
vital that WIA be reauthorized to maintain this nation's competitive 
edge and to ensure a skilled workforce for jobseekers and businesses 
alike.
    This nation's workforce system is beginning and should continue to 
focus on the two primary customers: the jobseekers and employers. 
Through One-Stops jobseekers receive assessments and skills upgrading, 
and/or training at local community colleges, education agencies and at 
community-based organizations through individual training accounts. 
Employers are also utilizing the workforce development system to post 
job openings, obtain referrals of people who may be eligible for the 
jobs, and even interview potential candidates. They are also providing 
input into the public-private partnership about the kinds of skills 
that they need in their workplaces. This matching service between 
employers and employees is critical to the success of the workforce 
development system. As WIA continues to manifest itself as an economic 
development program, employers should be more engaged in development of 
a comprehensive workforce system.
    County elected officials believe the Workforce Investment Act 
system has worked well in providing core and intensive services to 
America's workers, as well as training opportunities. There is still 
room for improvement, particularly in the training arena. There are 
simple ways to increase the numbers of workers receiving training and/
or actual better account for those already receiving training in WIA 
reauthorization.
    By design, workforce investment boards or WIBs have unprecedented 
autonomy to develop and implement local initiatives, yet there is a 
high degree of accountability to county commissioners for managing 
finances and performance. Many of the local workforce boards across the 
U.S., working in conjunction with their county commissioners and other 
elected officials, have begun to move beyond the development and 
oversight of the one-stop system. They are moving toward systemic 
strategic workforce issues, including incumbent workers, industry 
clusters, local primary and post-secondary education, transportation 
systems, quality of life, regional marketing, housing, underemployment, 
self-sufficiency and sustainable wages, literacy and life-long learning 
systems. Below are recommendations to further improve upon WIA 
legislation.
Local Authority
    The local public-private partnership as established under the 
Workforce Investment Act should be maintained. Decisions about how the 
partnership should be implemented at the local level should be left to 
local elected officials and local workforce boards in consultation with 
states. The federal-state-local relationship established by the 
Workforce Investment Act should be maintained to ensure that 
appropriate planning and implementation authority and accountability 
continues. WIA legislation should clarify the role that local boards 
play as conveners of key stakeholders for the development of workforce 
and economic development linkages and strategies, and brokers of 
training and related services leading to a highly skilled workforce.
    Appointment authority for the local workforce investment boards 
should remain with chief local elected officials. The relative number 
or percentage of private sector representatives on the local workforce 
investment boards should be increased and the relative number or 
percentage of public sector representatives, especially the mandatory 
partners, should be reduced substantially. Representatives from these 
public agencies may be asked to participate in meetings when issues 
relevant to them arise; however, the decision-making authority on the 
local workforce investment boards should rest with the private sector. 
The structure and characteristics of the most successful boards include 
very strong and independent private sector majority.
    Represented by large and small private sector employers, state 
officials, economic development agencies, organized labor, community 
action agencies, and youth agencies, these boards operate in 
partnership with county commissioners and have the ability to deliver 
grass roots solutions to many issues.
    NACo believes that the public-private partnership is represented by 
the partnership that is forged between the local chief elected official 
and his or her local workforce investment boards. Decisions made by 
these two entities represent the public-private partnership at work.
    Local one-stop centers should remain under the guidance and 
jurisdiction of local chief elected officials and local workforce 
investment boards, as provided for in current law. These one-stop 
centers should be accountable to the local chief elected official for 
all monies spent to prevent the misuse of public funds.
    Local workforce investment area plans should be developed jointly 
by the local chief elected official and the local workforce investment 
board within broad policy and programmatic guidelines developed by the 
governor and the state workforce investment boards. Local workforce 
investment areas and states should be granted broad waiver authority to 
creatively respond to the employment, economic development and welfare 
issues confronting states and localities. Requests for waivers should 
be developed jointly by local elected officials and workforce 
investment boards, should be limited to the delivery of program 
services and the allocation of funds to different activities and must 
receive the approval of governors before they can be enacted.
Program Funding
    One significant issue is sufficient funding for WIA programs, which 
has decreased significantly without reauthorization. Most recently, the 
House Appropriations Committee approved a $335 million rescission for 
WIA funds for 2007. Such cuts are incomprehensible, considering the 
importance of a highly educated and skilled workforce to this nation. 
In recent years, there has been increasing pressure on the workforce 
system to continue to do more with less. One-Stop systems across this 
country are struggling now to just to maintain basic services to its 
customers. Workforce boards (WIBs) are managing the funds responsibly, 
obligating and spending allotments within the context of the three-year 
planning and expenditure cycle for which the Act provides.
    WIA reauthorization should include increased funding for formula 
programs and a separate line item for One-Stop infrastructure costs. 
Funding for infrastructure costs should not come at the expense of or 
from cuts to formula funding.
    If no increased funding is included for WIA or One-Stop 
infrastructure, mandatory partners should be required to contribute 
money to the system. These funds should be allotted to or collected by 
the states and distributed to local areas based upon formulae used to 
distribute program funds.
    NACo also supports alignment of resources at the local level for 
greater flexibility. Funds for adult, youth and dislocated workers 
should be consolidated into a single block grant at the local level so 
that local areas may determine the kinds of populations to serve based 
upon need. This is especially important for rural areas that receive 
limited WIA resources and prefer to consolidate funds to best serve all 
populations in need.
Administrative Costs
    Another potentially significant issue is Administrative Costs 
definition. NACo supports maintaining the current function based 
definition in the current regulations for WIA as well as the 10 percent 
cap on administrative costs. The current definition should be added to 
the WIA statute, to avoid potential modifications via administrative or 
other regulatory means.
Performance Data/Simplified Measures
    Accurate performance data collection and simplified performance 
measures are also important to improving upon the success of the 
workforce system. To date there is no reliable record of how many 
individuals have been trained, placed in jobs, the rate of earnings for 
these individuals or retention levels. The existing measures are not 
reflective of the quality of services that are available to job seekers 
and employers. Many local areas are tracking detailed performance data 
such as training with leverage money, which is not reflected in 
national statistics. Therefore, performance measures should be 
simplified and universal for state and local areas, include credit or 
bonus for leveraged training and include a regression model as 
incentive to serve and track data for populations with significant 
barriers to education and employment opportunities.
Training
    While significant numbers of training is occurring as supported by 
the U.S. General Accountability Office reports, more could be done to 
increase and accurately count as well as increase training 
opportunities. NACo supports increased training opportunities for 
jobseekers that lead to self sufficiency. One change that could assist 
in more training opportunities is the relaxation of the sequence of 
services requirement. Individuals should have immediate access to core, 
intensive and/or training services. Requirements that mandate 
individuals receive core and intensive services first has delayed 
progression to training for many customers. NACo supports granting 
local One-Stop centers greater flexibility with regard to the provision 
of services and utilization of training funds.
    Significant training is being done in local areas with leveraged 
funding from the private sector, foundation or educational 
institutions. Local areas should be able to receive credit or bonus 
towards training requirements/participation rates in WIA for such 
training. An emphasis should also be placed on incumbent worker 
training by allowing workforce boards to spend up to ten percent of 
their Dislocated Workers and Adults formula funds, so that individuals 
whose skills are becoming antiquated may obtain the appropriate 
training to remain competitive in the job market.
Youth
    The Workforce system should continue to serve in and out of school 
youth ages 14-21, including youth aging out of foster care. Youth 
programs for in and out of school youth should continue to be developed 
by local workforce investment boards acting in consort with their local 
chief elected officials. Funds for these programs should continue to be 
allocated to local areas. They should be used in part to address the 
needs of students making the transition from school to work and to 
assist those students no longer in school develop the skills they need 
to enter the world of work.
Innovation
    The workforce investment system is developing into a continuum 
beginning with primary education through post secondary education and 
training, retraining and placement of the aged workforce and points in 
between. The workforce system is promoting industries that lead to 
local and regional economic growth and jobs that provide sustainable 
employment.
    By design, successful workforce investment boards have 
unprecedented autonomy to develop and implement local initiatives. 
Still, there is a high degree of accountability by county officials for 
managing finances and performance. Local WIBs across the country have 
created infrastructures that are quite capable of implementing a broad 
array of initiatives. County officials and their appointed workforce 
boards across the nation work diligently and tirelessly to integrate 
and coordinate resources from multiple funding streams to fully develop 
Congress's notion of a ``one-stop'' workforce delivery system.
    Strong public-private sector partnerships have resulted in 
innovative programs, increased precision and efficiency in the use of 
workforce resources and a broader understanding of the core issues that 
must be addressed to maintain of economic competitiveness. Examples of 
issues and topics being addressed by workforce boards include: industry 
clusters, local primary and post-secondary education, incumbent 
workforce focus, transportation systems, quality of life, regional 
marketing, housing, underemployment, self-sufficiency and sustainable 
wages, literacy and life-long learning systems. To fully accomplish 
these tasks, systems are and need to be developed to encourage broader 
relationships between WIBs, and other state and federal organizations 
along with the U.S. Department of Labor.
    To enhance and promote further innovation in the workforce system, 
WIA reauthorization legislation should include monetary incentives for 
local workforce boards that achieve such model results through 
innovative practices related to strategic planning, industry clusters 
and sector initiatives, partnership linkages with economic development 
as well as working on regional basis strategically and comprehensively 
across education, workforce, and economic development to address 
employment needs of these regions.
    For the past three years NACo's Labor and Employment Steering 
Committee has sponsored a Workforce Development--``Best Practices'' 
Symposium highlighting the innovation of local workforce boards to 
share information and ``best practices'' with other locally elected 
officials and workforce board staff. Attendees learn about innovative 
practices that they can then incorporate into their local workforce 
boards and areas. Such symposiums have been informative and well 
received by locally elected officials and workforce development staff.
    In conclusion, NACo believes that workforce development programs 
represent an important tool for federal, state and local governments to 
ensuring a competitive workforce today and in the future. The nation's 
workforce system is well positioned to better address the needs of 
jobseekers and businesses alike by incorporating the improvements 
highlighted above in WIA reauthorization legislation.
                                 ______
                                 

    Prepared Statement of the National Organization for Competency 
                            Assurance (NOCA)

About the National Organization for Competency Assurance (NOCA)
    NOCA, the oldest and largest organization representing 
certification agencies, testing companies, consulting firms and 
individuals involved in professional certification, was created in 1977 
as the National Commission for Health Certifying Agencies (NCHCA) with 
federal funding from the Department of Health and Human Services. Its 
mission was to develop standards for quality certification in the 
allied health fields and to accredit organizations that met those 
standards. With the growing use of certification in other fields, 
NCHCA's leaders recognized that what is essential for credible 
certification of individuals in the healthcare sector is equally 
essential for other sectors. With this vision, NCHCA evolved into the 
National Organization for Competency Assurance. NOCA is a non-profit, 
501(c)(3) organization, committed to serving the public interest by 
ensuring adherence to standards that ensure the highest competence of 
certification programs.
    NOCA's membership is composed of more than 400 organizations 
responsible for certifying specific skill sets and knowledge bases of 
professions and occupations at the national and international level. 
Through certification, NOCA members represent more than 6 million 
individuals around the world and include certification programs of some 
150 professions and occupations, including 60 healthcare professions. 
NOCA members certify individual skills in fields as diverse as 
construction, healthcare, automotive, and finance. A current roster of 
NOCA members is included in the appendix.
    NOCA also brings the expertise of its internationally recognized 
accrediting arm, the National Commission for Certifying Agencies 
(NCCA). NCCA uses a peer review process to evaluate adherence to its 
standards by certification programs and grants accreditation to those 
programs that have met those standards. These standards exceed the 
requirements set forth by the American Psychological Association and 
the U.S. Equal Employment Opportunity Commission and thus help to 
protect the health, safety, and welfare of the public. NCCA is the 
national accreditation body that provides this service for private 
certification organizations in all disciplines.
    NOCA's mission is to promote excellence in competency assurance for 
individuals in all occupations and professions. No other organization 
has the presence in or commits the resources to the field of 
certification. NOCA is proud of its position as the international 
leader in competency assurance for certification programs, as well as 
its role in promoting excellence in competency assurance for 
practitioners in all occupations and professions.
What is Certification?
    The certification of professional and occupational skill-sets 
affirms a knowledge and experience base for practitioners in a 
particular field, their employers, and the public at large. 
Certification represents a declaration of a particular individual's 
professional competence. In some professions certification is a 
requirement for employment or practice. In all instances, certification 
enhances the employability and career advancement of the individual 
practitioner or employee.
    Many organizations in today's competitive and challenging economy 
have recognized their workforce as their most valuable asset. Likewise, 
individuals, whether employed or self-employed, know that now more than 
ever before they must acquire and maintain more comprehensive skill-
sets to ensure their own attractiveness and ability in the 
workplace.\1\
    The benefits of certification include:
    <bullet> Consumer confidence and safety through verification of 
competence
    <bullet> Protecting the general public from incompetent and unfit 
practitioners
    <bullet> Establishment of professional standards for individuals in 
a particular field.
    <bullet> Assisting consumers in making informed decisions about 
qualified providers
    <bullet> Assisting employers in making more informed hiring 
decisions
    <bullet> A more productive and highly trained workforce for 
employers
    Data is available that underscores the value of certification in 
numerous occupations. Research conducted by the American Board of 
Nursing Specialties (ABNS) (a NOCA member) ``document[s] a high level 
of agreement among certified nurses, non-certified nurses and nurse 
managers that certification is greatly valued among nurses.'' \2\ 
Respondents to the ABNS survey revealed that some of the incentives 
their employers offer to promote and recognize nursing certifications 
include the reimbursement of exam fees, a listing of their credential 
on nametags and/or business cards, and receiving reimbursement for 
continuing education.\3\ Other surveys indicate that certification 
results in higher wages for credentialed employees, as well as 
bonuses.\4\
    Occupational certification is in most instances an affordable 
retraining option for many dislocated workers. A voluntary survey 
conducted by NOCA in 2004 indicated the average cost of certification 
tests is $350.\5\
    Numerous occupations, such as doctors, nurses, accountants, and 
physical therapists, require a license to practice the profession at 
the state level. Certification is distinct from licensure in that it is 
voluntary and frequently requires recertification to maintain the 
currency of the credential. Recertification frequently takes the form 
of continuing education and testing. Recertification provides a 
reaffirmation of competency assurance by ensuring the certificant is up 
to date with the latest training techniques, research and methods for a 
particular field.
    Many certification exams are so rigorous that states adopt the 
certification exam for a certain occupation as the state licensure 
exam. For example, to become a Licensed Professional Counselor in 49 
states, a test candidate must achieve a passing score on the National 
Counselor Examination (NCE), administered by the National Board for 
Certified Counselors.\6\ Passage of the NCE earns the candidate the 
National Certified Counselor (NCC) credential and the Licensed 
Professional Counselor designation to engage in the practice of 
counseling in most states. Some other examples include the state of 
California requiring alcohol and drug counselors to be certified by an 
NCCA accredited organization; the state of Massachusetts requiring 
senior financial planners to be certified by a nationally recognized 
accrediting body; and the state of Missouri requiring mid-wives to be 
certified by an NCCA accredited organization.
The Importance of Accreditation
    Accreditation provides third party oversight of a conformity 
assessment system. NCCA accreditation provides a mechanism for 
certification organizations to demonstrate to the profession it 
represents and the general public it serves that its credentialing 
program has been reviewed by a panel of impartial experts who have 
determined that the certification program has met the stringent 
standards of NCCA. NCCA accreditation provides certification programs 
and many NOCA members with a way to answer the question, ``who reviewed 
your certification program?'' a question often posed by members of an 
occupation, employers, and sometimes, the courts.
    An important part of the accreditation process is a review of a 
certification body's enforcement mechanism. Most certification programs 
have imposed a disciplinary system that requires certificants to adhere 
to a Code of Ethics for a profession. Violations of the Code may be 
reported by the public and reviewed by the credentialing body. If 
necessary, suspensions or revocations of the credential may take place. 
These self-enforcing mechanisms provide a further layer of protection 
to consumers as well as a layer of accountability in a profession.
NOCA's Recommendations for Workforce Investment Act (WIA) 
        Reauthorization
    NOCA recommends including information about occupational 
certification and licensure opportunities as a core service available 
through One-Stop employment and training career centers. NOCA also 
recommends including certification and licensure in the scope of 
training services offered through the One-Stop system.
    Certification offers a meaningful and direct pathway to re-
employment for many individuals eligible for assistance through the 
One-Stop system. Certification may be a part of the training for 
specific job skills required in local markets. Including information 
about the vast array of credentials available to job seekers when they 
visit One-Stops is an excellent way to assist individuals in obtaining 
new work and possibly better career opportunities. In many instances, 
securing a voluntary credential will be the quickest and most effective 
means for an individual to achieve re-employment.
    In fact, career counselors who staff One-Stop Centers are certified 
as Global Career Development Facilitators by the National Board for 
Certified Counselors, a NOCA member and the largest certification 
program for the counseling profession. These career development 
professionals receive specialized training for working in career 
development fields. The Career Development Facilitators certification 
establishes minimum competency requirements to serve the dislocated 
worker and requires adherence to a professional Code of Ethics.
    We note the development of the CareerOneStop\7\ website by the 
Department of Labor. This user-friendly website allows job seekers to 
easily search for certification options in a number of different fields 
and professions. NOCA recommends that Congress continue to encourage 
the expansion of this valuable tool by providing adequate resources to 
allow DOL to raise awareness about the site to workers as well as 
career development professionals.
    Certification programs whose prerequisites and requirements 
displaced workers may quickly access would enable displaced workers to 
move back into gainful employment and possibly enhanced career 
opportunities. Certification of one's specialized skills learned from 
years on the job may well be the quickest pathway to reemployment.
    In many instances, an occupational certification does not require a 
college degree. College is an expensive and time-consuming undertaking 
which may not represent a viable alternative for many job seekers. 
Persons who do not wish to pursue a college degree can pursue viable 
and rewarding careers in such fields as medical transcription, 
automotive mechanic, and medical assisting, among many others. These 
professions, as well as others, can open up a rewarding career path 
with excellent pay and opportunities for advancement for many 
individuals. Examples of occupations not requiring a baccalaureate 
degree include:
    ASE-certified automotive technician. According to the National 
Automotive Technicians Education Foundation, automotive technicians 
receiving the ASE certification can earn $60,000 or more per year. 
Positions such as automobile technician, autobody technician, truck 
technician, and parts specialist are in high demand across the nation.
    Medical transcriptionist. According to the American Association of 
Medical Transcription, the volume of dictation requiring transcription 
continues to grow; however, the availability of qualified medical 
transcriptionists has not grown at the same rate. This is an excellent 
career, offering a competitive annual salary. BLS statistics indicate 
the mean annual wage in 2006 for a medical transcriptionist is 
$30,660.\8\
    These are just a small sampling of the occupations available to 
dislocated workers, new workforce entrants, and others seeking 
employment and living wages, who may choose not to go on to pursue a 2 
or 4 year degree.
    The certification industry is also recognizing the changing face of 
the American workforce. While the United States has always been a 
nation of immigrants, U.S. Census figures indicate that the number of 
persons who speak a language other than English at home increased from 
31.8 million in 1990 to 47 million in 2000.\9\ In addition, while some 
immigrants enter the United States with high quality training and 
education, others lack advanced skills and will need to obtain training 
in order to advance in the workforce. Some persons are also entering 
the workforce after becoming disabled or after long periods of 
unemployment.
    Certification bodies are adapting swiftly to meet the needs of 
America's changing workforce. For example, many certification boards 
are administering their coursework and examinations in languages other 
than English. Credentialing examinations for numerous occupations are 
now administered on a global scale. A 2006 survey of NOCA member 
organizations revealed that over 50% of respondents administer their 
exams in countries other than the United States and that 37% of 
respondents translate their exams into languages other than 
English.\10\
    Certification bodies are also in full compliance with the Americans 
with Disabilities Act, thus allowing persons with disabilities to earn 
certifications with reasonable accommodation that does not compromise 
the validity or reliability of the testing process.
    NOCA also notes that the Office of Management and Budget announced 
last year that it had instructed the Standard Occupational 
Classification Revision Policy Commission (SOCRPC) to begin the review 
and revision of the Standard Occupational Classification (SOC), last 
updated in 2000, towards revision for 2010.\11\ In its proposal, SOCRPC 
recommends eliminating from the factors evidencing an occupation the 
existence of a national credentialing program. Yet a credentialing 
program serving a specific competency or set of competencies can 
confirm the existence of an emerging or maturing occupation, in many 
instances far ahead of the SOC. While NOCA is aware that the SOC 
revision process is a separate regulatory process not related to WIA 
reauthorization, NOCA respectfully requests that the Subcommittee 
review the decision by the SOCRPC to remove certification from the 
SOC.\12\
Conclusion
    Improving the prospects for reemployment and career opportunities 
of displaced workers, as well as immigrant workers, represents the core 
of the Workforce Investment Act. Most employers in today's competitive 
and challenging economy have recognized that their workforce is their 
most valuable asset. Likewise, individuals, whether employed or self-
employed, know that now more than ever before they must acquire and 
maintain more comprehensive skill-sets to ensure their own 
marketability and competence in the workplace. Certification represents 
an excellent pathway to employment opportunities for workers in all 
areas in the economy. It also serves as an important assurance for 
employers and the general public that individuals have attained the 
necessary skill sets to provide the services or carry out the scope of 
their employment. We hope that the Subcommittee will recognize the 
important role that certification has to play in the Workforce 
Investment system.
            Respectfully Submitted,
                         James Kendzel, Executive Director,
             National Organization for Competency Assurance (NOCA).
                 appendix--noca organizational members
    NOCA's Organizational Members consist of the following 
associations, certifying organizations, customer groups, and government 
agencies:

AACE International
Academy of Ambulatory Foot and Ankle Surgery
Academy for Certification of Vision Rehabilitation and Education 
        Professionals
Academy of Lactation Policy and Practice
Accrediting Bureau of Health Education Schools
Aerobics and Fitness Association of America
Alliance of Information and Referral Systems
American Academy of Health Care Providers in the Addictive Disorders
American Academy of Nurse Practitioners
American Academy of Micropigmentation
American Academy of Pain Management
American Academy of Wound Management
American Association for Medical Transcription
American Association for Respiratory Care
American Association of Clinical Coders and Auditors
American Association of Colleges of Nursing
American Association of Critical-Care Nurses Certification Corporation
American Association of Medical Assistants
American Association of Medical Audit Specialists
American Association of Physician Specialists
American Association of Poison Control Centers
American Board for Certification in Orthotics and Prosthetics, Inc.
American Board for Certification of Teacher Excellence, Inc.
American Board for Occupational Health Nurses
American Board of Cardiovascular Perfusion
American Board of General Dentistry
American Board of Industrial Hygiene
American Board of Lower Extremity Surgery
American Board of Multiple Specialties in Podiatry
American Board of Nursing Specialties
American Board of Opticianry
American Board of Pain Medicine
American Board of Registration of Electroencephalographic and Evoked 
        Potential Technologists, Inc.
American Board of Surgical Assistants
American Board of Transplant Coordinators
American Board of Veterinary Practitioners
American Certification Agency for Healthcare Professionals
American Chiropractic Board of Radiology
American Chiropractic Board of Sports Physicians
American Chiropractic Neurology Board
American Chiropractic Registry of Radiologic Technologists
American Clinical Board of Nutrition
American College of Sports Medicine
American College of Veterinary Ophthalmologists
American Construction Inspectors Association
American Council on Exercise
American Fitness Professionals and Associates
American Health Information Management Association
American Hospital Association Certification Center
American Institute of Certified Public Accountants
American Indoor Air Quality Council
American Manual Medicine Association
American Medical Massage Association
American Medical Technologists
American Midwifery Certification Board
American Nurses Credentialing Center Commission on Certification
American Occupational Therapy Association
American Optometric Association Commission on Paraoptometric 
        Certification
American Organization for Bodywork Therapies of Asia
American Physical Therapy Association
American Registry for Diagnostic Medical Sonographers
American Registry of Magnetic Resonance Imaging Technologists
The American Registry of Radiologic Technologists
American Society for Bariatric Surgery
American Society for Clinical Pathology
American Society of Anesthesia Technologists and Technicians
American Society of Military Comptrollers
American Speech-Language-Hearing Association
American Staffing Association
American Veterinary Chiropractic Association, Inc.
American Veterinary Medical Association
APICS-The Association for Operations Management
Aquatic Exercise Association, Inc.
Architectural Woodwork Institute
Art Therapy Credentials Board
ASIS International
Association for Death Education and Counseling
Association for Investment Management and Research
Association of Christian Alcohol and Drug Counselors
Association of Government Accountants
Association of Regulatory Boards of Optometry
Association of Surgical Technologists, Inc.
Association of Water Technologies, Inc.
Axiom Resource Management, Inc.
Behavior Analyst Certification Board
Biofeedback Certification Institute of America
Board for Certification in Clinical Anaplastology
Board for Certification of Addiction Specialists
Board for Certification in Pedorthics
Board for Orthotist/Prosthetist Certification
Board of Canadian Registered Safety Professionals
Board of Certification for Emergency Nursing
Board of Certification in Professional Ergonomics
Board of Certification of Medical Illustrators
Board of Certified Safety Professionals
Board of Environmental, Health & Safety Auditor Certifications
Board of Pharmaceutical Specialties
Board of Registered Polysomnographic Technologists
Breining Institute
California Association for Alcohol and Drug Educators
California Association of Alcoholism and Drug Abuse Counselors (CAADAC) 
        and the California Certification Board of Alcohol and Drug 
        Counselors (CCBADC)
California Association of Drinking Driver Treatment Programs
California Certifying Board for Medical Assistants
California-Nevada Section, American Water Works Association
California Water Environment Association
Canadian Alliance of Physiotherapy Regulators
Canadian Board for Respiratory Care, Inc.
Canadian Chiropractic Examining Board
Canadian Council of Professional Engineers
Canadian Nurses Association
Center for Credentialing and Education
Certification Board for Music Therapists
Certification Board for Radiology Practitioner Assistants
Certification Board for Sterile Processing and Distribution
Certification Board for Infection Control and Epidemiology
Certification of Disability Management Specialists Commission
Certified Financial Planner Board of Standards, Inc.
Certified Fund Raising Executive International
Certified General Accountants Association of Canada
Certified Mine Safety Professional Certification Board
Certifying Board for Dietary Managers
Chartered Realty Investor Society
College and Association of Registered Nurses of Alberta
College of Massage Therapists of Ontario
College of Medical Laboratory Technologists of Ontario
College of Medical Radiation Technologists of Ontario
College of Occupational Therapists of Ontario
College of Pharmacists of British Columbia
College of Physiotherapists of Ontario
College of Respiratory Therapists of Ontario
Commission for Case Manager Certification
Commission for Certification in Geriatric Pharmacy
Commission on Dietetic Registration of the American Dietetic 
        Association
Commission on Graduates of Foreign Nursing Schools
Commission on Rehabilitation Counselor Certification
Competency and Credentialing Institute
Convergys
The Cooper Institute
Council of Landscape Architectural Registration Boards
Council on Certification of Health, Environmental, and Safety 
        Technologists
Council on Certification of Nurse Anesthetists
Council on Licensure, Enforcement and Regulation
Council on Professional Standards for Kinesiotherapy
Crane Operator Certification Authority
CFA Institute
CSI Global Education
Dental Assisting National Board
Department of Environment and Labor Province of Nova Scotia
Entertainment Technician Certification Program (ETCP-ESTA)
Esthetic Skin Institute
Examination Board of Professional Home Inspectors
Financial Planning Standards Board
Financial Planners Standards Council
Financial Planning Association of Australia
Florida Certification Board
Fundacao Luis Eduardo Magalhaes
Hand Therapy Certification Commission, Inc.
The Healing Oasis Wellness Center
Healthcare Compliance Certification Board
Healthcare Financial Management Association
Healtcare Information and Management Systems Society
Healthcare Quality Certification Board
Human Resource Certification Institute
Illinois Department of Financial & Professional Regulation
Infocomm International
International Medical University of Natural Education (IMUNE)
Indian Alcoholism Commission of California
Infusion Nurses Certification Corporation
Institute for Safety and Health Management
Institute of Certified Construction Financial Professionals
Institute of Certified Management Accountants
Institute of Hazardous Materials Management
Institute for Supply Management
International Accounts Payable Professionals, Inc.
International Air Filtration Certifiers Association
International Alliance for Fitness Professionals
International Association for Colon Hydrotherapy
International Association of Eating Disorders Professionals Association
International Association of Forensic Nurses
International Association of Healthcare Central Service Materiel 
        Management
International Board of Lactation Consultant Examiners
International Code Council
International Executive Housekeepers Association, Inc.
International Fitness Association
International Lactation Consultant Association
International Pilates Certification
International Society for Clinical Densitometry
International Society of Arboriculture
International Society for Performance Improvement
Irrigation Association
ISA, The Instrumentation, Systems, and Automation Society
Joint Commission on Allied Health Personnel in Ophthalmology
Kassian Dyck & Associates
Knowledge Assessment Calculator (formerly American Payroll Association)
Lamaze International
Liaison Council on Certification for the Surgical Technologist
Marketing Research Association
Medical Massage National Certification Board
Michigan Institute for Health Enhancement
NAA Education Institute
NAADAC-The Association for Addiction Professionals
National Academy of Sports Medicine
National Alliance Wound Care
National Assistant at Surgery Council
National Association of Medical Staff Services
National Association for Health Professionals
National Association of Boards of Pharmacy
National Association of Certified Valuation Analysts
National Association of College Stores
National Association of Federal Credit Unions
National Association of Forensic Counselors
National Association of Legal Assistants
National Association of Mortgage Brokers
National Association of Social Workers
National Association of State Contractors Licensing Agencies
National Asthma Educator Certification Board, Inc.
National Athletic Trainer's Association Board of Certification
National Board for Certification in Hearing Instrument Sciences
National Board for Certification of Hospice and Palliative Nurses
National Board for Certification of Orthopaedic Technologists
National Board for Certification in Occupational Therapy
National Board for Certification of Orthopedic Physician Assistants
National Board for Certified Counselors
National Board for Professional Teaching Standards
National Board for Respiratory Care
National Board of Certification for Community Association Managers, 
        Inc.
National Board of Chiropractic Examiners
National Board of Examiners in Optometry
National Board of Nutrition Support
National Board of Orthodontics, U.S.
National Board of Surgical Specialists
National Business Aviation Association
National Center for Competency Testing
National Certification Board for Diabetes Educators
National Certification Board for Therapeutic Massage and Body Work
National Certification Commission for Acupuncture and Oriental Medicine
National Certification Corporation for the Obstetric, Gynecologic, and 
        Neonatal Nursing Specialties
The National Commission for Health Education Credentialing
National Commission for Certification of Continuing Medical Education 
        Professionals
National Commission for the Certification of Crane Operators
National Concrete Masonry Association
National Contact Lens Examiners
National Council for Interior Design Qualification
National Council for Therapeutic Recreation Certification, Inc.
National Council of Architectural Registration Boards
National Council of Examiners for Engineering and Surveying
National Council of State Boards of Nursing, Inc.
National Council on Strength and Fitness
National Credentialing Agency for Laboratory Personnel
National Dental Hygiene Certification Board
National Enrichment Teachers Association
National Examining Board of Ocularists
National Exercise Trainers Association (NETA)
National Exercise and Sports Trainers Association (NESTA)
National Federation of Professional Trainers
National Ground Water Association
National Healthcareer Association
National Institute for Automotive Service Excellence
National Institute for Certification in Engineering Technologies
National Institute for Metalworking Skills
National Kitchen and Bath Association
National League for Nursing
National Occupational Competency Testing Institute
National Paramedical for Technician and Assistants
National Recreation and Parks Association
National Registry of Emergency Medical Technicians
National Registry of Food Safety Professionals
National Strength and Conditioning Association (NSCA) Certification 
        Commission
Natural Therapies Certification Board
Nephrology Nursing Certification Commission
North American Board of Certified Energy Practitioners
North American Registry of Midwives
North Carolina Substance Abuse Practice Board
The Nuclear Medicine Technology Certification Board
Oncology Nursing Certification Corporation
Ontario College of Pharmacists
Ontario College of Social Workers and Social Service Workers
Ophthalmic Photographers' Society, Inc. Board of Certification
Pediatric Nursing Certification Board
Petrofac Training International
Pharmacy Examining Board of Canada
Pharmacy Technician Certification Board
Pilates Method Alliance, Inc.
Professional Golfers' Association of America
Professional Healthcare Institute of America
Professional Landcare Network
Professional Photographers of America
Psychiatric Rehabilitation Certification Program
Radiology Coding Certification Board
Registry of Interpreters for the Deaf, Inc.
Rehabilitation Engineering and Assistive Technology Society of North 
        America
Rocky Mountain Masonry Institute
School Nutrition Association
Society of Actuaries
Society of American Foresters
Society of Cable Telecommunications Engineers
Society of Certified Senior Advisors
The Society of the Plastics Industry
Society of Tribologists and Lubrication Engineers
Software Engineering Institute
Southern California Crane and Hoisting Certification Program
Transportation Professional Certification Board, Inc.
UCSD-Center for Criminality Addiction Research, Training, and 
        Application (CCARTA)
Universal Public Purchasing Certification Council
U.S. Green Building Council
Veterinary Hospital Managers Association
The Wedding Planning Institute
Wound, Ostomy, and Continence Nurses Certification Board
                                endnotes
    \1\ See also Su Bacon, ``Setting Strategy: Earning professional 
credentials has many benefits for businesses.'' Kansas City Star (Jul. 
2, 2007), available at http://www.kansascity.com/business/story/
174730.html.
    \2\ Value of Certification Executive Summary. American Board of 
Nursing Specialties (May 2006), 4. Available at http://
www.nursingcertification.org/pdf/executive--summary.pdf.
    \3\ Ibid.
    \4\ Poll Indicates Certified Workers Earn More, press release, 
Sept. 5, 2003. Available at: http://www.noca.org/portals/0/
Poll%20results.doc. See also CertMag's 2006 Salary Survey. Available at 
http://www.certmag.com/articles/templates/CM--gen--Article--
template.asp?articleid=2479&zoneid=223.
    \5\ Average Certification Exam Fee Tops $350, press release, May 
20, 2004. Available at: http://www.noca.org/portals/0/exam%20fee--
header.pdf.
    \6\ The National Board for Certified Counselors (NBCC) is a member 
organization of NOCA and is also accredited by the National Commission 
for Certifying Agencies (NCCA).
    \7\ http://www.careeronestop.org/
    \8\ See http://www.bls.gov/oes/current/oes319094.htm.
    \9\ See Hyon B. Shin with Rosalind Bruno, ``Language Use and 
English-Speaking Ability: 2000.'' U.S. Census Bureau (Oct. 2003). 
Available at: http://www.census.gov/prod/2003pubs/c2kbr-29.pdf.
    \10\ NOCA International Staff Summary Report. National Organization 
for Competency Assurance (Oct. 20, 2006). Not available online.
    \11\ See Federal Register, Vol. 71, No. 94, 16 May 2006, at 28536
    \12\ NOCA submitted a letter to the SOCRPC protesting this change. 
NOCA's comment letter is available at http://www.noca.org/portals/0/
SOCRPC-Response-Letter.pdf.
                                 ______
                                 

  Prepared Statement of Susan Rees, Director of National Programs and 
                 Policy, Wider Opportunities for Women

    Wider Opportunities for Women is pleased that the subcommittee is 
considering ways to improve the Workforce Investment Act which has been 
pending reauthorization for over five years. WOW works nationally and 
in its home community of Washington, DC, to achieve economic 
independence and equality of opportunity for women and girls. Since 
1964, WOW has trained more than 10,000 women for well-paid work in 
programs emphasizing literacy, technical and nontraditional skills, 
welfare-to-work and transition and career development goals.
    The recommendations discussed here are based on WOW's experience 
with more than 2,000 nonprofit organizations and Workforce Investment 
Boards in 36 states that are part of our Family Economic Self-
Sufficiency Project (FESS). The Self-Sufficiency Standard \1\ uses 
publicly available data from federal, state and private sources to 
calculate on the cost of living for working families of different sizes 
and ages of children, including food, health care and local and market 
rates for child care, housing and transportation. Today, the Self-
Sufficiency Standard has been developed and is utilized in 35 states 
and the District of Columbia. It has been drawn on by states and 
national organizations and think tanks\2\ in their efforts to establish 
a relevant and credible measure for policy development and program 
decisions.
    In 2003, WOW surveyed workforce boards across the nation to 
identify best practices in the use of Self-Sufficiency Standards in 
connection with workforce development.\3\ We conducted in-depth case 
studies that show how Self-Sufficiency Standards are implemented to:
    <bullet> set high earnings goals for WIA participants,
    <bullet> counsel WIA customers about better paying career paths and 
potential work supports,
    <bullet> employ effective sector strategies,
    <bullet> negotiate on-the-job training and customized training 
contracts leading to self-sufficient jobs,
    <bullet> assess outcomes through data collection and benchmarking, 
and
    <bullet> respond to community demographics.
    A prime example of maximum use of the Self-Sufficiency Standard has 
been by the Workforce Development Council of Seattle-King County, Wash, 
which uses a combination of these strategies. This year Seattle-King 
County reported that, of 415 customers who had zero household earned 
income upon registration for WIA, 296, or 71 percent, exited at 100 
percent or above the Self Sufficiency Standard. In King County, the 
standard is $40,249 for a family of two adults, a preschooler and a 
teenager. For an adult and two school aged children, it is $29,571.
    It is from evidence such as this, as well as WOW's particular 
expertise in promoting gender equity in federal workforce programs, 
that we make the recommendations discussed below. Some were at least 
partiallly addressed in the WIA reauthorization bill (S. 1021, 
engrossed and passed as H.R. 27 in 2006).
    <bullet> Enable states and local WIBs to use WIA funds to calculate 
and update Self-Sufficiency Standards.
    Increasing WIA participants' self-sufficiency should be made a 
prominent purpose of the Workforce Investment Act, and the calculation 
and updating of standards should be a permissible use of funds. 
Legislation should define self-sufficiency as the minimum income needs 
of families, by family size, the number and ages of children in the 
family and sub-state geographical considerations such as localized 
costs of basic necessities as health and child care, housing and 
transportation.
    While Self-Sufficiency Standards exist in a majority of states, 
many were calculated with non-WIA funds and most need to be updated. A 
survey by WOW and the National Association of Workforce Boards in 2006 
found that more than one-third of local boards that responded reported 
using Self-Sufficiency Standards in various ways. One of the most 
common is to integrate the standard in an on-line Self-Sufficiency 
Calculator that enables One-Stop caseworkers, customers and the public 
to determine what a self-sufficient income is for a particular family. 
Several of the calculators also allow the user to view occupations that 
can lead to that income level, identify sources of education and 
training for those skills, and see for which public benefits they 
appear eligible to enable them to bridge the gap between an entry level 
job and economic security for their families. Self-sufficiency 
calculators are available in 9 states.\4\
    <bullet> Enable customers to take advantage of core, intensive or 
job training services in any order, or at the same time, by eliminating 
any language that can be construed to require a ``sequence of 
services'' from core, to intensive, to training.
    The decline of participation in job training has been well-noted 
since WIA replaced JTPA. Instead of directing participants to services 
defined in the ``negative,'' i.e. an inability to get a job without 
more extensive training, WOW believes the decision should be based on 
the individual's informed choice after career counseling and an 
assessment of his or her skill requirements and competencies as well as 
the kind of training and services that will enable him or her to attain 
a job at self-sufficient wages. Such an approach will be of benefit not 
only to unemployed workers but also to incumbent workers and employers 
facing skill shortages.
    <bullet> Expand referral to and delivery of supportive services to 
help all hard-to-serve-populations with barriers to employment, 
including welfare recipients, survivors of domestic violence, displaced 
homemakers, individuals seeking nontraditional training for their 
gender, single parents, and recent immigrants with limited English 
proficiency and ex-offenders.
    Most members of hard-to-serve populations, almost by definition, 
need special accommodation or specific work supports in order to fully 
take advantage of educational and training services offered through 
WIA. Nevertheless, WIASRD data show the number receiving supportive 
services has declined from 24.2 percent of adult participants in 2000 
to 19.1 percent in program year 2004-05. In 2004-05, only 21.2 percent 
of women, 17.1 percent of persons with a disability, and 15.5 percent 
of persons with a disability that was substantial were recorded as 
receiving supportive services.
    Many education and training providers with particular capacities to 
work with hard-to-serve populations, such as the ability to deliver 
child care or accommodate the nontraditional schedules of working 
mothers, are discouraged from participating in the workforce 
development system because of cash flow risks associated with the need 
to fill a certain number of slots at all times with holders of 
Individual Training Accounts. Reauthorizing legislation should clarify 
that providers of on-the-job training, customized training or incumbent 
worker training may be citified to receive funds by the state through 
contracts as well as through ITA's.
    Reauthorizing legislation should encourage One-Stops to adopt a 
consumer-friendly approach to serving hard-to-serve populations, and 
all customers, who may be incapable or uncomfortable using computerized 
or text-based services. At a minimum, One-Stops should offer each 
customer an initial, language-appropriate, in-person orientation to the 
information and services available through the center. Because what is 
measured is what is implemented, performance measures should include 
outcomes for recipients of core services only and be reported by 
special population category.
    Reauthorizing legislation should specifically include as hard-to-
serve older workers (say over age 55), individuals within two years of 
their TANF time limits, displaced homemakers and persons seeking 
employment in nontraditional occupations, including computer science 
and technology, as hard-to-serve populations whose employment and 
training needs must be addressed in local plans.
    Older workers, not historically thought of as a WIA target 
population have been significantly underrepresented in the customer 
base despite the growth of this population, their increasing need and 
desire to continue working and the emerging recognition of employers 
that they will need to accommodate older workers if they are to fill 
their skilled workforce needs.
    Another obstacle for older workers' participation in workforce 
development is the incentive within WIA to achieve higher earnings for 
system graduates. While we believe older workers, like everyone in the 
system, should be helped to achieve self-sufficiency wages, older 
workers who have income from a pension, Social Security and/or private 
retirement accounts, may be best be helped by working part-time or in a 
less demanding job that supplies the gap-filling income they need. 
Adjustments for older workers with income from such sources would 
mitigate this disincentive.
    <bullet> Require state WIBs to address in the state plan the 
strategy that will be used to ensure that the workforce development 
system is structured to ensure gender parity in all forms of skills 
training.
    Women and girls make up a majority of participants in WIA 
programs--57 percent of adult programs; 52 percent of dislocated worker 
programs; and 53.2 percent of youth programs. Nevertheless, the 
training they receive is largely concentrated in lower paying service 
and clerical fields. Compared to men, with the probable exception of 
allied health professions, women receive very little training in higher 
paying, traditionally male-dominated occupations. For example, WIASRD 
records for April 2004 to March 2005 show 57.6 percent of males but 
only 8.8 percent of women in training for the category ``installation, 
repair, production, transportation and material moving.''
    WIA, thus, tends to perpetuate at least one cause of women's wage 
gap--occupational clustering. In a 2005 study, Jobs for the Future 
identified the six occupational categories with the highest earnings 
and growth potential open to workers with a two-year degree or less. Of 
the six, four are heavily male dominated.\5\ For example, women are 
only 33.2 percent of computer support specialists, who earn a median of 
$43,660 annually, and 2.6 percent of electricians, $45,200. 
(Conversely, male trainees could be shown through career counseling 
that in they could receive training for the high-demand field of 
nursing, where 93.4 percent of LPN's are women and whose average annual 
wage is $35,580.\6\
    States and local workforce boards should be encouraged to provide 
technical assistance and information to One-Stop staff to on counsel 
job seekers about high-wage/high demand jobs and nontraditional jobs 
for their gender that can lead to self-sufficiency employment. 
Workforce boards in Fresno, Cal., and Lancaster, Penn, for example, 
have used self-sufficiency standards to guide their selection of target 
occupations and job training providers, adopting policies that restrict 
training funds to skills in high demand locally that pay self-
sufficient wages.
    The Lancaster County Workforce Investment Board has focused its 
training on seven industry sectors--health care, biotechnology, 
agriculture and food processing, construction, communications, metals 
and metal fabricating and automotive 00 that are considered ``gold 
collar'' jobs requiring high skills and offering self-sufficient wages.
    Seattle-King County, as mentioned above, uses a Self-Sufficiency 
Calculator not only for career counseling to help a customer select 
from among occupations that will lead to self-sufficiency, but also to 
track individual performance by plugging into the WIB's on-line 
database wages upon exit. The council has found such a measure more 
meaningful than average wage gain or median wage upon exit.
    The WIA system can and must be re-structured to meet the demand for 
skilled workers in our nation's workforce, and at the same time serve 
job seekers who face barriers in gaining access to employment that can 
bring them economic security. Wider Opportunities for Women looks 
forward to working with the committee as it improves our public 
workforce development system.
                                endnotes
    \1\ The Self-Sufficiency Standard was developed by Dr. Diana Pearce 
of the University of Washington who at the time was Director of the 
Women and Poverty project at WOW
    \2\ For instance , the National Center on Children and Poverty has 
drawn on the Self-Sufficiency Standard in the development of its matrix 
presented today,
    \3\ Reality Check: Promoting Self-Sufficiency in the Public 
Workforce System, http://www.wowonline.org/wow/.
    \4\ California, Indiana, Illinois, New York, Pennsylvania, 
Washington, Wyoming, the District of Columbia and Colorado (in 
progress). See Appendix I for the website sites.
    \5\ Susan R. Crandall and PhD, Surabhi Jain, ``New Directions in 
Workforce Development: Do They Lead to Gains for Women?'' New England 
Journal of Public Policy, spring 2007, p. 86, Crittenton Women's Union 
www.liveworkthrive.org,
    \6\ Bureau of Labor Statistics, Household Survey Data for 2005.
                                 ______
                                 

   Prepared Statement of the National Network for Women's Employment

    Dear Chairmen Miller and Hinojosa and Ranking Members McKeon and 
Keller: On behalf of Women Work! The National Network for Women's 
Employment, thank you for the opportunity to offer recommendations as 
you renew efforts to complete the reauthorization of the Workforce 
Investment Act (WIA).
    Women Work! is the nation's largest network of employment and 
training support programs for unemployed and underemployed women. 
Located within diverse institutions that include community colleges, 
YWCAs, Community Action Programs, faith-based organizations, and 
community-based organizations, Women Work! programs serve more than 
300,000 women in economic and employment transition each year. Since 
1978, our network has assisted more than 10 million women to 
successfully gain the skills they need to succeed in the workforce.
    Despite progress over the last few decades, women in the United 
States remain segregated in some of the lowest paying jobs in our 
country.\1\ Nearly 15 million women in the U.S. earn less than $25,000 
a year despite working in full-time, year-round jobs.\2\ Largely as a 
result, one out of every 14 working women and one out of every five 
working single mothers are poor.\3\
    In PY 2004, nearly two-thirds of all adult WIA exiters were 
women.\4\ As the nation's workforce development system, the Workforce 
Investment Act can and should play an important role in advancing women 
into high-wage work that allows them to support their families. Yet, 
for many unemployed and underemployed women, WIA has not met this 
commitment.
    Women Work! believes that significant reforms are needed to ensure 
that the workforce investment system can meet the needs of women who 
face barriers on the road to economic security. We urge the Committee 
to strongly consider the following recommendations to improve the 
effectiveness of WIA at advancing economic opportunities for women:
    <bullet> Make moving low-income women, men and their families 
toward self-sufficiency a priority for the workforce investment system.
    <bullet> Better address women's barriers to employment by: 1.) 
promoting increased collaboration with organizations with expertise in 
serving unemployed and underemployed women; and 2.) by equipping One-
Stop Centers to address the unique needs of hard-to-serve women.
    <bullet> Structure the workforce investment system to actively 
provide opportunities for women to train for non-traditional 
occupations and other high-skill, high-wage jobs.
    <bullet> Fulfill WIA's commitment to helping displaced homemakers 
re-enter the workforce.
    <bullet> Ensure that all job seekers have access to child care, 
transportation and other support services.
    Thank you again for the opportunity to provide input and your 
commitment to improve the skills of our nation's workforce.
Women Work! Recommendations
    1.) Make moving low-income women, men and their families toward 
self-sufficiency a priority for the workforce investment system.
    When WIA replaced the Job Training Partnership Act (JTPA) in 1998, 
it mandated a dramatic shift in the way that job training services are 
delivered in the United States. Under WIA, federal workforce funds are 
no longer exclusively targeted toward serving low-income adults. 
Instead the workforce investment system is to provide universal access 
to employment and training services. At the same time, federal funding 
for job training and employment services has declined. As a result, the 
system is expected to ``be all things to all people'', without the 
necessary resources to do so. In many cases, the women and men who most 
need skills training in order to achieve self-sufficiency have suffered 
the consequences.
    Single parents--the majority of whom are women and earn less than 
$20,000 a year \5\--have especially lost out under WIA. Under JTPA in 
1998, 43.7 percent of adults receiving training were single parents. In 
the first year that WIA data was collected, this share fell by almost 
10 percentage points, to 34.5 percent. In 2003, only 24.6 percent of 
adults receiving training under WIA were single parents.\6\
    Women Work! recommends the following changes to WIA to ensure a 
focus on moving low-income women, men, and their families toward self-
sufficiency:
    <bullet> Eliminate the ``sequence of services'' requirement.
    Rationale: When Congress authorized WIA, it stipulated that 
different types of services (core, intensive, training) should be 
provided to clients in a particular sequence, with the expectation that 
clients would be eligible for the next, higher-cost form of service 
only if they had failed to secure employment after receiving the lower-
cost services. Individuals must first receive core services to be 
eligible for intensive services, and must receive both core and 
intensive services to be eligible for training services.
    Many States and local areas have interpreted WIA's ``sequence of 
service'' requirement rigidly, creating additional barriers to 
employment and training for women who struggle to navigate through the 
requirements. One Women Work! member working at a community college in 
the Midwest described her frustration with the way eligibility 
requirements were implemented in her community: ``The One Stop makes 
our participants jump through too many hoops. It is almost as if they 
don't want to provide funding for participants to attend school. They 
seem to make it very difficult for the participants to receive 
services.'' \7\
    Local WIA systems should be able to offer core, intensive, or 
training services in a manner that best suits job seekers' needs. For 
many unemployed and underemployed women--especially those with multiple 
barriers to employment--a comprehensive assessment of aptitude, 
interest and family income needs is the first step toward employment 
and training services that lead to economic self-sufficiency.
    <bullet> Collect data on all WIA participants and require that WIA 
performance measurement be adjusted for economic and demographic 
characteristics and for known barriers to employment of the 
participants served.
    Rationale: WIA, unlike its predecessor JTPA, does not require that 
performance measures for a local area be adjusted for economic and 
demographic characteristics and for known barriers to employment of the 
participants served.
    In addition, States and local areas are not required to report on 
all participants--only those who receive intensive and/or training 
services. In 2004, GAO found that in one case only 5.5 percent of the 
individuals who walked into the One-Stop were actually registered for 
WIA and tracked for performance outcomes.\8\
    As a result of both of these factors, ``cream skimming'' 
participants has become a practice widely reported throughout the 
system. Caseworkers enroll participants who are most likely to achieve 
desired outcomes (those who would have done very well without the 
benefit of the program), rather than those most in need of skill 
upgrades and other employment services in order to obtain work with 
self-sufficiency wages.
    To ensure that the workforce development system is serving those 
who need extra help, as well as those who do not, data should be 
collected on every participant. In addition, performance measurement 
should be adjusted for economic and demographic characteristics and 
known barriers to employment of the participants served.
    <bullet> Make the statutory priority for low-income job seekers 
meaningful by: 1.) eliminating the stipulation that priority be given 
only when funds are limited, and 2.) requiring States to include a 
process that the state will use to ensure that local areas implement 
the priority system for services in the State plan.
    Rationale: While WIA established statutory priority that funds be 
spent on intensive and training services for recipients of public 
assistance and other low-income individuals when ``funds allocated to a 
local * * * are limited'', the law is not clear on how this 
prioritization must be implemented. Further, the significant drop in 
services to low-income adults suggests that in many places, the 
priority may not be being implemented at all. (Under the last year of 
JTPA, 30.7 percent of adults served received public assistance and 96 
percent were low income; in 2003 only 13.7 percent of adults served 
under WIA received public assistance and only 68.4 percent served were 
low income.\9\)
    States should develop a process for monitoring local areas to 
ensure that they comply with this provision and should describe this 
process in the State plan. In addition, the stipulation that priority 
only be given when funds are limited should be deleted.
    2.) Better address women's barriers to employment by: 1.) promoting 
increased collaboration with organizations with expertise in serving 
unemployed and underemployed women; and 2.) by equipping One-Stop 
Centers to address the unique needs of hard-to-serve women.
    Many women who require new skills to get and keep good-paying jobs 
experience unique and often complex barriers to training and 
employment. Research demonstrates that reducing these barriers is 
critical to improving employment and retention rates for women in 
economic transition.\10\ If the workforce investment system is to 
succeed in increasing the employment, retention and earnings of all job 
seekers, the system must be able to address the needs of single 
parents, single pregnant women, displaced homemakers and other women 
with barriers to employment. An important piece of this solution will 
be more effectively utilizing the thousands of local programs across 
the country with expertise in supporting women as they enter, re-enter 
and advance in work.
    Women Work! recommends the following changes to WIA to better 
address women's barriers to employment:
    <bullet> Require State and local plans to describe how community-
based organizations, services and agencies who work with women with 
barriers to employment will be utilized to more effectively serve these 
populations--including providing intensive and training services.
    Rationale: Throughout the United States, thousands of local 
programs already possess decades of experience in meeting the needs of 
single parents, displaced homemakers and other women with barriers to 
employment. The workforce investment system can best serve unemployed 
and underemployed women by utilizing the expertise of these local 
organizations.
    <bullet> Require that local board membership include 
representatives with expertise in serving women with barriers to 
employment, including single parents, displaced homemakers and women 
training for nontraditional employment.
    Rationale: Local boards play a substantial role in determining 
policies for service delivery. Representatives with expertise in 
serving single parents (including single pregnant women), displaced 
homemakers and women training for nontraditional employment should be 
included on the local WIB to ensure that the unique employment and 
training needs of these populations are being addressed.
    <bullet> Allow training to be provided through Individual Training 
Accounts (ITAs) or contract training.
    Rationale: Current law unnecessarily discourages the use of 
contract training by allowing it only as an exception to ITAs. However 
many highly effective, specialized programs for single parents, 
displaced homemakers and other hard-to-serve populations cannot assume 
the cash-flow risks associated with voucher payment. As a result, many 
women with barriers to employment cannot access employment and training 
programs that would best suit their needs.
    In order to ensure that States and local areas have maximum 
flexibility to address barriers to employment and provide the most 
appropriate type of training to program participants, WIA law should be 
amended to allow for training to be provided through ITAs or contract 
training, whenever necessary. Contract training should not be an 
exception.
    WIA law should also ensure that there is a fair and open process 
for awarding contracts.
    <bullet> Require that core services be offered in a format that is 
user-friendly and understandable to all One-Stop center customers.
    Rationale: Many women with multiple barriers to employment--for 
example, a displaced homemaker attempting to re-enter the workforce 
with little to no computer skills--are unable to take advantage of 
highly-automated, self-service One-Stop centers. At a minimum, centers 
should offer each customer an immediate and language-appropriate in-
person group orientation to the information and services available at 
the Center.
    <bullet> Require States to use statewide funds to provide technical 
assistance to One-Stop operators on serving single parents, single 
pregnant women, displaced homemakers, individuals training for 
nontraditional employment and other hard-to-serve populations.
    Rationale: In a national survey of women's service providers, over 
60 percent of respondents reported that One-Stop service delivery to 
women in economic transition was poor or only fair. A likely reason is 
that One-Stop personnel lack the expertise and training necessary to 
effectively serve women with barriers to employment. Mandating the 
provision of technical assistance will help to ensure that the 
workforce investment system is more responsive to the needs of these 
populations.
    <bullet> Require local plans to describe how services will be 
provided to single parents, single pregnant women, displaced 
homemakers, individuals training for nontraditional employment and 
other hard-to-serve populations, including the provision of outreach, 
intake, assessments, service delivery and the training of One-Stop 
staff.
    Rationale: Local areas must be able to provide a range of outreach, 
intake, assessment and other services to ensure that women with 
barriers to employment are successful in increasing skills, obtaining 
employment and achieving self-sufficiency.
    3.) Structure the workforce investment system to actively provide 
opportunities for women to train for non-traditional occupations and 
other high-skill, high-wage jobs.
    Increasing women's access to nontraditional jobs--which typically 
offer wages that are 20 to 30 percent higher than jobs in which women 
traditionally predominate\11\--is a compelling strategy for raising 
women's incomes and advancing family economic self-sufficiency. Across 
the United States, women remain segregated in low-wage service sector 
occupations with limited benefits and opportunities for advancement, 
while positions in the skilled trades and technology sector are left 
unfilled. The Workforce Investment Act (WIA) should work to bridge this 
gap.
    To date, however, WIA has not made significant efforts to actively 
inform women about opportunities in nontraditional jobs or to provide 
women with assistance in pursuing these opportunities. According to 
data submitted in PY 2004, only 2.9 percent of women adult exiters were 
employed in nontraditional jobs in the quarter after exit.\12\ This is 
a significant missed opportunity that can and should be corrected in 
reauthorization.
    Women Work! recommends the following changes to WIA to actively 
provide opportunities for women to train for non-traditional 
occupations:
    <bullet> Require States to use statewide funds to implement 
programs that increase the number of individuals training for and 
placed in nontraditional employment.
    Rationale: Current law allows States to use statewide funds for 
implementing programs to increase the number of individuals training 
for and placed in non-traditional employment 
(Sec. 134(a)(B)(3)(vi)(II). However, few States are taking advantage of 
this opportunity. A 2002 GAO study on the workforce investment system 
revealed that only one State, Vermont, spent over 10 percent of these 
funds on implementing training programs for nontraditional 
employment.\13\ States should be required to implement these programs.
    <bullet> Require that States use statewide funds for developing and 
evaluating the effectiveness of strategies to ensure that employment 
and training activities carried out under WIA are placing men and women 
in jobs, education and training that lead to comparable pay.
    Rationale: On average, wages for female exiters of WIA programs lag 
behind wages for male exiters by about $1,000 per quarter. For example, 
during PY2004 male exiters earned on average $5,842 in the fifth 
quarter after exit, while female exiters earned on average $4,766 in 
the fifth quarter after exit.\14\
    While these discrepancies may not be caused by the workforce 
investment system itself (indeed the pre-program gender wage difference 
is slightly higher than the difference after exit), the system can and 
should take a proactive approach toward increasing women exiters' 
earnings. States should do so by working to ensure that employment and 
training activities are placing men and women in jobs, education and 
training that lead to comparable pay.
    States should describe these strategies in their State plans and 
should be required to evaluate and include information on these 
strategies in their periodic State evaluation reports.
    <bullet> Require that employment statistics information provided at 
One-Stop centers include information about non-traditional occupations 
for women.
    Rationale: Female job seekers are often unaware that nontraditional 
jobs for women pay significantly better and offer more opportunities 
for advancement. The current law requirement that One-Stop centers 
provide employment statistics as part of core services 
(Sec. 134(d)(2)(E)) should be expanded to require that One-Stop centers 
provide information about high wage, high skill jobs that are 
nontraditional for women. This should include information relating to 
earnings, skill requirements and career ladders for such occupations.
    4.) Fulfill WIA's commitment to helping displaced homemakers re-
enter the workforce.
    Displaced homemakers--women seeking to re-enter the workforce after 
time out caring for family members--continue to slip through the cracks 
of the workforce development system. In 1998, Congress eliminated 
funding set-asides for displaced homemakers in the Perkins Vocational 
and Technical Education Act, intending that these populations would be 
served through the new workforce investment system. However, this has 
not been the case.
    According to Census data, there are over 7.3 million women in the 
United States whose primary job has been homemaking, but who have lost 
their main source of income through divorce, separation, or 
widowhood.\15\ Yet, over two-thirds of local boards using dislocated 
worker funds report serving fewer than 25 displaced homemakers 
annually.\16\ In PY2003, displaced homemakers comprised only 1.5 
percent of the dislocated worker population provided with intensive or 
training services under WIA.\17\
    Women Work! recommends the following changes to WIA to fulfill its 
commitment to helping displaced homemakers re-enter the workforce:
    (See also recommendations for women with barriers to employment 
under section 3 of this document.)
    <bullet> Require States to use statewide funds to implement 
innovative programs for displaced homemakers.
    Rationale: In order to improve services for women re-entering the 
workforce, current law allows for the statewide development of 
innovative programs for displaced homemakers (Sec. 134(a)(B)(3)(vi)(I). 
However, few States are utilizing this opportunity. In 2002, the GAO 
found that only one state--Virginia--was using more than 10 percent of 
its set-aside funds to serve displaced homemakers.\18\ States should be 
required to implement these programs.
    <bullet> Ensure that One-Stop centers can provide comprehensive 
programs for displaced homemakers as part of intensive services.
    Rationale: The most successful employment and training programs for 
displaced homemakers are holistic, stress continuity of relationship 
between caseworker and client and address the unique needs of women re-
entering the workforce after many years absence--for instance, how to 
talk about skills gained in `non-paid' experiences; how to handle 
interview questions about time out of the workforce; and how to 
maximize transferable skills.
    This change would ensure that One-Stop operators can develop or 
contract for holistic programs that help clients who are displaced 
homemakers succeed in training and employment.
    <bullet> Update the definition of displaced homemaker.
    Rationale: The following definition aligns with the definition 
included in the recently reauthorized Carl D. Perkins Career and 
Technical Education Improvement Act of 2006. Comparable definitions 
will facilitate better service delivery coordination between WIA and 
the career and technical education system for displaced homemakers.
    5.) Ensure that all job seekers have access to child care, 
transportation and other critical support services.
    Women in economic and employment transition are often prevented 
from increasing skills, attaining stable employment and/or achieving 
self-sufficiency because they lack adequate child care and/or 
transportation, or have other critical needs. In a recent national 
survey of service providers conducted by Women Work!, nearly 80 percent 
of respondents said that lack of adequate child care often or very 
often prevented women clients from succeeding in training programs. 
Sixty-three percent said that lack of transportation to the training 
site often or very often prevented success.
    Although the One-Stop system was intended to address these needs by 
coordinating the delivery and referral of supportive services, the 
provision of child care, transportation and other critical assistance 
is often inadequate for women job seekers.
    Women Work! recommends the following changes to WIA to ensure that 
all job seekers have access to child care, transportation and other 
support services:
    <bullet> Allow local funds to be used to provide supportive 
services to WIA participants, without restriction.
    Rationale: Current law allows local funds to be spent on supportive 
services only if the customer is unable to obtain them through other 
programs. This provision--combined with the fact that current law 
requires only that supportive service needs be assessed, but not 
addressed--unnecessarily deters local WIBs from adequately meeting 
women's needs for child care assistance, transportation assistance, and 
other support services. In a national survey of local workforce boards, 
43 percent reported that less than 10 percent of job seekers are 
receiving WIA-funded supportive services.\19\
    <bullet> Require local plans to include descriptions of how One-
Stop centers will provide appropriate supportive services or provide 
active referrals to appropriate supportive services.
    Rationale: In the same national survey of workforce boards, 77 
percent agreed that the process for supportive service referral and 
delivery warranted improvement.\20\ Including supportive service 
referral and provision as an element of the local plan ensures that 
One-Stop centers develop adequate procedures to connect clients with 
supportive services.
                                endnotes
    \1\ Women's Bureau, United States Department of Labor, 20 Leading 
Occupations of Employed Women. http://www.dol.gov/wb/factsheets/
20lead2006.htm.
    \2\ U.S. Census Bureau, Current Population Survey, 2006 Annual 
Social and Economic Supplement. Women Work! calculation.
    \3\ U.S. Census Bureau, Income, Poverty and Health Insurance 
Coverage in the United States, 2003. Detailed Tables and Historical 
Tables for the Current Population Survey. http://www.census.gov/prod/
2004pubs/p60-226.pdf. Calculations by Legal Momentum, ``Reading Between 
the Lines: Women's Poverty in the United States, 2005'' Legal Momentum, 
September 2006. <www.legalmomentum.org>.
    \4\ 2004 WIASRD Data Book, Social Policy Research Associates, 
February 2, 2006.
    \5\ Women Work! The National Network for Women's Employment, Chutes 
and Ladders: The Search for Solid Ground for Women in the Workforce, 
2005. Data taken from U.S. Census Bureau March 2003 Supplement to the 
Current Population Survey.
    \6\ Center for Law and Social Policy, Declining Share of Adults 
Receiving Training Under WIA are Low-Income or Disadvantaged, December 
14, 2005.
    \7\ Electronic survey of Women Work! member organizations. 
Administered March 14, 2007.
    \8\ U.S. GAO, States and Local Areas Have Developed Strategies to 
Assess Performance, but Labor Could Do More to Help, 2004.
    \9\ Center for Law and Social Policy, Declining Share of Adults 
Receiving Training Under WIA are Low-Income or Disadvantaged, December 
14, 2005.
    \10\ See, for instance The Women's Employment Study, http://
www.fordschool.umich.edu/research/poverty/wes/.
    \11\ Women and Nontraditional Work, Wider Opportunities for Women, 
2003. Calculations based on Department of Labor, Bureau of Labor 
Statistics data.
    \12\ 2004 WIASRD Data Book, Social Policy Research Associates, 
February 2, 2006.
    \13\ U.S. GAO, Workforce Investment Act: Better Guidance and 
Revised Funding Formula Would Enhance Dislocated Worker Program, 
February, 2002.
    \14\ 2004 WIASRD Data Book, Social Policy Research Associates, 
February 2, 2006.
    \15\ Women Work! The National Network for Women's Employment, 
Chutes and Ladders: The Search for Solid Ground for Women in the 
Workforce, 2005. Data taken from U.S. Census Bureau March 2003 
Supplement to the Current Population Survey.
    \16\ Wider Opportunities for Women, What Local Workforce Boards Say 
About Services for Women, 2003.
    \17\ 2004 WIASRD Data Book, Social Policy Research Associates, 
February 2, 2006.
    \18\ U.S. GAO, Workforce Investment Act: Better Guidance and 
Revised Funding Formula Would Enhance Dislocated Worker Program, 
February, 2002.
    \19\ Wider Opportunities for Women, What Local Workforce Boards Say 
About Services for Women, 2003.
    \20\ Ibid.
                                 ______
                                 
    [Responses to questions for the record from Ms. Butler 
follow:]
                                                    August 9, 2007.
Hon. Ruben Hinojosa, Chairman,
Subcommittee on Higher Education, Lifelong Learning, and 
        Competitiveness, Longworth House Office Building, Washington, 
        DC.
    Dear Chairman Hinojosa: I am writing to submit the following 
additional responses to questions asked of me during the July 26th 
hearing on the Workforce Investment Act.
    First, I want to again thank you and the Members of the 
Subcommittee for inviting me to share my personal journey as a consumer 
of the Vocational Rehabilitation Program on the 17th Anniversary of the 
Signing of the Americans with Disabilities Act.
    I was asked if compliance with the Americans with Disabilities Act 
could be improved and if the spirit of the law as Congress intended was 
being fully recognized.
    I believe compliance with the law could always be improved and 
there are two specific items Congress could consider. First, while the 
Workforce Investment Act was authorized nearly ten years ago, not all 
one-stop career centers are fully accessible to individuals with 
disabilities, particularly those with significant disabilities. My 
visits to one-stop career centers have been quite disappointing. As a 
person with low vision, I need magnification software to assist me in 
reading a computer screen and large font on printed materials. The 
information disseminated at the one-stop career centers simply was not 
available in alternate formats such as large print or Braille.
    While the staff appeared willing to assist me, they lacked the 
necessary expertise in the services and supports available to assist a 
person with a significant disability, like legal blindness in seeking 
career opportunities and full inclusion into the community. In 2007 
this reality is not something we should accept. The ``one size fits 
all'' approach of the one-stop career centers denies the individual 
with a disability the expertise of the qualified Vocational 
Rehabilitation Counselor who can assist them in developing their 
individual employment plan that considers their needs along with the 
needs of business. Vocational Rehabilitation's holistic approach to 
employment benefits the consumer with a disability, businesses and 
America's workforce.
    I respectfully request that Congress do all it can to insure that 
all individuals with disabilities, including those with significant 
disabilities, have full and equal access to the information and 
services available to non-disabled members of the community at the one-
stop career centers.
    Second, the Subcommittee's support of the recently introduced ADA 
Restoration bills would assist in clarifying the Congressional intent 
of the ADA. The Americans with Disabilities Act Restoration Act enjoys 
bipartisan support and its passage is critical to the civil rights of 
all individuals with disabilities.
    Finally, pursuant to WIA, VR is a mandatory partner and contributes 
millions of dollars to the one-stop career centers and given the 
unmatched expertise and success of the VR Program, the State VR 
Director of both the General VR Agency and the VR Agencies for the 
Blind, where applicable, must have a strong presence on both the State 
Workforce Investment Boards (SWIBs) and the local Workforce Investment 
Boards (WIBs).
    The State Workforce Investment Boards have responsibility for 
development of the State Plan and continuous improvement of a statewide 
system of activities that assure coordination and non-duplication among 
the programs authorized under WIA. It was the intent of Congress that 
the lead State Agency officials with responsibility for the programs 
and activities of mandatory partners be voting members of the State 
Workforce Boards. In order for VR services to have a significant impact 
on workforce investment activities that could potentially increase the 
employment, retention and earnings of persons with disabilities, both 
the State VR Director and the Director of the State Agency for the 
Blind, in States that have a separate State Agency for the Blind, must 
be voting members of the State Workforce Investment Boards.
    The Workforce Investment Act also requires Local Workforce 
Investment Boards (WIBs) include representatives of local community-
based organizations, including organizations representing individuals 
with disabilities and veterans. As a result of this requirement, many 
local WIBs include representatives of the VR Program and individuals 
with disabilities. It is imperative that individuals with the expertise 
and experience in the VR Program be at the table when funding decisions 
are made to ensure that the needs of individuals with disabilities have 
authentic representation at the local level and that VR dollars are 
spent on services and supports for individuals with disabilities and 
not diverted to other populations.
    I respectfully urge Congress to mandate that both the State VR 
Director of the General Agency and the State VR Director of the State 
Agency for the Blind (where applicable) serve on both the SWIBs and the 
WIBs.
    As your meaningful work on the Subcommittee progresses, I remain 
available as a continued resource bringing with me my experiences as a 
VR consumer and a contributing member of corporate America.
            Sincerely,
                                               Beth Butler,
Disability & Accommodations Consultant; VP, Employment Compliance, 
                                                     Wachovia Corp.
                                 ______
                                 
    [Responses to questions for the record from Mr. Ware 
follow:]

                 Written Responses to Hearing Questions

    On behalf of the nation's governors, thank you for the opportunity 
to testify before the U.S. House Education and Labor, Subcommittee on 
Higher Education, Lifelong Learning, and Competitiveness on July 26, 
2007 regarding the reauthorization of the Workforce Investment Act 
(WIA). Included below are the National Governors Association's 
responses to select questions asked during the hearing, which 
supplement the testimony given by Charles Ware on behalf of NGA.
What can be done to support high school reform?
    Across the nation, governors are leading efforts to improve the 
rigor and relevance of our nation's high schools. Despite this effort, 
in some communities ``dropout factories''--high schools that produce a 
large percentage of high school dropouts--exist. To help states reform 
these high schools and provide greater support to assist America's 
youth, Congress should support several reforms.
    First, Congress should eliminate the requirement to spend a 
percentage of Youth funds on out-of-school or in-school youth. WIA 
should not require states to spend a certain percentage of funds on 
``out-of-school'' or ``in-school'' youth. Such a federal requirement is 
outdated and out-of-touch with the needs of high school dropouts and 
current ongoing high school reform efforts. The focus of ``youth 
funding'' should be to serve high-risk, basic skill deficient youth to 
prepare them for future employment or education, and an elimination of 
the requirement allows Governors to direct funding to youth in their 
states that need it the most.
    Second, Congress should provide governors with expanded WIA funding 
flexibility and transferability, building upon existing flexibility. 
Governors and state leaders, working with local leaders, are developing 
innovative workforce systems to better respond to job seekers' needs, 
reduce fragmentation, promote accountability, and better engage 
business. However, states will be unable to achieve the true vision of 
WIA one-stops without additional state funding flexibility and 
transferability. Such flexibility is critical to enhance states' 
ability to help local leaders improve services and strengthen 
partnerships, and to target resources to state and local needs.
    Third, Congress should support the NGA/NASWA Common Measures 
Proposal. The proposal streamlines the complex system of nearly 100 
varying and incomparable performance measures into four critical 
measures focused on customer outcomes, including short-term and long-
term employment rates, earnings, and credential completion. This use of 
common measures will increase system-wide accountability and 
transparency, while significantly decreasing administrative costs and 
inefficiencies. These four changes will give states the ability to more 
efficiently serve youth.
    Finally, Congress should build upon governors' efforts to redesign 
America's high schools as outlined in the NGA Innovation America: A 
Partnership legislative proposal. The full document is attached for 
your reference.
How can Congress help workers (including our returning veterans and 
        reformed prisoners) get better jobs?
    In the 21st century, our economic strength will depend on the 
ability of each state, and our nation as a whole, to develop a 
coordinated and aligned workforce system that supports, trains, and 
prepares skilled workers. With a large number of men and women in 
America looking to get a better job, including those returning from 
military service and offenders reentering the workforce, members of 
Congress asked how states could better serve or help individuals 
improve their skills so they can get a better job.
    Training services are essential to help job seekers access better 
jobs and remain competitive in the increasingly skilled workforce. In 
order to allow job seekers to access the training that they need, 
Congress should collapse core and intensive services into one new 
category of eligible, allowable services, and eliminate ``intensive 
services'' from the list of priority services under Section 134 (E) and 
adding ``or other populations as identified by the state as priority to 
receive training services.''
    Although ``core'' and ``intensive'' services are valuable for many 
job seekers, current law requires states to spend limited resources on 
these services before an individual can access training. This so-called 
``sequence of services'' impedes the delivery of necessary services at 
the earliest possible time and should be eliminated to ensure that job 
seekers and states have the flexibility to expand access to training 
services quickly, effectively, and at a lower cost.
    In order to break the cycle of recidivism for prisoners, offenders 
should be given access to training and education obtain the skills 
necessary to get a ``good'' or ``better'' job. Unfortunately, the 
current ``sequence of services'' for workforce training means that 
offenders attempting to reenter the workplace have to work their way 
through a long and arduous array of required programs before they can 
access training. These kinds of delays pose a challenge to all 
populations, but could be particularly challenging for offenders. 
Giving states the flexibility to allow customers to access the programs 
they need by eliminating the ``sequence of services'' would remove this 
roadblock to helping offenders reenter as upstanding members of 
society.
    In addition to providing training services for workers, the 
critical shortage of skilled workers in areas of high demand is a 
significant employment issue that Congress should address in the WIA 
reauthorization. Congress should support and expand the U.S. Department 
of Labor's Workforce Innovation in Regional Economic Development 
(WIRED) initiative, which builds workforce partnerships between 
regions, states, and businesses. Congress should also support two 
competitive matching-grant programs to Governors, funded out of the 
Secretary of Labor's set-aside funds, to help states plan and create 
efficient workforce systems aligned with statewide, regional, or sector 
specific education, economic development, and business needs. States 
would be required to contribute a non-federal match of 20%.
What are your views on the proposed WIA rescission?
    Finally, Governors would like to comment on the proposed $335 
million rescission to WIA in the U.S. House Labor-HHS-Education 
Appropriations Bill for fiscal year 2008. Education and workforce 
programs are top federal funding priorities for the nation's governors. 
Governors support increases in the federal investment in key education 
programs, as identified in their May 23, 2007 letter to Congress 
(available at www.nga.org). In addition, Governors also support federal 
investment in workforce programs. For this reason, governors are 
concerned by the House's proposed $335 million rescission, which would 
effectively change federal law for states to spend WIA funds and 
adversely impact services to job seekers across the country.
    As noted in the NGA testimony, states greatly appreciate and need 
the current flexibility to carry forward WIA funds. This flexibility is 
critical to provide training and promote responsible fiscal management 
of WIA funds, as supported by a study from the National Association of 
State Workforce Agencies (NASWA) shows that states are spending all but 
one tenth of one percent of their WIA funds within the 3-year period. 
The proposed rescission reclaims funds from the second and third years 
of the three-year cycle that states have to spend WIA funds--one full 
year before the spending deadline. The rescission would penalize states 
for being fiscally responsible.
    Altering the period in which states have to spend funds is a 
fundamental change to the WIA law and should not be carried out through 
the appropriations process. In addition, the terminology around this 
provision may have created confusion over the last few years that have 
led to inaccurate and uninformed claims that states have ``unspent 
federal WIA funds.'' To alleviate this problem, Congress should work to 
clarify the terminology regarding carry forward and obligations.
    Thank you for the opportunity to make additional comments on the 
reauthorization of WIA. If you have any additional questions, please do 
not hesitate to contact us.
                                 ______
                                 
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
